<html>
<title> - IMPLEMENTING U.S. POLICY IN SUDAN</title>
<body><pre>[Senate Hearing 107-784]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-784
 
                    IMPLEMENTING U.S. POLICY IN SUDAN
=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 11, 2002

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate






                           U.S. GOVERNMENT PRINTING OFFICE
83-166                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001








                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
PAUL S. SARBANES, Maryland           JESSE HELMS, North Carolina
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       GORDON H. SMITH, Oregon
PAUL D. WELLSTONE, Minnesota         BILL FRIST, Tennessee
BARBARA BOXER, California            LINCOLN D. CHAFEE, Rhode Island
ROBERT G. TORRICELLI, New Jersey     GEORGE ALLEN, Virginia
BILL NELSON, Florida                 SAM BROWNBACK, Kansas
JOHN D. ROCKEFELLER IV, West         MICHAEL B. ENZI, Wyoming
    Virginia

                   Antony J. Blinken, Staff Director
            Patricia A. McNerney, Republican Staff Director

                                 ------                                

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                RUSSELL D. FEINGOLD, Wisconsin, Chairman
CHRISTOPHER J. DODD, Connecticut     BILL FRIST, Tennessee
BARBARA BOXER, California            SAM BROWNBACK, Kansas
JOHN D. ROCKEFELLER IV, West         GORDON H. SMITH, Oregon
    Virginia

                                  (ii)

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Boxer, Hon. Barbara, U.S. Senator from California, prepared 
  statement submitted for the record.............................    10
Feingold, Hon. Russell D., U.S. Senator from Wisconsin, prepared 
  statement submitted for the record.............................     3
Isaacs, Ken, international director of projects, Samitarian's 
  Purse, prepared statement, including an attachment, submitted 
  for the record.................................................     5
Kansteiner, Hon. Walter H., Assistant Secretary of State for 
  African Affairs, Department of State, Washington, DC...........    10
    Prepared statement...........................................    14
    Additional questions submitted for the record by Senator 
      Biden......................................................    77
    Additional question submitted for the record by Senator Helms    78
    Additional questions submitted for the record by Senator 
      Frist......................................................    78
Morrison, Dr. J. Stephen, director, Africa Program, Center for 
  Strategic and International Studies, Washington, DC............    46
    Prepared statement...........................................    50
Prendergast, John, co-director, Africa Program, International 
  Crisis Group, Washington, DC...................................    40
    Prepared statement...........................................    42
    Additional question submitted for the record by Senator Frist    79
Rone, Jemera, counsel, Africa Division, Human Rights Watch, 
  Washington, DC.................................................    53
    Prepared statement...........................................    56
Townsend, Paul, country representative, Sudan Program, Catholic 
  Relief Services, Nairobi, Kenya................................    59
    Prepared statement including 3 appended attachments..........    61
Winter, Hon. Roger, Assistant Administrator for Democracy, 
  Conflict and Humanitarian Assistance, U.S. Agency for 
  International Development [USAID], Washington, DC..............    16
    Prepared statement...........................................    21
    Analysis of Government of Sudan Flight Clearance List--July 
      2002 and accompanying map..................................    17

                                 (iii)

  


                   IMPLEMENTING U.S. POLICY IN SUDAN

                              ----------                              


                        THURSDAY, JULY 11, 2002

                               U.S. Senate,
                   Subcommittee on African Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:34 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Russell 
Feingold (chairman of the subcommittee), presiding.
    Present: Senators Feingold, Frist and Brownback.
    Senator Feingold. Today, the Subcommittee on African 
Affairs takes up a complex and compelling case, the case of 
Sudan. For our purposes today, we are stepping out of what 
might be called the weak states framework that we have been 
using in our hearings to look at situations in Somalia and 
Liberia, and the Democratic Republic of Congo.
    It will come as no great shock to the administration that I 
am using those hearings and that framework to try to draw 
attention to those situations, and to try to suggest that the 
United States needs to focus on them in a more serious and 
coherent and committed fashion.
    I have tried to make the point again and again that it is 
in the United States' interests to develop a long-term approach 
to engagement in these difficult places, rather than just 
abandoning them to criminal opportunists and abusive warlords.
    But today, we talk about Sudan. And Sudan has the attention 
of the administration. It seems to me to be a focus of this 
administration's most significant policy initiative in the 
region. The President and the Secretary of State have spoken 
out about Sudan. The President appointed Senator John Danforth 
to be his Special Envoy for Peace in Sudan. USAID Administrator 
Andrew Natsios was named Special Humanitarian Coordinator for 
Sudan. As a result of Senator Danforth's efforts, the 
International Eminent Persons Group has investigated means for 
preventing abductions and slavery and has reported on its 
findings. And in the case of Sudan, no one is talking about a 
quick fix. Clearly everyone involved with the administration's 
initiative recognizes that a long-term commitment is required 
if we are serious about helping the Sudanese people end the 
nightmare in which they have lived, and in too many instances, 
died, over these many years.
    So I give the administration credit for making this issue a 
priority, but I give Sudan advocates even more credit, because 
it was their work over the years that got Sudan on the agenda 
in the first place. Human rights activists, advocates focused 
on fighting religious persecution, individuals and groups most 
appalled by the persistence of slavery in Sudan, humanitarian 
professionals horrified by the desperate conditions in much of 
the country, Sudanese refugees haunted by their own memories 
and working to help their countrymen: These voices made the 
difference and joined with many voices long concerned about 
Sudan's involvement in international terrorism. These voices 
have moved the truth from Sudan from obscurity to the baseline 
for policy.
    Finally, we are at a point at which we do not need to have 
another hearing establishing the brutal nature of the conflict. 
We do not need another hearing to conclude that gross human 
rights abuses are committed regularly in Sudan. We do not need 
another hearing establishing that parts of the country persist 
in near-constant state of humanitarian crisis.
    Obviously, we have to keep these truths in mind. We must 
remember there are an estimated two million who have died in 
just the past decade from war-related causes and that millions 
more have been displaced, but we must also move beyond stating 
the gruesome statistics to focus at last on actions and 
responses.
    And in that vein, we do not need to have a hearing to try 
to identify the administration's policy goals. They have been 
clearly identified: To ensure that Sudan is not a base for 
international terrorism, to end the civil war through a just 
and lasting peace, to secure unhindered access for humanitarian 
efforts, and to improve human rights conditions for the 
Sudanese people.
    I do not question these objectives. I accept them and I 
applaud them. I have called this hearing today because I am 
trying to figure out exactly where we are in the process of 
pursuing them and precisely how we plan to move ahead.
    Many in Congress want to use capital market sanctions and 
disclosure provisions which are contained in the House version 
of the Sudan Peace Act to apply pressure to the Government of 
Sudan. I have made my position clear on that issue. But the 
administration opposes these provisions. We should talk about 
that point of contention, and as you know, many of my 
colleagues are deeply committed to these provisions. But the 
sanctions are not the focus of this hearing today. Regardless 
of our disagreements on that issue, we ought to be able to find 
a way to move our policy agenda forward.
    So let us explore how we might do that. What are the tools 
in our policy toolbox beyond the capital market proposal? What 
kind of leverage do we have with the parties? What incentives 
and disincentives can we hold out to encourage behavior that 
will bring us closer to achieving our goals?
    And to take the toolbox analogy a little bit further, what 
about the nuts and bolts of implementation? Do we have the 
personnel, the resources, the appropriate mechanisms for 
decisionmaking that are required to move this policy forward in 
four very challenging areas? Are we moving quickly enough, or 
are our efforts languishing for lack of a sense of urgency or 
effective means of execution?
    Let me give some examples of the kinds of issues I would 
like to explore. Senator Danforth succeeded in getting both the 
Government of Sudan and the Sudanese People's Liberation Army 
to agree to allow a monitoring team to verify their stated 
commitment not to intentionally attack civilian targets. That 
happened in the spring.
    But as I understand it, we still have no monitors on the 
ground, and reports of attacks on civilians persist. So what 
are we waiting for?
    Or to take another example, one of our policy goals is to 
improve the human rights situation in Sudan. The Eminent 
Persons Group made 16 recommendations in its report on Slavery, 
Abduction, and Forced Servitude in Sudan. Who is following up 
on these recommendations? Is the Bureau of Democracy, Human 
Rights, and Labor involved in developing and executing a 
concrete plan to pursue these recommendations? I have a long 
list of questions along these lines.
    And so we have the attention of the administration at very 
high levels. We have a number of different segments of the 
American public interested in the issue. We have a tremendous 
amount of will here in the Congress to make progress in Sudan.
    And as Chairman of the Subcommittee on African Affairs, I 
look at these ingredients and really marvel at them. This is a 
remarkable set of assets to bring to bear on an African issue. 
I hope that we will make the most of them.
    And with that, and certainly in recognition of what a 
tremendous asset he is in this regard, I turn to the ranking 
member, Senator Frist, whose personal commitment to Sudan is 
truly extraordinary and whose partnership I greatly value on 
all of the subcommittee's endeavors, but on this issue really 
most of all.
    [The prepared statement of Senator Feingold follows:]

           Prepared Statement of Senator Russell D. Feingold

    Today, the Subcommittee on African Affairs takes up the complex and 
compelling case of Sudan. For our purposes today, we are stepping out 
of the weak states framework that we have been using to look at 
situations in Somalia, Liberia, and the Democratic Republic of the 
Congo. It will come as no great shock to the Administration that I am 
using those hearings and that framework to try to draw attention to 
those situations, and to try to suggest that the United States needs to 
focus on them in a more serious, coherent and committed fashion. I have 
tried to make the point, again and again, that it is in the interest of 
the United States to develop a long-term approach to engagement in 
these difficult places, rather than abandoning them to criminal 
opportunists and abusive warlords.
    But today, we talk about Sudan, and Sudan has the attention of the 
Administration. It seems to me to be the focus of this Administration's 
most significant major policy initiative in the region. The President 
and the Secretary of State have spoken out about Sudan. The President 
appointed Senator John Danforth to be his Special Envoy for Peace in 
Sudan. USAID Administrator Andrew Natsios was named Special 
Humanitarian Coordinator for Sudan. As a result of Senator Danforth's 
efforts, the International Eminent Persons Group has investigated means 
for preventing abductions and slavery and has reported on its findings. 
And in the case of Sudan, no one is talking about a quick fix. Clearly 
everyone involved with the Administration's initiative recognizes that 
a long-term commitment is required if we are serious about helping the 
Sudanese people end the nightmare in which they have lived, and in too 
many instances died, over these many years.
    I give the Administration credit for making this issue a priority, 
but I give Sudan advocates even more credit, because it was their work 
over the years that got Sudan on the agenda in the first place. Human 
rights activists, advocates focused on fighting religious persecution, 
individuals and groups most appalled by the persistence of slavery in 
Sudan, humanitarian professionals horrified by the desperate conditions 
in much of the country, Sudanese refugees haunted by their own memories 
and working to help their countrymen--these voices made the difference, 
and, joined with many voices long concerned about Sudan's involvement 
in international terrorism, these voices have moved the truth about 
Sudan from obscurity to the baseline for policy.
    Finally, we are at a point at which we do not need to have another 
hearing establishing the brutal nature of the conflict. We do not need 
another hearing to conclude that gross human rights abuses are 
committed regularly in Sudan. We do not need another hearing 
establishing that parts of country persist in a near-constant state of 
humanitarian crisis. We must keep these truths in mind, we must 
remember that an estimated two million people have died in just the 
past decade from war-related causes, and that millions more have been 
displaced, but we must also move beyond stating the gruesome statistics 
to focus at last on actions and responses.
    And, in that vein, we do not need to have a hearing to try to 
identify the Administration's policy goals. They have been clearly 
identified: to ensure that Sudan is not a base for international 
terrorism, to end the civil war through a just and lasting peace, to 
secure unhindered access for humanitarian efforts, and to improve human 
rights conditions for the Sudanese people. I do not question those 
objectives. I accept them and I applaud them. I have called this 
hearing today because I am trying to figure out exactly where we are in 
the process of pursuing them, and precisely how we plan to move ahead. 
Many in Congress want to use capital market sanctions and disclosure 
provisions, which are contained in the House version of the Sudan Peace 
Act, to apply pressure to the Government of Sudan. I have made my 
position clear on that issue. But the Administration opposes these 
provisions. We should talk about that point of contention--and as you 
know, many of my colleagues are deeply committed to those provisions--
but the sanctions are not the focus of the hearing today. Regardless of 
our disagreements on that issue, we ought to be able to find a way to 
move our policy agenda forward.
    So let us explore how we might do that. What are the tools in our 
policy toolbox beyond the capital market proposal? What kind of 
leverage do we have with the parties; what incentives and disincentives 
can we hold out to encourage behavior that will bring us closer to 
achieving our goals? And to take the toolbox analogy a bit further, 
what about the nuts and bolts of implementation? Do we have the 
personnel, the resources, the appropriate mechanisms for decision-
making that are required to move this policy forward in four very 
challenging areas? Are we moving quickly enough, or are our efforts 
languishing for lack of a sense of urgency or effective means of 
execution?
    Let me give some examples of the kinds of issues I want to explore. 
Senator Danforth succeeded in getting both the Government of Sudan and 
the Sudanese People's Liberation Army to agree to allow a monitoring 
team to verify their stated commitment not to intentionally attack 
civilian targets. That happened in spring. But as I understand it, we 
still have no monitors on the ground, and reports of attacks on 
civilians persist. What are we waiting for? Or to take another example, 
the Eminent Persons Group made sixteen recommendations in its report on 
Slavery, Abduction, and Forced Servitude in Sudan. Who is following up 
on these recommendations? Is the Bureau of Democracy, Human Rights, and 
Labor involved in developing and executing a concrete plan to pursue 
those recommendations? I have a long list of questions along these 
lines.
    And so we have the attention of the Administration at very high 
levels. We have a number of different segments of the American public 
interested in this issue. We have a tremendous amount of will here in 
the Congress to help make progress in Sudan. And as Chairman of the 
Subcommittee on African Affairs, I look at these ingredients and marvel 
at them. This is a remarkable set of assets to bring to bear on an 
African issue. I hope that we make the most of them.

    Senator Feingold. Senator Frist.
    Senator Frist. Thank you, Mr. Chairman. And I appreciate 
your organization of these hearings and the pacing and the 
nature that we have built up to a hearing like today with the 
background that we certainly had in this Congress, and I think 
built on the last Congress. And I appreciate that very much, 
because we are here today to examine where we are, a little bit 
about where we have been, but I think most importantly where we 
go. And I want to thank you for holding this particular 
hearing.
    I do want to welcome all of our witnesses today and thank 
them for the effort they put forth both to be here and in their 
preparation for their written and oral statements.
    Mr. Chairman, as you know, I have a great interest in the 
people of southern Sudan, and I have traveled there many, many 
times now, and twice in the last year. I spent most of my time 
in the South, but have also been in the Nuba Mountains, have 
been in the Blue Nile region, Pabong, and throughout the South.
    Typically, I will go into the Sudan not as a United States 
Senator, but as part of a medical team, and I spend much of my 
time operating out of a hospital in southern Sudan where there 
was no hospital about 7 years ago. Today, this little clinic 
that didn't exist 3 months before my first trip there, now 
serves a healthcare region for about 350,000 people. It is the 
only healthcare facility within about 150 miles. People 
literally walk days to come to that particular facility.
    What is remarkable about it--and I think it fits so much 
into what our witnesses will talk about today--is that a 
facility like that is so much more than just a healthcare 
clinic delivering healthcare. It very much becomes a symbol of 
hope and a symbol of the future of what Sudan can be like, to 
capture the rich texture of the wonderful people there, the 
tremendous natural resources that are there, that symbol of 
hope.
    Samaritan's Purse, the group that I work with, also runs a 
hospital in Kurmuk and has delivered tons of food to 
beleaguered peoples up in Nuba Mountains and the Upper Nile. 
Like Catholic Relief Services, who we will hear from shortly, 
faith-based organizations like Samaritan's Purse have done much 
to bring real life and vitality back to the region of southern 
Sudan.
    Mr. Chairman, if I might, I would also ask unanimous 
consent that some written testimony by Samaritan's Purse be 
made a part of this record today.
    Senator Feingold. Without objection.
    [The information referred to follows:]

 Prepared Statement of Ken Isaacs, International Director of Projects, 
                           Samaritan's Purse

    I have served with Samaritan's Purse, the Christian relief 
organization headed by Mr. Franklin Graham, for fifteen years. I have 
visited Sudan on nearly one hundred occasions since 1997. Mr. Graham is 
an advocate for the oppressed in Sudan. Samaritan's Purse has many 
programs throughout the opposition-held areas.
    Let us be clear on one thing: The National Islamic Front controls 
the government of Sudan, has declared Jihad against its own citizens, 
and works toward that goal to the fullest extent possible. This is the 
same government that harbored Osama bin Laden for five years.
    There is a beacon of hope among the opposition groups. However, 
this beacon is attacked and confounded by the actions and PR spin of 
the National Islamic Front. This beacon is powerful and will not be 
denied nor extinguished.
    The Sudanese people have a vision of a ``New Sudan'' and speak of a 
country united where all Sudanese are participants, where there is 
separation of religion and state, where people are free to speak, where 
they can exercise self-determination, and where their children can be 
educated. In this New Sudan, there is no slavery and there is no Sharia 
Islamic Law.
    The tragedy of Sudan is well known but little understood. Since 
1989, an estimated two million people have died. This is equivalent to 
one World Trade Center attack every week for the last thirteen years. 
Many define the war as religious, racial, regional, or oil-driven. 
These elements exist, but the root of the war lies in a simple, yet 
vital concept--FREEDOM. Freedom to determine their future, freedom of 
worship and speech, freedom to elect leaders and to live without 
terror. The war is about human dignity and liberty. It is between the 
people of Sudan and the National Islamic Front--between the oppressed 
and the oppressors.
    The war is not just about Islam versus Christianity. There are many 
Christians in the opposition in the South, but in Blue Nile, east 
Sudan, and Nuba, most are Muslims. All of these Muslim populations 
experience the same attacks and persecutions as the Christians.
    The war is not just about race. Although there are elements of 
apartheid, thousands from the Arabic culture are joining the black 
Africans in the fight.
    The war is not just about North versus South. If that were true, 
how could one explain the multitudes from the North that have joined 
forces to oppose the National Islamic Front?
    The war is not just about oil. While oil plays a significant role 
in the war, it has never been a motivating force for the opposition to 
take up arms. From the National Islamic Front perspective, oil revenue 
serves to bankroll their helicopter gunships, tanks, armored vehicles, 
and weapons factories. The National Islamic Front has a scorched-earth 
policy to remove people from oil concession areas. From the 
opposition's perspective, the oilfields are strategic in denying its 
income to the National Islamic Front.
    Again, stated simply, the war is about FREEDOM.
    Despite attempts of the regime to portray itself as an advocate of 
peace, their actions contradict their words. If they are serious about 
peace, then one would expect to see fundamental, not cosmetic, changes 
in the way they treat their own people. Today, Samaritan's Purse is 
delivering emergency food and medicine to victims of recent bombings in 
oilfield regions. The Samaritan's Purse hospital in Lui has been bombed 
numerous times, and I have experienced the terror that comes with such 
an attack.
    Some say the war in Sudan is not ``winnable,'' but the morale of 
the opposition forces is strong. They have little to live for and 
everything to die for in pursuit of a land of peace for their children. 
Their overall ability should not be underestimated.
    The opposition forces will not lay down their weapons until there 
is a comprehensive and participatory political solution that will lead 
to guaranteed freedoms. They do not trust the National Islamic Front to 
keep their word on any agreement because they have broken every 
agreement for the past thirteen years. The people know conditions will 
not improve until there is a government committed to respecting basic 
human rights and liberties. They do not see that happening under the 
repressive National Islamic Front.
    Many see the opposition forces as fragmented, ethnically driven, 
and incompetent to rule. Some of that is true, but they are committed 
to a New Sudan, and they represent a better option for stability in 
this region than the National Islamic Front. Unfortunately, they lack 
the public affairs capability to share their message internationally. 
Domestically, they lack the basic tools such as radio stations, 
newspapers, and schools to educate the population on principles of 
``rule of law'' and democracy.
    What the people of Sudan need most is the moral backing of the 
United States Government to pressure the National Islamic Front. The 
United States Government's commitment to remain engaged is vital to 
bring peace to Sudan. Such measures will be signals to the National 
Islamic Front that change is inevitable.
    The Sudanese are denied the basic freedoms that we hold dear--life, 
liberty, and the pursuit of happiness. The United States Government 
should continue to encourage these pursuits and desires of the Sudanese 
people and lend them our moral and political support in order to find 
freedom and liberty and to alleviate human suffering.
                                 ______
                                 

             Mine Incident at Lauda, Nuba Mountains, Sudan

Nuba Mountains--Mine incident at Lauda, agricultural project of 
Samaritan's Purse

    Samaritan's Purse has been working in Nuba for two years. Presently 
there are 4 fulltime staff on the ground in Nuba. Samaritan's Purse had 
been involved in supplying emergency supply before the cease-fire, and 
since the cease-fire has undertaken a USAID funded agriculture project. 
This project consists of supplying six tractors, trailers, and 
implements for large scale farming to supply food for the residents and 
thousands of returnees since the cease-fire. An important part of the 
program is training selected drivers in the proper use and care of the 
equipment. Due to the seasonal rains, timing is of the highest 
importance to ensure crop production and adequate food supply for the 
area.
    On June 11, 2001, one of the tractors going to the Lauda site was 
destroyed by a landmine. There were 8 or 9 passengers riding on the 
fender wheel-wells of the tractor. Three people were killed instantly 
by decapitation. A fourth died at the SPLA camp where the surviving 
victims where moved. A fifth victim, the Secretary of Agriculture, 
Muhammad Tutu, died in the WFP airplane (evacuating 5 injured) while en 
route to Chukudum hospital. That night another man died in the hospital 
at Chukudum. On June 12, Samaritan's Purse arranged flights in a SP DC3 
to return the bodies to Nuba for burial. The total dead from the 
landmine incident is six with three more severely wounded, two of them 
with limb amputations.
    There have been several reports issued about the incident. 
Samaritan's Purse staff, on the ground in Nuba, notified the 
international office in North Carolina within four hours of the 
incident and supplied the correct number of dead and wounded at that 
time. (This communication is by satellite phone and is held 
periodically with the SP HQ.) A Samaritan's Purse nurse accompanied the 
5 airlifted victims to Chukudum and notified the HQ of the death of Mr. 
Tutu within two hours of his passing. This level of accurate 
information did not come from any official international sources until 
at least 48 hours later.
    Ken Isaacs, of Samaritan's Purse, notified USAID immediately of the 
landmine incident by phone to Roger Winter and Brian D'Sylva. They had 
not heard of the incident before that time.
    Since the incident there have been at least three investigations 
held by the JMC, OLS, and most recently the combined investigation of 
the JMC and SPLA.
    The information in this report is given from Samaritan's Purse 
field staff, Dale and Kris Hamilton. Kris accompanied the most recent 
investigation team to the incident site but she was not a part of the 
investigation. Kris went to see the tractor damage and encourage the 
drivers who are afraid to continue plowing due to the landmine 
incident. On June 28 she gave a verbal phone report to Ken Isaacs. A 
written report from Nuba is being prepared and should be available in 
several days.
    In the most recent investigation, a Norwegian Colonel headed the 
team. They went to the site by helicopter and waited for nearly three 
hours to interview witnesses from both the GOS and SPLA sides. It is 
our understanding the SPLA has identified four suspect individuals and 
their names from these witness interviews.
    As noted in earlier reports, two tractors had been using the road 
for the previous two days. That means that for at least two days, two 
tractors, made two trips on the ``road.'' This is a total of 9 passes 
over the incident area without explosion. (The day of the explosion the 
first tractor passed ahead and was slightly out of the track, and thus 
passed safely).
    The ``road'' is hardly a road, but in fact a fresh path across a 
field that had only been in use for seven days and not before.
    It is not sensible that a mine, especially an anti-tank mine, would 
have been planted there when no traffic had been going there before the 
work of the tractors began.
    The most recent investigation was headed as stated above by a 
Norwegian Colonel, but Kris did not get his name. Kris reports, ``The 
colonel made a point to walk to where I was, about 300 meters away. He 
told me, `It is obvious to me that this mine was laid with intent.' '' 
He went on to explain he would write this in his report and the report 
would go to his commanding officer.
    This information and all of the truth must come out to ensure the 
cease-fire and the needed production of food.
    The Hamilton's are veterans of Africa. They have lived and worked 
there for over 25 years. Dale is a pilot and Kris is a public health 
nurse. They are calm, level-headed individuals and not inclined to 
exaggeration.
                                 impact
    The drivers are afraid to continue plowing the fields in the Laudo 
area for fear of another mine.
    Samaritan's Purse has purchased 8 mine detectors and is in process 
of sending them and an instrument instructor to the area to train and 
equip security men in order to sweep the fields daily.
    The tractor is beyond repair although some spare parts can be 
salvaged.
    Samaritan's Purse has purchased hand tools for use as a means of 
compensating for the loss of the tractor.
    The people of Nuba are motivated to farm the fields but are very 
unsettled about the situation in general. Previous issues had come up 
but were not known to Samaritan's Purse field staff. Quoted from a 
preliminary OLS security report: (The report incorrectly calls the 
program FAU when it is Samaritan's Purses activity.)
                     the lado incident--30 may 2002
    4. With reference to para. 3a-n above and `Trip Report' dated 02 
Jun 02--para 24a-d; why did JMC not advise Samaritan's Purse, who are 
directly responsible for the FAU programme being conducted at present, 
that problems were experienced in LADO on the 30 May 2002. These 
problems may have been indirectly associated with this present 
incident; the report clearly indicates that the problems were initiated 
from the local GOS Commander; as a reminder of the situation and the 
statements issued by the GOS Commander, they were stated as follows;
Beginning of--``Extract from `Trip Report' dated 02 Jun 02--para 24a-
        d''
    ``On Mr. ABDOULAYE BALDE's arrival I moved to KAUDA with a task 
from the WFP Team with reference to a violation from GOS at TOLEDO. 
This was reported to JMC and thereafter a team from the JMC was 
deployed to LADO on the UN aircraft C088W to conduct an initial 
investigation. It was found that it was a violation not from TOLEDO, 
but from the GOS Cdr at LETHNON who had decided that the people of LADO 
were to be denied `freedom of movement' etc. The restrictions stated by 
the GOS Cdr were as follows;
          ``a. The population of LADO are to remain within their Pyam.

          ``b. Any person moving out of the LADO Pyam would be 
        detained.

          ``c. The people of LADO are to stay away from the `lowland' 
        farming areas and if they are found to be in the area, they 
        will be detained.

Note: `they will be detained'--not for example, `due to the area having 
possible landmines'.

          ``d. There are six (6) people of the LADO Pyam already 
        detained at LETHNON. (Identities established and names 
        forwarded to JMC Headquartems-HQ)

    ``25. From the inquiry, it was decided to go via the General at 
KADUGUILI who is the Cdr of the area and would be instructed by JMC to 
rectify the problem, as per the `cease fire agreement'. As stated 
above, their are/were six (6) detained people at LETHNON from LADO. 
This is against the `cease fire agreement'. On arrival back at JMC 
Sector One (1), a report was written by the 005 monitor and forwarded 
to JMC HQ and thereafter, to the General in charge of the area.''
                               conclusion
    The incident has not been investigated and clarified adequately 
enough to resolve the questions and conflicting information known by 
the people on the ground. There must be resolution in the investigation 
and the results need to be supported by evidence that can be accepted. 
Questions need to be answered.
    If the evidence and testimony show that this is a mine intended for 
the agricultural program, then the JMC, with backing from member 
countries, must seek out the individuals responsible and hold them 
accountable. If this mine has been recently laid, it would be a 
flagrant, malicious, and outrageous violation of the cease-fire and a 
deliberate attack on a humanitarian work funded by the USAID.
    The Samaritan's Purse field staff feel there is significant 
evidence that the mine was a recent plant and not an old planted 
landmine as asserted in early reports. This is of grave concern since 
it implies a direct attack was made against Samaritan's Purse, a 
humanitarian organization. If this is the case, the cease-fire has been 
broken and the attack can be considered aimed to prevent the production 
of desperately need food for the people of Nuba. It is actually an 
attempt to starve civilians.
    A futher field report from Samaritan's Purse will be forthcoming 
and Samaritan's Purse awaits the official report from the JMC/SPLA 
investigation.
    We are deeply concerned for the well being and safety of our staff. 
We are deeply concerned for the progress of the agricultural program 
and the survival of thousands of Nuba people whose survival depends on 
this project.

                                                 Ken Isaacs
                                International Director of Projects,
                                                 Samaritan's Purse.

    Senator Frist. I also join the chairman in applauding the 
work of Senator Danforth and all the efforts that he and his 
staff have made over the past year to further the goal of peace 
in Sudan.
    The road to peace is a bumpy road, as we all know, that has 
been well traveled. There are and have been many setbacks, but 
if you look at the progress that has been made by Senator 
Danforth, I think everyone will agree that it is real, that it 
is bringing the people of the southern Sudan closer to 
achieving peace.
    I do consider today's hearing as a progress report on an 
issue that clearly is of substantial importance to this 
administration. As the chairman pointed out, the administration 
has really focused a great deal of attention on the Sudan.
    Will we achieve a negotiated settlement among the parties? 
What are the administration's objectives today? What is the 
plan for achieving them, given that we have made some progress? 
We must be reasonably certain that an agreement among the 
parties is sustainable over time. And that means it must be 
verifiable, that it must withstand the test of time.
    I do hope that our witnesses will reflect on, based on 
their experiences, what they consider are the important 
components or a sustainable peace.
    In the past, I do not believe Khartoum has lived up to its 
agreements. Can we expect them to in the future? Khartoum 
continues to bomb civilians and ban relief flights, leading to 
the starvation of thousands. My colleagues have heard me 
describe my work in hospitals in southern Sudan. I have seen 
people brought in with injuries that clearly resulted from 
bombings. I have seen where the church next door to the 
hospital has been bombed. The evidence of bombings is very, 
very real.
    Clearly, these sorts of things cannot continue. Samaritan's 
Purse had very recently, about a month ago, June 11, another 
terrible loss. Five of its staff were killed while riding a 
tractor at Lauda. There is some evidence that this was a 
deliberate attack and that the mine had been very recently 
placed.
    I hope to hear from the witnesses on how we can ensure that 
a negotiated settlement can be carried out, particularly by the 
government in the North, including their thoughts on the kinds 
of tools we need to ensure that Khartoum honors its 
commitments. Indeed, I would like to know even if we should 
believe they are serious at this point in time about these 
commitments in the first place.
    The banning of relief flights, unilateral declarations that 
humanitarian aid and relief in the west Upper Nile be dictated 
by Khartoum, all of these are of considerable concern.
    Now, Mr. Chairman, again I appreciate you for putting forth 
this hearing today. I also look forward to hearing also about 
some of the positive things--we hear so much about the negative 
things--like USAIDs southern Sudan Agricultural Revitalization 
Project and the Sudan Basic Education Program, which I believe, 
are a basic but major step forward in bringing much needed 
development to southern Sudan.
    So, Mr. Chairman, with that, I thank you for the 
opportunity to make that opening statement and look forward to 
hearing from our witnesses.
    Senator Feingold. Thank you very much, Senator Frist.
    I have a statement here from Senator Boxer, who wanted to 
be here, but she had a scheduling conflict, so I will enter 
this into the record, if there is no objection.
    [The statement referred to follows:]

              Prepared Statement of Senator Barbara Boxer

    Senator Feingold, thank you for chairing this hearing on 
``Implementing U.S. Policy in Sudan.'' As the Committee's leading 
expert on Africa, you have been a strong voice for the Sudanese people 
who have suffered too long from a long and violent conflict and well-
documented human rights abuses carried out by all sides. Mr. Chairman, 
I commend you and Senator Frist for focusing our attention on this 
important issue.
    There is a true humanitarian crisis in Sudan today. The number of 
people in need of emergency food aid--3 million--is staggering. It is a 
fact that of the 2 million people killed during the long-running civil 
war, a large number died from hunger. Perhaps most troubling of all is 
that much needed humanitarian assistance has been used as a weapon of 
war. Denying access to humanitarian assistance is among the worst of 
all human rights abuses. Civilians who have gathered around food 
distribution centers have even been attacked and killed.
    It is a disgrace that slavery continues to be a problem in Sudan. 
Human Rights Watch and other respected organizations have reported on 
how the Khartoum government provides automatic weapons and support for 
fighters who attack southern villages and capture men, women and 
children from rebel-controlled areas. They are forced to work for free 
in homes and in fields, punished when they refuse, and abused both 
physically and sexually. According to a March 2002 Human Rights Watch 
report, ``the government of Sudan is responsible not only of knowingly 
arming, transporting and assisting the slave-raiding militia, it also 
is responsible for not enforcing its own laws against kidnaping, 
assault, and forced labor.''
    Mr. Chairman, I hope that we can break the impasse that has 
prevented us from moving forward with legislation to address some of 
these abuses. U.S. leadership on this issue is crucial and I sincerely 
hope that we can play a productive role in bringing to an end the 
longest running ongoing civil war in Africa.

    Senator Feingold. We will now turn to our first panel. 
Today, we will hear from Assistant Secretary of State for 
African Affairs, Walter Kansteiner, who is just back from 
Nairobi and Khartoum, where he has been working on these 
issues. And, Mr. Secretary, as always I certainly appreciate 
your willingness to be here today to answer our questions and 
to, if you will, go into the weeds, if necessary, to figure out 
some of the specifics. And I would ask you to proceed with your 
testimony at this time.

STATEMENT OF HON. WALTER H. KANSTEINER, ASSISTANT SECRETARY OF 
 STATE FOR AFRICAN AFFAIRS, DEPARTMENT OF STATE, WASHINGTON, DC

    Secretary Kansteiner. Thank you, Mr. Chairman. I would very 
much like to take this opportunity to give you a status report 
of where we are on the peace talks and some of that process 
that is unfolding in Kenya today.
    As you mentioned, Mr. Chairman, the administration has 
identified three very clear goals and we are striving to keep 
focused on those goals for Sudan.
    The first, of course, is to deny terrorists' use of Sudan 
as a safe haven. I would be happy to go into detail on some of 
that counter-terrorism coordination, perhaps in a different 
setting. But I might just say that Ambassador Frank Taylor, who 
is the anti-terrorist coordinator at the State Department, 
joined me in my trip to Khartoum, where we discussed the 
expectations that we have with the Government of Sudan on this 
subject. And the Sudanese understand that their cooperation is 
appreciated but there are a good many other requirements that 
still remain. They understand that I would be happy to go into 
any further detail at a different session.
    The second area of concentration and focus for our policy, 
as you mentioned, is the humanitarian one. The tragedy in Sudan 
is too well known by all of us.
    And, Senator Frist, you have experienced it firsthand.
    We have all seen it, and it is something that we constantly 
need to remind ourselves. It motivates us to seek that peace 
process that is ultimately what will end the tragedy.
    Currently we have a situation in the upper western Nile 
which I think my colleague, Roger Winter, will discuss in 
greater detail as the expert on the humanitarian relief. Roger 
has a very good grasp of exactly what is happening.
    But I leave it with just saying that the OLS, the Operation 
Lifeline Sudan agreement, has not been lived up to 
expectations. Access is not being given. We made it very clear 
during our recent trip to Khartoum that we will settle for 
nothing less than full and unhindered humanitarian access to 
all of southern Sudan.
    The third area that is our policy focus is, in fact, the 
peace process. And under the leadership of Senator Danforth, 
Secretary Powell and President Bush, we have remained very 
focused on this and, in fact, our State Department team is 
right now in Nairobi working with the peace process. I would 
like to spend just a little time going into some detail on what 
we saw and where we are.
    The peace process began on June 17 in Nairobi, led by 
General Lazaro Sumbeiywo, the Kenyan army commander, who is the 
chairman of the Intergovernmental Authority on Development 
[IGAD] regional organization that is hosting the talks. I might 
add that General Sumbeiywo is an extremely capable and 
competent military professional that has immediately caught the 
attention of both negotiating parties, that he is a serious 
man, and he expects certain things to happen in these peace 
talks, or the Kenyans and the IGAD friends of Sudan are simply 
not going to waste their time.
    These first 2\1/2\ weeks, have been relatively successful 
in the sense that both parties have sent appropriate level 
delegations. They have entered into serious talks. They are 
open to ideas from the negotiator, the mediator from Sumbeiywo.
    And they also, interestingly enough, are open to the fact 
that the United States, the Norwegians and the British have now 
been made official observers and, in fact, somewhat acting as 
advisors to the IGAD chairman. That seems to be working quite 
well, and we are looking forward to progress on that front.
    Specifically, General Sumbeiywo has put out a framework, a 
skeleton, if you will, of what the key issues are that are 
going to have to be negotiated over the next few months. Right 
now, the one that they are focused on, as of today literally, 
is the question of self determination for the South. It is a 
tough, but key element of any deal.
    What does that term ``self determination'' mean? General 
Sumbeiywo, with the help of the American and British and 
Norwegian observers, is starting to flesh out some of these 
definitions. What does it mean to be in command of your own 
future, if you will? What does self determination mean in terms 
of autonomy and powers to the region? Does it mean they can 
have their own justice system? Does it mean they can have their 
own taxation system? Can they stand and hold an army?
    What does it mean for the South to say that the will of the 
people will be heard? Is that a referendum? And if that is a 
referendum or a vote, does that come in 5 years, 6 years, 2 
years?
    So these are all the questions that are now being laid out 
for both sides, and that the mediator is actively pushing to 
get answers from. He is defining the parameters for the debate, 
and the parameters for what the deal must include. There are 
other issues that are going to have to be gotten to as well. 
Self determination is the first and probably the cornerstone.
    But they are going to have to look at power sharing. If 
there is autonomy for the South, then does that mean there is 
some kind of confederate system sitting up in Khartoum? And, if 
so, what role does the South play in that confederacy? What 
kind of representation do they have in Khartoum?
    If state and religion is going to be addressed, we are 
going to have to talk about Sharia. And if Sharia applies to 
the South, in what form? If it applies to the entire country, 
in what form? So the whole notion of state and religion is 
going to be a critical issue.
    Power sharing includes resource sharing. That would include 
oil and the revenues from oil, and how these will be used 
effectively with representation from all regions having access 
to those resources.
    So those are the tough issues that General Sumbeiywo and 
the IGAD process are putting out on the table.
    When I met with representatives from both sides--Dr. John 
Garang of the SPLA as well as President Bashir and Vice 
President Taha in Khartoum, I got the sense that both sides 
realized that this was the first opportunity in a long time 
that they both had to negotiate a serious, long lasting, and I 
would include ``just,'' peace for that country. I was gladdened 
to see that they were both serious about it.
    But we are still in fairly early days. There are going to 
be some tough decisions coming up in the next few weeks. But I 
think we will be able to tell within the next 2 or 3 weeks 
where these negotiations are going.
    Right now, the time table is July 20. The negotiations will 
take a break. We are encouraging both sides to not leave 
Nairobi on July 20 without some kind of agreement on some 
framework.
    There does not have to be a comprehensive peace plan 
including a cease-fire on July 20. We are realists. We know 
that would be great if it happens, but we have to be realistic. 
But we do expect there to be some agreement on some structure.
    Until that day is reached where we have a comprehensive 
peace settlement, the reality is that both sides are fighting 
and talking. Of great concern, of course, are the allegations 
of the attacks on civilians that, Mr. Chairman, you mentioned, 
particularly by the Government of Sudan. This is in direct 
contravention of the agreement signed in March of 2002 by both 
sides not to target civilians. That was one of the Danforth 
points.
    So we have, in fact, now put together a team led by retired 
Brigadier General Lloyd of the U.S. Army, who is now in Sudan 
putting together that civilian monitoring team to which you 
made reference. It was slow going, quite frankly, to get that 
team staffed and up and running. We had a whole number of 
difficulties including some internal administration, quite 
frankly, difficulties with sanctions that prohibit involvement 
in Sudan. So we had to go back and get our own sanctions lifted 
so we could do this.
    But nonetheless, it is there. It is going to be a 
verification unit that has serious military experience, because 
that is what it is going to take to check some of these 
civilian bombing targets. And we are looking forward to having 
that fully staffed and running in the very near future.
    The other initiatives that Danforth laid out in his report, 
including the Nuba Mountains initiative, are going relatively 
better in the sense that they are up and running. And as you 
know, the Nuba Mountain cease-fire has now been extended for 
another 6 months, and we are very pleased to see that go 
forward.
    A Norwegian general is actually in the lead on the Nuba 
Mountain cease-fire. That cease-fire is holding. In fact, food 
and humanitarian assistance are getting into the Nuba Mountains 
for the first time in many, many years.
    You mentioned the Eminent Persons Group chaired by Penn 
Kemble and Ambassador George Moose. They have traveled to Sudan 
on a number of occasions. Their recommendations are excellent.
    That group is an independent body, if you will. It is not 
part of the U.S. Government; its members are European, American 
and African. We are making sure that they, in fact, do have a 
chance to implement their recommendations. And we are now 
looking for resources and funding to make sure that that group 
stays together and can, in fact, make those recommendations a 
reality.
    The fourth area in the Danforth report is the ``Days and 
Zones of Tranquility.'' We understand that that is actually 
going better than it did initially. We had a very rough start 
but now we are seeing people and animals being vaccinated for a 
whole host of diseases, polio, rinderpest, guinea worm. And the 
guinea worm work that the Carter Center has been very, very 
faithful and very good about and very effective with, 
continues. And so we are pleased to see that going.
    Let me conclude by saying we are, as diplomats, cautiously 
optimistic in these peace negotiations. In fact, I am probably 
more than cautiously optimistic. I am optimistic, because I 
sensed that there was a real will by both sides to take this 
opportunity that is now available for them in the negotiations 
that are ongoing in Kenya, and to do something with it.
    Time will tell. In fact, I do not think it will be that 
long. And we will be able to know. But I got the sense that the 
involvement of the international community, particularly the 
U.S. Government, is making a difference, and they recognize 
that this is an opportunity. And we are hopeful and we are 
going to continue to work hard to make sure that it comes to 
fruition.
    Thank you very much.
    [The prepared statement of Secretary Kansteiner follows:]

Prepared Statement of Hon. Walter H. Kansteiner, Assistant Secretary of 
                       State for African Affairs

    Thank you very much, Mr. Chairman. It is indeed an honor to appear 
again before this Subcommittee, this time to discuss the 
Administration's commitment to bring about a just peace settlement to 
end the tragic civil war that has raged in Sudan since 1983.
    Today, I would like to discuss the latest policy developments 
concerning Sudan, including my recent trip to Khartoum and Nairobi 
where I met with the leaders of the Sudan People's Liberation Movement 
and the Government in Khartoum.
    When the Administration first laid out its policy towards Sudan, it 
identified three elements. First, we would deny the use of Sudan by 
terrorists as a harbor or safe haven. Second, we would ensure 
humanitarian access to southern Sudan, and third, support a just and 
comprehensive settlement of the civil war that has raged there since 
1983.
    9/11 injected a degree of urgency into our counter-terrorism 
cooperation with Khartoum. The President defined the Government's 
choice in stark terms: you are either with us, or you are against us. 
The Government appears to have calculated that it could not be against 
us. While I cannot discuss the sensitive details of their cooperation 
in this unclassified setting, I can with confidence characterize their 
current cooperation as acceptable, but as the President said, still 
more is required. Our Counter-terrorism Coordinator Ambassador Frank 
Taylor and I just returned from meetings with the senior leadership in 
Khartoum on July 2, where we discussed our expectations for continued 
cooperation. We also made it clear to them that a good record of 
cooperation in counter-terrorism, vital as it might be, does not 
provide a free ride on other requirements--particularly humanitarian 
access and a just peace.
    Since February 2002, the authorities in Khartoum have aggravated 
the human tragedy in Sudan more than usual by denying complete 
humanitarian access to the famine-threatened region of Western Upper 
Nile. This is in direct contravention of the terms of the Operation 
Lifeline Sudan agreement they signed with the UN and the Sudan People's 
Liberation Army (SPLA). We at the Department of State, our colleagues 
at USAID, and the President's Special Envoy for Peace former Senator 
John Danforth have repeatedly protested this failure on the part of the 
Sudanese Government to honor its agreement and to safeguard the well-
being of its citizens in southern Sudan. I raised the issue directly 
with President Bashir and Vice-President Taha in Khartoum on July 2. 
Bashir offered us humanitarian access to 18 locations in southern 
Sudan, including four in Western Upper Nile. I made it clear that we 
would settle for nothing less than what the Government has promised to 
give us: full and unhindered humanitarian access to all of southern 
Sudan. I delivered a similar message on our deep disappointment that 
the Government's campaign in the South continues to violate the human 
rights of its citizens by denying them access to needed humanitarian 
assistance. I want to take this opportunity to reiterate these messages 
to the Government of Sudan.
    Prospects are quite positive for the peace process that began June 
17 in Nairobi. Lieutenant General Lazaro Sumbeiywo, Kenyan army 
commander, has provided determined and capable leadership for the 
Intergovernmental Authority on Development (IGAD) regional organization 
hosting the talks. Our diplomatic team in Nairobi is providing day-
today support for the talks. The British, Norwegians, Swiss and 
Italians are providing similar assistance. Here in Washington, we have 
assembled an inter-agency Sudan Programs Group headed by a ``Chief 
Operating Officer'' for Sudan policy, Ambassador Michael Ranneberger, 
to manage the day-to-day work of implementing policies and programs 
related to the peace process. Presidential Envoy for Peace former 
Senator John Danforth, will travel to Europe next week to consult with 
our European friends and allies on peace process strategy and will 
encourage increased financial support for humanitarian and peace 
process operations. Former Senator Danforth plans another trip to Kenya 
and Sudan next month to encourage continued forward movement in his 
meetings with Garang, Bashir and other key figures in the peace 
process.
    General Sumbeiywo's objective is to secure agreement by the parties 
to a framework by the end of the month, and to achieve a just and 
comprehensive settlement agreement by the end of the year. These are 
extremely high goals, but he believes they are eminently doable and 
that the parties possess the political will to reach agreement. The 
United States is fully committed to work with the parties to make 
General Sumbeiywo's goals a reality.
    Until the day that a just and comprehensive peace settlement is 
reached, the cold reality of the civil war in Sudan is that the two 
parties will continue a policy of talk and fight. Most recently, the 
SPLA recaptured Kapoeta, and the Government took Gogrial. Of greater 
concern are the allegations of attacks on civilians by the Government 
of Sudan in contravention of the agreement signed in March 2002 by both 
sides not to target civilians. The fog of war and the scarcity of on-
the-ground reporters who can collect and report the facts have made it 
difficult to verify these claims. To help establish ground truth 
capacity, I have sent retired Brigadier General Herb Lloyd to Khartoum 
to establish and head up a verification unit. It will consist of two 
groups, each with fixed-wing aircraft: one fifteen person group in the 
northern area and a ten person group in the southern area. The mission 
of each will be to investigate first-hand any reports of attacks on 
civilians and report their findings to the U.S. Government. We will 
report verified attacks on civilians as violations of the Geneva Code, 
to which Khartoum is a signatory. More importantly, and of more 
immediate importance to the Sudanese Government, we will interpret any 
such violations as an indication of bad faith vis-a-vis the peace 
process that will have a direct, negative impact on prospects for 
improved bilateral relations.
    Mr. Chairman, the civilian verification unit to monitor attacks on 
civilians is only the latest of four initiatives the Administration is 
pursuing to test the seriousness of commitment of the parties to 
achieving peace, and to create conditions on the ground to help end the 
vicious cycle of war. The first of these initiatives to be implemented 
was the cease-fire in the Nuba Mountains, for which we created a Joint 
Military Commission (JMC) together with the ``Friends of the Nuba 
Mountains,'' which includes Norway, Britain, Switzerland, Italy, 
Germany, France and Canada, among others. A Norwegian general, served 
by Swedish and British deputies, heads the JMC. As a result of the 
stabilizing influence that the JMC's verification efforts have brought, 
we have seen something approaching a return of normalcy to the Nuba 
Mountains. Internally displaced people are returning to their homes. 
Normal economic activity is resuming. Prisoners of war are being 
exchanged. Goods and people are moving across the cease-fire lines. We 
have received word from both sides that they agreed to a six-month 
extension of the cease-fire through January 2003, whereupon they would 
under the terms of the agreement considered another extension. I will 
chair a meeting of the ``Friends of the Nuba Mountains'' at senior 
level here in Washington on July 31. It will evaluate the work of the 
JMC, outline its work for the next six months, and encourage other 
countries to support the JMC's work both financially and with the 
transfer of uniformed military officers to staff the JMC. The success 
of the Nuba Mountains cease-fire gives us tangible indications of what 
a comprehensive peace agreement could accomplish not only in the South, 
but throughout all of the Sudan.
    Another of our initiatives was the creation of an international 
group of eminent persons, chaired by former Deputy Director of USIA 
Penn Kemble and Ambassador George Moose, which traveled to the Sudan to 
investigate slavery and issued a series of concrete recommendations for 
eliminating this nefarious practice. It refuted the Khartoum 
Government's weak assertion that there is no slavery in Sudan, as well 
as the equally weak assertions of some European intellectuals that what 
we call slavery is nothing more than a traditional practice of 
abductions. The commission's report, available on the State Department 
Web site, made it clear that slavery exists in the Sudan, and that the 
Khartoum regime uses slavery as a tool in its war on the people of 
southern Sudan. We are now in the implementation phase, and are 
considering ways that the civilian verification unit can be used to 
investigate and report the incidence of slave raids by the Khartoum 
Government and its militia allies.
    The fourth and final initiative was the ``Days and Zones of 
Tranquility,'' under which both sides would allow government and non-
governmental organization personnel to vaccinate people and animals 
against polio, rinderpest and guinea worm in southern Sudan. I 
understand that the effort was successful in protecting thousands of 
people against polio. The Khartoum Government and SPLA have hindered 
progress with the rinderpest and guinea worm inoculations. USAID and 
non-governmental organizations continue to administer vaccinations 
where they can, while we have made it clear to both parties that we 
expect them to honor their agreements to permit access to the other 
affected regions.
    Let me say a few words about Sudan's efforts to improve its status 
as a neighbor in the sensitive Greater Horn of Africa neighborhood. 
Khartoum has demonstrated a desire to improve regional stability 
through support for Ugandan efforts to free the captives of the 
terrorist Lord's Resistance Army and capture its renegade leader, 
Joseph Kony. The Sudanese Government reversed its policy of support for 
Kony and the LRA by allowing the Ugandan military to hunt the LRA in 
southern Sudan with the help of Khartoum's military. While this 
reversal of support for a prominent, destabilizing terrorist 
organization is promising, the international community awaits the 
results of this effort.
    Mr. Chairman, I want to close my prepared testimony by assuring you 
that the Bush Administration is committed to ending the cycle of 
violence and suffering in Sudan by pursuing a just and comprehensive 
peace in Sudan. We support the Senate version of the Sudan Peace Act, 
which shares those same goals. Our approach is to focus on the big-
picture process of achieving a just and comprehensive end to the war 
and suffering in Sudan, and not to become bogged down on a divisive 
issue that would do little to advance the cause of peace. This will 
remain our position so long as we judge that the Sudanese Government is 
serious about the peace process.
    Mr. Chairman, I would like to thank you again for the opportunity 
to discuss the Administration's efforts to end that war and to 
safeguard the safety and well-being of all of Sudan's citizens.

    Senator Feingold. Thank you, Mr. Secretary. We certainly 
appreciate that report and look forward to asking you some 
questions about it.
    But, first, we will listen to Mr. Roger Winter, who we also 
have with us today, from the U.S. Agency for International 
Development, where he is the Assistant Administrator for 
Democracy, Conflict and Humanitarian Assistance.

  STATEMENT OF HON. ROGER WINTER, ASSISTANT ADMINISTRATOR FOR 
 DEMOCRACY, CONFLICT AND HUMANITARIAN ASSISTANCE, U.S. AGENCY 
     FOR INTERNATIONAL DEVELOPMENT [USAID], WASHINGTON, DC

    Mr. Winter. Yes. Thank you. I am going to focus on the 
humanitarian issues specifically and not have to cover quite as 
broad a waterfront as Walter has to do.
    You pointed out very correctly that Sudan is on the screen 
for many, many folks right now; much more than we have ever 
seen before. I have been involved in Sudan for 20 years, and I 
think it is because of President Bush's personal involvement 
and publicly expressed interest, it is because of the Danforth 
initiative generally, it is because of the perhaps almost 
surprising success in the Nuba Mountain cease-fire, which all 
over Sudan has enthused people; and while it is imperfect as 
all of us are, it certainly has created a bottom-up groundswell 
for peace. And it has clearly helped bring our European allies 
closer together with us in terms of how we approach Sudan.
    So I believe there is an opportunity here, but approaching 
the opportunity needs to be tempered with some of the ground-
based realities that we have to overcome, too. And I know my 
colleague, Walter, understands that.
    I believe that specifically in the area of Government-of-
Sudan-instigated problems regarding humanitarian access and 
related issues, those are, in fact, the fatal flaw in their 
approach to the U.S. Government initiative and the opportunity 
it presents.
    There is a clear disconnect between some of what they say 
and what actually occurs on the ground in the humanitarian 
sphere. So I would have to say the opportunity is real. The 
U.S. initiative is serious. We are all trying very hard to move 
this forward.
    The way the Sudanese Government is approaching the 
humanitarian issues is distinctly undermining this initiative, 
I would say, at this point. It regularly imposes formal 
barriers on flight access, humanitarian flight access. It 
institutes bureaucratic restrictions that impede deliveries to 
those in desperate need.
    They target humanitarian programs directly. These actions 
amount to what I believe to be a deliberate strategy that they 
think they can get away with, even while moving forward with 
respect to improving bilateral relations and so forth. The 
disconnect is between those public statements and what the 
security apparatus of the state of Sudan actually does in the 
field.
    We have an immediate concern, that is Western Upper Nile, 
or a unity state, as some would say. This is a place in which 
there has been essentially blanket closure of humanitarian 
access for a period of months.
    This is a real problem for us, because not only does it 
mean we cannot respond adequately, but we do not even know 
adequately, in many cases, from our own information.
    The U.N. tells us that as many as 300,000 people are at 
immediate risk, but we know there is 1.7 million people who are 
closed off from humanitarian services in the South because of 
closure by the Sudanese Government.
    Most recently, there has been somewhat of a focus on the 
fact that for the month of July, because the humanitarian 
flight access issue is a monthly issue, the United Nations has 
to go monthly to the Government in Sudan and say, basically, 
``Please give us access to these locations.''
    And we did get a blip up for the month of July of what 
appeared to be 18 locations. We have done at USAID a detailed 
analysis of those 18 locations, and it is not what you would 
call a major breakthrough in any way, shape, or form. In almost 
all cases, they are not new locations that open up new 
populations in desperate need to us. That does not mean there 
are not some, because there is one in particular that does give 
us a new opportunity.
    But in general, it is not--and if you wish a written 
summary of these 18 locations, we would be happy to provide it 
to you, as well as a map for the record.
    [The information referred to follows:]

    Analysis of Government of Sudan Flight Clearance List--July 2002

    The Government of Sudan (GOS) flight clearance list for 
humanitarian flight access comes from the translation of a letter from 
the GOS Humanitarian Aid Commissioner to the United Nations Coordinator 
in Sudan.
    The list contains three categories:

          1) Locations where the ban on flights has been lifted;

          2) Locations where flights have been denied; and

          3) Locations that the GOS says are not properly identified.
Locations approved
    Bahr el Ghazal: Awada, Lunyakaer, Nyamiell, Ajiep, Gogrial, 
Bararud, Baau, Akom, Akoc, Akuem, Akop.

    Western Upper Nile (Unity State): Ninger, Mankien Gumriak, Akuem.

    Upper Nile: Fagag, Madeng.

    Equatoria: Tambura.

    Under the first category (locations where flight ban has been 
lifted), eleven are in Bahr el Ghazal, six are in Upper Nile and one is 
in Western Equatoria. One of the locations, Akuem, is repeated in 
Western Upper Nile and Bahr el Ghazal, leaving only 17 approved 
locations. Gogrial, which appears on the Bahr el Ghazal list, has 
recently come under the control of GOS. Tambura is a surplus food 
producing area and has no humanitarian access value. The only 
significant location from a humanitarian perspective is Gumriak, which 
is in Western Upper Nile. Gumriak, in Ruweng County, contains over 
70,000 people, all of whom are in need of food and nonfood assistance, 
according to the United Nations.
    Air access is extremely important so that OLS flights can assess 
the area. With the onset of the rainy season, travel by road is very 
difficult. Maximum air access is essential immediately. Populations are 
already moving and probably taking refuge in swamps. Finding these 
populations at a later date, without immediate air access will be 
problematic.
Locations denied
    Denial of the location south of the line Kapoeta, Torit, Juba 
(except Tambura). This is seven locations.

    Bahr el Ghazal: Buoth, Maulual Akon, Acumcum, Alek, Lietimom, 
Yirol, Mapel.

    Western Upper Nile: Duar, Toy, Biem, Wicok, Kuey, Bow, Baow, 
Ganyliel, Bieh.

    Equatoria: Yei, Kapoeta.

    Under the second category (locations where flights have been 
denied), there are 23 on the list. Nine are in Western Upper Nile and 
are all important areas for accessing civilians. In Bahr el Ghazal, 
Malualakon is a new area denied. Here, the population can be accessed 
by an alternative airstrip, but it is in poor condition.
    Some of these places have been denied for months without rationale. 
Yirol, for example, is denied, although it is far away from any 
conflict. Denial of locations in Equatoria is once again problematic. 
While places on the East Bank, like Nimule, were previously accessible 
by road from Uganda, recent U.N. security assessments suggest that 
activity of the Ugandan Lord's Resistance Army makes the area unsafe.
Locations ``unknown'' to GOS (and therefore denied)
    Bahr el Ghazal: Agago, Alakuac, Alor, Ayuang, Cong, Koryom, 
Karchok, Wor Alt, Moarcor, Malek Akol, Malualbai, Mangar Angui, Manjuk, 
Mankui, Marial Bai, Marial Lou, Marjan, Maban Pajok, Pantit.

    Upper Nile: Ager, Benda, Borong, Chaang, Chaiban, Chotbura, Darjo, 
Kelero, Kengen, Kotheah, Majany, Pajang, Barn Bora, Urieng, War, 
Wuleng, Wunyok, Thokchak.

    Equatoria: Mabia, Kak, Kulaby.

    Under this third category (locations that the GOS says are not 
properly identified), the GOS claims that the locations are 
``unknown''. In June, the United Nations provided the GOS with a map 
showing the 41 locations that they denied in June. These are the same 
locations that they denied once again in July, using the same 
justification. Important locations from a humanitarian perspective in 
Western Upper Nile and Bahr el Ghazal are denied. (See map that 
follows.)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Winter. It is amazing how bureaucratic this system 
gets. So, for example, when the U.N. supplied this month's 
request for flight access clearance, it included much of what 
has been requested in the past. The government actually denied 
access to a number of places that it has approved consistently 
over a long period of time for the first time this time, saying 
they cannot identify those locations.
    It is the kind of thing that we will go back and we will 
raise that with the government, and then 3 or 4 weeks from now, 
they will come back again. We are always into this back and 
forth kind of a process that slows everything down.
    Our immediate concern in the humanitarian sphere is Western 
Upper Nile. We are immediately concerned because some of the 
dynamics parallel what happened in January 1998 in western Bahr 
el Ghazal. Not all of the dynamics do, but some of them do.
    And what was the result of the combination of events on the 
ground and the closure of flight access by the Government of 
Sudan? The result was that 100,000 people died who did not need 
to die. This is why we are so concerned about Western Upper 
Nile.
    Second, we have a continuing concern about this issue. This 
is not a new issue for us. This current regime came to power 
June 30, 1989. Since it came to power, it has been manipulating 
the humanitarian programs, and most specifically humanitarian 
access by the U.N. and the NGOs to desperate populations.
    So it is not a new issue. It is, unfortunately, an issue 
that has almost become routine. We, the international 
community, have not figured out precisely how to deal with 
this.
    For example, in much of the entire State of Equatoria, much 
of Equatoria has had blanket closure for more than 3 years. The 
areas have not been conflict zones for more than 3 years, but 
nevertheless they are closed to us. And it opens up our own 
personnel and the NGO personnel to really serious risks, 
because the areas, while not being primarily government-SPLM 
conflict zones, are unstable zones.
    By denying us flight access, what it means is we have to 
send our people in on the ground. It has cost a fair number of 
lives of humanitarian workers.
    OK. Is this part of a strategy? I do not know. But there is 
no logical explanation for closing down a big chunk of an 
entire state over a long period of time like this when it has 
not been a battle zone between the two warring parties.
    Perhaps, third, I would point out we have an emerging 
concern on this issue. So we have an immediate concern, a 
persistent concern, and now an emerging concern.
    This current government has long chafed under the OLS 
regime. They have wanted it to be subject to their military 
strategy, in my opinion. And that has been the nature of the 
actions they have taken.
    But more recently, what they have begun to do is very 
coherently and forcefully push to move the entire humanitarian 
operation inside the parts of Sudan that are under government 
control.
    That is what USAID Administrator Natsios feels is 
absolutely unacceptable. The proposals of the Sudanese 
Government are to move them, the operations, into government-
controlled areas, to put monitors in places like Lokichokio, 
Kenya that actually check out each and every flight that would 
go from there to the South, to require visas for humanitarian 
workers to work in the South, even though they are in areas 
that are not under the control of the government. It is an 
emerging concern.
    We have started a series of meetings with our European 
donor colleagues, Japan and others, to coordinate amongst the 
donors on all of these particular concerns that I have laid out 
for you.
    I think the issue is that the U.S. peace initiative, which 
we all in the administration support, is really predicated on 
Senator Danforth's conclusion that there is sufficient goodwill 
amongst the parties to justify our moving forward.
    It increasingly gets harder to see goodwill when you are 
confronted with a blizzard of activities like this that have 
been engaged in by the Sudanese Government. Obviously, the 
preferred solution here is that the government realizes this is 
the fatal flaw in its strategies and listens to Walter 
Kansteiner when he tells them that we want unfettered 
humanitarian access across the board to needy civilians. So we 
should use our every capacity to achieve this.
    If that does not happen, as we have indicated publicly 
elsewhere, it is our intention in USAID to try seriously to 
explore with our donor colleagues a new approach that 
eliminates the possibility of a unilateral veto by the 
government on humanitarian access.
    The U.S. peace initiative is too important and it has too 
much potential to be undermined by the kind of Government-of-
Sudan actions that I have outlined as problematic for us.
    Thank you.
    Senator Feingold. Thank you very much, Mr. Winter.
    [The prepared statement of Mr. Winter follows:]

 Prepared Statement of Hon. Roger Winter, Assistant Administrator for 
   Democracy, Conflict and Humanitarian Assistance, U.S. Agency for 
                   International Development [USAID]

    Mr. Chairman, and members of the Subommittee, thank you for 
inviting me to testify here today. As many of you know, this is a 
critical time for Sudan. The Inter-governmental Authority on 
Development (IGAD) peace process is well underway, with senior 
representation by both parties to the conflict. At the same time, a 
major military offensive is affecting thousands, and access to 
humanitarian services has been denied to hundreds of thousands more. 
This demonstrates the dichotomy of Sudan. The country is riding a fine 
line between opportunity and disaster.
    Under this Administration, the U.S. government has been thoroughly 
engaged on Sudan. President Bush personally has made a number of strong 
statements about the conflict in Sudan; Senator Danforth has extended 
his term as the President's Special Peace Envoy; and USAID 
Administrator Andrew Natsios, the President's Special Humanitarian 
Coordinator for Sudan, has committed more resources to Sudan than in 
any other year in the last decade, especially in development assistance 
for southern Sudan.
    I will focus my testimony today on the ways that humanitarian 
activities can enhance the ongoing peace process and how diplomatic 
intervention can further humanitarian goals.
    During the first phase of the U.S. initiative under Special Envoy 
Danforth, USAID and the Department of State worked exceedingly well 
together to test the willingness of the Government of Sudan (GOS) and 
Sudan People's Liberation Movement (SPLM) to move toward a just peace, 
while at the same time improving the lives of war-affected people in 
Sudan. That link between humanitarian programs and the peace process 
will remain strong over the next six months.
    Although most of USAID's funding will support continuing programs 
in the sectors of health, food security, education and economic 
revitalization, new initiatives linked directly to the peace process 
will include: improving humanitarian access to populations in need; 
preparing the South for peace whatever its final form; expanding 
programs that cross GOS-SPLM front lines to reinforce local 
reconciliation; addressing underlying causes of vulnerability in 
marginal regions of northern Sudan; and following up on the previous 
Danforth initiatives, especially on the humanitarian efforts in the 
Nuba Mountains.
    While recent developments give cause for hope and justify energetic 
U.S., engagement, optimism must be tempered. Historically, the GOS's 
record on humanitarian assistance to war-affected civilians is not at 
all good. The GOS continues to send contradictory signals on its 
commitment to supporting humanitarian efforts. While the government 
takes steps forward on the geographically limited Danforth initiatives, 
it takes steps backward in the overall provision of unhindered 
humanitarian access. Currently hundreds of thousands of war-affected 
and displaced Sudanese in Western Upper Nile are denied access to 
assistance by GOS flight bans.
    In Western Upper Nile, the area where the fiercest fighting is 
taking place, the government has prevented aid agencies from delivering 
life-saving food and other commodities. It is this combination of 
active conflict and denial of access that created a famine in 1998 in 
Bahr el Ghazal, where up to one hundred thousand people died. If the 
current situation cannot be changed in Western Upper Nile, and the GOS 
continues its manipulation of food and other assistance, such as the 
limitations the GOS has placed on flight access in the month of July, 
there is a strong risk that we will again witness the unnecessary 
deaths of tens of thousands of innocent Sudanese.
    Full access for aid agencies to deliver life-saving humanitarian 
assistance is our number one priority. The main avenue for assisting 
the Sudanese population affected by war is through Operation Lifeline 
Sudan (OLS), an international relief program based on an agreement 
between the United Nations (UN), SPLA, and GOS negotiated in 1989. At 
that point, the former Government of Sudan gave OLS unfettered access 
because the warring parties were participating in a peace process. It 
was all too clear to the international actors at that time that, in the 
Sudan context, humanitarian access was a necessary precursor for 
successful peace negotiations.
    When the current government in Sudan came to power two months 
later, it began frequently and habitually denying access to OLS in 
violation of the agreement. USAID, with strong and persistent 
Congressional interest, began supporting NGOs working outside the OLS 
in order to minimize civilian deaths. The non-OLS initiative was not 
designed to be a complete program meeting overall needs, but to fill 
gaps in the larger OLS program caused by the GOS manipulation of OLS. 
In an ideal situation, where the warring Sudanese parties fully respect 
the principle of humanitarian access, there would be no need for 
agencies to work outside a common U.N. framework.
    In recent months, access by international agencies to civilians in 
need has eroded dramatically. The GOS is now proposing major revisions 
to the current OLS framework to increase its control. In June, in 
Western Upper Nile (the focus of the current humanitarian crisis), the 
GOS cleared six organizations to work in only five locations for five 
days, far short of what is needed. If access to this area does not 
improve immediately, famine may result.
    The GOS impedes access in two ways--by outright denial of access to 
certain locations, and by adding bureaucratic steps that encumber the 
monthly flight clearance process. Given its limited ability to 
negotiate with a member state, the U.N. has requested donors to engage 
the GOS bilaterally in parallel humanitarian access negotiations.
    It is clear that the U.S. and other donor governments must assume a 
forceful and unified stance towards GOS non-compliance with various 
humanitarian agreements it has made to date. On June 27, in Geneva, 
USAID convened the humanitarian arms of eight donor countries to seek 
consensus on coordinated donor actions on humanitarian access. I can 
tell you that all of the governments present were in sync on the 
humanitarian access issues. On June 28, Administrator Natsios released 
a statement, and from this, a formal demarche was given to the GOS. It 
called on the Government of Sudan to approve without delay all flight 
clearance requests made by the UN/OLS for the month of July. This, 
however, has not happened.
    While the initial increase in the numbers of locations given access 
for July 2002 shows an increase of 18 locations, a further analysis 
shows a different picture. The number of places to which the GOS denies 
access, saying they cannot be identified properly, remains the same at 
41. Amazingly, some of these locations ``unknown'' to the GOS, such as 
Marial Bai and Marial Lou in Bahr el Ghazal, are places OLS has been 
flying to for years. Those locations are well known, and have been 
previously approved by the GOS. There were 23 locations that were 
categorically denied access in July. Of these 23 locations, nine were 
in Western Upper Nile, seven in Bahr el Ghazal, and the rest in 
Equatoria. The continual denial of locations in Upper Nile is 
especially problematic because U.N. reports show large unmet needs and 
a population that is largely displaced. Out of the five locations 
approved in Upper Nile, only three are actually in Western Upper Nile, 
the worst hit area. Almost all of Equatoria continues to be denied as 
it has been for more than three years. The only positive result is the 
approval of one location in Ruweng County, where a U.N. assessment 
shows the entire population of 74,000 in need of food and non-food 
items.
    The United States specifically and donor governments generally must 
be willing to define and articulate the consequences of GOS non-
compliance, and they must be ready to apply these consequences swiftly 
when a violation of an agreement occurs. The U.S. government must link 
unimpeded access to an end goal of improving bilateral relations 
between the United States and Sudan. If the GOS has real or perceived 
concerns about military assistance being delivered to the SPLA from 
outside sources, it must address these issues through other mechanisms, 
not through the manipulation of humanitarian aid to desperate at-risk 
civilians.
    In the meantime, USAID will continue to build the management and 
logistical capacity of humanitarian non-OLS partners to make them a 
more effective avenue for essential aid. To be consistent with 
Congressional intent, the amount of USAID disaster assistance other 
than food in southern Sudan going to organizations outside OLS has 
increased from 13 percent in 1998 to 45 percent last year. We will 
continue this strong support for non-OLS agencies as long as the 
humanitarian access crisis continues. Non-OLS partners continue to be a 
major part of our humanitarian response, and we will not allow the GOS 
to portray this valuable assistance as anything less than meeting a 
humanitarian imperative for the long-suffering civilian population of 
southern Sudan.
    Humanitarian access is not peripheral to the larger peace process. 
The issue of unimpeded humanitarian access is a benchmark that must be 
reached for a genuine peace process to move forward. It is the 
necessary proof of good intentions toward desperate civilians in the 
South. As President Bush has said, ``Sudan's government cannot continue 
to talk peace but make war, must not continue to block and manipulate 
U.N. food deliveries, and must not allow slavery to persist.''
    A second USAID priority for the next six months is to promote 
stability among different ethnic groups along the line of conflict so 
that an eventual just peace is not engulfed by tribal warfare. In many 
countries, new peace agreements often unravel because civil society is 
not ready for peace. One can imagine such a scenario in Sudan. The 
Sudanese have been dependant on disaster assistance for many years and 
have had their ability to again achieve self-reliance dramatically 
undermined. Administrator Natsios has heard repeatedly from southern 
Sudanese affected by the war of their desire to again be self-reliant. 
For this reason, USAID has committed $42.5 million over the next five 
years in longer-term development programs, concentrating on agriculture 
and education in southern Sudan. Implementation of these programs will 
begin by the end of September of this year.
    Historically, certain areas of Sudan have served as gateways 
between cultures and across the historical North-South divide, and for 
the movement of people and commerce. Increasing stability around these 
gateways will draw internally displaced persons (IDPs) back to their 
home areas and build upon local peace initiatives. Recovering markets 
will give peaceful economic alternatives to slave raiders, that is, 
``trade not raid.'' Growing peaceful interaction among ethnic groups 
will enhance stability. In the next six months, USAID expects to 
commence or expand these cross-line programs in the Nuba Mountains and 
Abyei/Twic. We will facilitate the return of IDPs to areas of origin, 
and will support economic livelihoods.
    Our third priority is expanding humanitarian assistance to northern 
Sudan. Most of USAID's humanitarian assistance to northern Sudan goes 
to displaced southerners living in urban areas. Northern Sudan also 
suffers from cyclical droughts, to which USAID responded with relief 
programs in the mid-1980s, the early 1990s and in 2001. USAID's drought 
response in 2001 restored the principle of neutrality for U.S. 
humanitarian aid by expanding our program to include drought-affected 
northerners. This action also had a political resonance given the 
increasing bilateral engagement. This was appreciated by other donors 
who perceived U.S. Sudan policy in the past as being unbalanced.
    Our area of focus in northern Sudan over the next six months will 
be Northern Darfur and the Red Sea Hills, following up the current 
emergency drought response with a program that addresses underlying 
causes of vulnerability. Additionally, possibilities currently exist 
for some of the 2,000,000 IDPs in the greater Khartoum area, as well as 
urban IDPs in other northern cities, to return to their home areas in 
the South. Such opportunities will vastly increase should the peace 
talks succeed. Other permanent solutions will also be supported for 
IDPs who may choose to remain in the north.
    Finally, USAID will continue to follow-up on the Danforth 
Initiatives. The highest priority is in the Nuba Mountains where, it is 
clear that diplomatic and humanitarian cooperation is essential for 
saving lives and furthering the peace process. In August, 2001, 
Administrator Natsios initiated negotiations an an airlift of eight 
metric tons of food in the Nuba Mountains, an area that had been 
previously isolated and specially targeted by the GOS. The successful 
delivery of the food in August was followed by an extended military 
stand-down to permit a humanitarian assessment of the region and larger 
deliveries of assistance. Both the delivery and the stand-down required 
the State Department's direct involvement and support. These 
humanitarian interventions, in turn, helped pave the way for the 
Special Envoy Danforth's successful negotiation and implementation of a 
formal cease-fire agreement in Nuba.
    The Nuba Mountains cease-fire has not been perfect. Even though 
expanded humanitarian assistance was part of the agreement, 
implementation of the food assistance program there was blocked by the 
GOS from February until several days before Andrew Natsios' visit in 
June of this year.
    The cease-fire is also not without risks for humanitarian workers. 
Just last month, a USAID-funded tractor in the Nuba Mountains hit a 
landmine after a GOS military officer detained groups traveling in and 
out of one small area. Six persons died and several others were 
wounded. There have been several investigations to determine whether 
the landmine had been newly planted, but regardless of when it was 
planted, one must question whether the spirit of the cease-fire 
agreement truly trickles down to the local commanders.
    These weaknesses are real, and I believe the cease-fire is not 
replicable in toto. However, there are many positive aspects of the 
Nuba Mountains cease-fire agreement and its international monitoring 
that may be of use in other high-conflict areas of Sudan. When the 
formal Nuba Mountains cease-fire agreement was signed, the enthusiasm 
of the local population grew more rapidly than was anticipated, and 
civilians and commerce began to move more freely. The impact of the 
Nuba cease-fire outside Nuba has been striking; the local 
reconciliation has triggered ``grassroots'' discussion and anticipation 
of peace far beyond the borders of the Nuba Mountains.
    The degree to which the warring parties respect the agreement to 
protect civilians from attack has significant humanitarian 
consequences. Since March, when both parties signed this agreement, 
repeated bombings, continuing reports of gunship attacks, and the 
ongoing forced displacement of civilians, indicate that the agreement 
has had little positive humanitarian impact in Western Upper Nile or 
Bahr El Ghazal, the two regions most likely to serve as a ``proving 
ground'' for true commitment to protect civilians. Preliminary reports 
on the month of June show more attacks recorded than in all of the 
other months this year combined.
    Additionally, the GOS imposition of flight denials in these regions 
all but prevents even ad-hoc monitoring of the agreement. In the 
absence of either a mechanism for impartial monitoring and 
investigation, or a reversal of the GOS flight denial patterns, there 
is little hope that the current situation will change. Finally, if the 
February attacks on Bieh that killed twenty-four civilians serve as an 
example, even the strongest international condemnation of attacks is 
not likely to produce adequate results. (The GOS has yet to take 
definitive steps to prevent a similar incident.) As a monitoring 
mechanism is implemented and as increased international focus on the 
protection of civilians in Sudan grows, it is also clear there must be 
well articulated consequences for violation to assure the agreement 
takes adequate hold.
    Mr. Chairman, I have outlined some of the political and 
administrative actions needed for the humanitarian work to be 
successfully accomplished. Sudan's needs may actually increase in the 
short-run, especially if prospects brighten for a negotiated settlement 
and USAID will be expected to respond to those needs. We will continue 
to consult with you as this situation evolves.
    I would like to thank the subcommittee once again for allowing me 
to testify today. I have worked on Sudan for twenty years. I believe 
there are significant prospects for peace, but it must be a just peace, 
and it cannot be negotiated while atrocities take place. If the 
Government of Sudan is serious about peace, it must give unrestricted 
access to war-affected civilians in humanitarian need. That must happen 
now--not one month, two months, or three months from now. The world 
cannot wait; the people of southern Sudan cannot wait.
    Thank you.

    Senator Feingold. We will start the questions for panel 
one. We will do 10-minute rounds. And I will start. I will ask 
the first questions for Mr. Kansteiner.
    Mr. Winter, if you want to add something, please speak up.
    Mr. Kansteiner, you noted the civilian bombing verification 
team will be fully staffed and operational in what you called 
the very near future. What does that mean? Does it mean by the 
end of this month?
    Secretary Kansteiner. We are getting the report back from 
General Lloyd probably at the end of this month, so we will 
look toward probably end of the summer before it is fully 
staffed.
    Senator Feingold. End of August?
    Secretary Kansteiner. Yes, I would say. I would say that 
would be a very good target.
    Senator Feingold. What will be the team's mandate?
    Secretary Kansteiner. The team's mandate will be to, in 
fact, check and verify any attacks that have been reported and 
attacks that affect civilian populations.
    There will be two centers. One will be in Rumbeck in the 
South, and one will be in Khartoum. And we will have fixed 
aircraft and probably some helicopters available to get those 
verification teams out to the site and inspect and look and see 
exactly what happened, who did what to whom, when and where. 
And then that report comes back to the U.S. Government and the 
international community.
    And the leverage that that verification has, we hope, is 
that both combatant sides will recognize that there is an 
objective, independent team out there that is going to describe 
and analyze exactly what happened, and the ramifications will 
flow from that.
    Senator Feingold. OK. And in the Danforth report, it refers 
to a staff of 15, and your written statement refers to 25 
staff. What is accurate, and what is an adequate number to do 
the job?
    Secretary Kansteiner. Twenty-five is what we believe is 
going to be needed for this. And we have the funding--Charlie, 
how is--what do we have the funding for?
    Colonel Snyder. Five million dollars.
    Secretary Kansteiner. We have $5 million from the U.S. 
Government that will go into it, and we are hoping that we will 
get additional resources from other international community 
participants. In fact, Senator Danforth is going to Europe next 
week to discuss with our European allies not only our policy 
and our tactical approaches, but also some of these resource 
requirements.
    Senator Feingold. It is a pretty big country, obviously. Is 
25 enough?
    Secretary Kansteiner. We think that that is probably going 
to be enough. Remember, they will be housed in one of those two 
locations and they will have aircraft available to them and so 
they will go out and inspect when an incident has occurred. We 
are certainly willing and able, we believe, financially to up 
that staffing number, if needed.
    Senator Feingold. And I think you, at least described or 
alluded to the logistical support that the team will have, but 
just go over that again.
    Secretary Kansteiner. Two aircraft?
    Colonel Snyder. Two aircraft.
    Secretary Kansteiner. Two aircraft to start with these two 
centers; and if additional aircraft is needed, we will make 
sure that they will get it.
    Senator Feingold. And the financing is $5 million.
    Secretary Kansteiner. Yes, $5 million from the United 
States. Hopefully, additional resources will come from our 
primarily European allies.
    Senator Feingold. And the goal is to total how much?
    Secretary Kansteiner. What do we have at total budget?
    Colonel Snyder. We can do it with $5 million, but we would 
like to get $8 million.
    Secretary Kansteiner. We could do it with $5 million, 
Colonel Snyder says, but we would like to get $8 million.
    Senator Feingold. OK. You described that the information 
would come back that the team collects and that it would be 
analyzed. And you said certain things would flow from that.
    What kinds of action would it trigger if it is verified 
that the bombing is continuing?
    Secretary Kansteiner. Well, I think it is part and parcel 
of what Roger Winter was referring to in the sense that these 
different channels are unique, but they all interface with each 
other at some point.
    So if the humanitarian access continues to be unacceptable 
or civilian bombing continues--and I am going into 
hypotheticals here, so I need to be a little bit careful. You 
know, if civilian bombings are, in fact, verified, that there 
was not a military target, that it was a civilian target, I 
think that you would have to assume that it would impinge some 
way upon not only the general bilateral relationship that we 
have with Khartoum, but I think it would also impinge upon the 
peace process itself. And that is high stakes. And we hope that 
both sides know that that is high stakes.
    Senator Feingold. We have been talking about the 
international Eminent Persons Group and the careful report they 
presented on Slavery, Abduction, and Forced Servitude in Sudan. 
Has either the report or the accompanying recommendations been 
translated into Arabic or any other languages? And to what 
extent has this report been disseminated in Sudan or elsewhere 
outside of the United States?
    Secretary Kansteiner. Yes, they are actually translating it 
into Arabic now. I believe it has been translated into a 
European language; I think French, they did it. There is an 
excellent participant. He is an archeologist.
    And not to go too into detail, but the European position on 
some of these slavery issues has been somewhat different than 
ours. And so this report is somewhat of a breakthrough in the 
sense that we gained real consensus with our European allies 
that not only is this problem real and apparent and that the 
Government of Khartoum is not doing nearly enough, but then 
they also agreed on some of the implementation mechanisms that 
might, in fact, slow this down or prevent this, the slavery. 
There is----
    Senator Feingold. When will the Arabic translation be done, 
and when can I reasonably expect that the various versions of 
this will be disseminated, and how broadly will it be 
disseminated?
    Secretary Kansteiner. That is a good question. Hopefully, 
within the next few weeks, but we will definitely get back to 
you on that.
    [The following response was subsequently received:]

    The Arabic translation of The International Eminent Persons Group 
on Slavery, Abduction and Forced Servitude in Sudan was complete on 
September 5th. The Bureau of International Information Programs is 
placing the translated report on its Web site. The Placement of the 
document on this Web site assures world-wide distribution to our posts. 
Our posts' public diplomacy sections then can easily download, print 
and distribute the document. In addition, overseas academics, the 
general public and others can easily access this report at http://
usinfo.state.gov/homepage.htm or via a search engine.

    Senator Feingold. OK. I am still not 100 percent certain 
about what the consequences are for continued civilian bombing. 
It is not going to deter this activity unless there is some 
sense of clear consequences. Obviously you mentioned the impact 
of the bilateral relationship and the fact that it could have a 
negative impact on the peace process, but I guess I am looking 
for something a little more precise.
    Secretary Kansteiner. You know, I think it gets to your 
earlier reference about what is in our toolbox? You know, what 
are some of these sticks or wrenches or screwdrivers, or 
whatever?
    And I think that they are sometimes subtle and sometimes 
not so subtle. The relationship between Khartoum and Washington 
is one that is fraught with many problems, both historical and 
current.
    I think there is a general will in Khartoum that they would 
like to better that relationship. They would like to better it 
for the sake of having a good relationship with the superpower 
on Earth and all that means. I think they would like to have a 
better relationship with us because of our position in the 
international financial institutions and our ability to reduce 
their access to the IFIs.
    They have a host of reasons why they want this relationship 
to be a more normal one. And I think if we make it clear to 
them and, quite frankly, that in diplomatic channels we have, 
that things like civilian targeting, targeting of civilian 
population groups and installations and institutions, it is 
unacceptable and they will not get a better relationship with 
us.
    Senator Feingold. I am pleased you mentioned some of those, 
because I do think this is a good forum to put on the record 
what some of these issues and potential consequences are.
    Several of the recommendations of the Eminent Persons Group 
relate to the need for additional human rights monitoring and 
research into the practice of slavery in Sudan. And the group 
notes that information has been difficult to obtain because 
both parties to the conflict have obstructed research into the 
practice.
    And I wonder if you could talk about the motivations behind 
this kind of obstructionism. The Khartoum Government, of 
course, must believe that it gains more from tacit acceptance 
of this practice than it would gain from a full scale assault 
on the practice of slavery. Do you think that is true? And, if 
so, what motivates the calculation of Khartoum on this issue in 
your view?
    Secretary Kansteiner. As I read the report that the Eminent 
Persons Group put together, and as I speak to people like Penn 
Kemble and George Moose who were terrific in their leadership 
on that, it seems as if the real motivation behind Khartoum on 
this entire issue is one of payment. It is through this 
allowing the slavery to occur that they can pay various 
militias and warring tribes to go do their dirty work, to do 
their military offenses in areas that they might not normally 
operate on a traditional command and control basis.
    So I think it is their way of saying to some of these 
militia, ``Go in. Do what we need you to do. And your booty of 
war is to rape, pillage and plunder, and take the slaves if you 
need to take them, and we will look the other way.''
    This is, you know, analysis that has been suggested by not 
only the Eminent Persons Group, quite frankly, but by other 
NGOs and other folks that have researched this whole issue.
    Senator Feingold. Senator Frist, I am just going to ask the 
other half of that question and then turn to you.
    On the other side, I am even more sort of intrigued and 
concerned by the fact that the group finds that the SPLM has 
obstructed investigations into slavery when it is primarily in 
the communities in the South that are affected by the crime. 
Could you discuss their reluctance to address this issue more 
forcefully?
    Secretary Kansteiner. And, Mr. Chairman, I think that is 
even more complicated, quite frankly. And I am not an 
anthropologist or a sociologist that I completely understand 
it, but it seems as if there is inter-ethnic and inter-tribal 
competition that would in some instances encourage one segment 
of the population to participate in this practice, No. 1, for 
gain, capital gain, but, No. 2, as a way of payback or, in 
fact, as a way of waging war.
    So there is cooperation with those slavers from outside 
against a local clan or a local group for either payment or 
payback.
    Senator Feingold. Thank you very much.
    Senator Frist.
    Senator Frist. Thank you, Mr. Chairman.
    Mr. Kansteiner, as I mentioned, when I was in Sudan last 
January, I had the opportunity to take care of a number of 
patients, but one that I remember very dramatically was someone 
who came in from about 20 kilometers away from our facility 
with an injury sustained to the kneecap, a shattered kneecap so 
that he was not able to walk, from a bomb that was dropped. I 
also mentioned the land mine injury that Samaritan's Purse had 
2 weeks ago.
    On these repeated trips, it is hard for me to, in my own 
mind, say maybe the government is going to really be serious, 
the government of the North, when we have this continued 
bombing, playing games with relief flights that we know occur. 
At the same time you go to Nairobi and you come back a little 
more optimistic with regard to the peace talks at the table. 
And Khartoum talks peace, but it just seems like the actions 
say otherwise again and again and again.
    Could you give us, again, just two or three examples of why 
you are a little more optimistic about why this is a regime 
that we can deal with? Are they serious, or are they just 
stringing us along?
    Secretary Kansteiner. Senator, I ask that question to 
myself every day, quite frankly, when Sudan comes up on my 
desk. I think that the Danforth agreement is cause for some 
optimism.
    To get the Government of Sudan to agree to a Nuba Mountain 
cease-fire was postive. That cease-fire negotiation took place 
in Switzerland over the course of about 11 days. It was an 
intense, tough negotiation with the military as well as 
political leaders, but we got there.
    And it has not been a perfect cease-fire, but it is a 
cease-fire in terms of the African context that has held, and 
it is pretty good. And folks in the Nuba Mountains are 
extremely grateful.
    So I think when you see examples like that or the Days of 
Tranquility which has been reasonably effective, it does give 
us some hope.
    In an area that we have not touched on very much today--
perhaps it is not appropriate, but on the counter-terrorism 
side, we have seen real cooperation there.
    So, you know, maybe we are grasping at straws here, but 
there are some inclinations. There are some rays of sunshine to 
suggest that perhaps we can deal with these folks, and perhaps 
that they will live up to their agreements.
    Senator Frist. When people throughout the world and 
throughout this country come forward and say, ``Well, the 
cooperation in terms of counter-terrorism, that is good, even 
though we,'' meaning people who are asking, say ``we may not 
have access to all the information, but we will trust you that 
that is good and that is coming along well. But are you, the 
United States, using that as a mirror that causes us to reflect 
where we have huge problems that have been there for decades 
now in terms of the basic famine, war, terror that has gone on 
long before September the 11th?'' What is the response?
    And I understand that great progress has been made in terms 
of cooperation from anti-terrorism. But at the same time, I 
want to be able to answer the question, ``Yes,'' but nothing 
else has changed.
    Secretary Kansteiner. The cooperation on terrorism has been 
good, as I mentioned, and I am not sure that we are going to 
know if the cooperation on the cease-fire or on the peace 
process itself is real for another few weeks.
    I think we are in a situation right now in Nairobi where 
there is, on the table, a very serious and very real outline 
that could bring this country to peace. It is an outline or a 
skeleton, if you will, that has a lot of gaps in it. I mean, it 
is bone and no flesh or meat.
    So it has got a long way to go. But it is a skeleton that 
is there, and both sides are engaged in a process of discussion 
and negotiation. And I think we have got to let that play out.
    Senator Frist. Well, I hope that we can all share your 
cautious optimism as we go forward.
    Let me just jump to an issue that we hear a lot about and I 
think it is important for us, again not to focus on because it 
is not exclusive, but at least to mention it, and that is the 
issue of capital market sanctions.
    The original Sudan Peace Act originated in this 
subcommittee 3\1/2\ years ago in its first version. And the 
House of Representatives overwhelmingly passed a version of the 
Senate version of the Sudan Peace Act in June 2001 that 
included a provision that would ban foreign businesses from 
doing business in Sudan, and from raising capital in U.S. 
capital markets. This is section 9 of the House bill. You and 
most of your colleagues know the wording of that.
    Section 8 of that bill also imposes capital market 
sanctions on these foreign companies if they do not comply with 
certain provisions of disclosure. I guess putting together in 
the debate and the question of where we are in conference, I 
guess it really boils down to a question of: What is the 
administration's position today on capital market sanctions? 
And then from that, what impact would section 8 and section 9 
have on U.S. capital markets?
    Secretary Kansteiner. I am happy to respond to that. It is 
an issue that, I think, the Secretary of the Treasury has 
engaged in a fairly detailed way, and so I would yield to the 
Treasury Department on this.
    The administration position is that we much prefer the 
Senate version of the Sudan Peace Act. We very much share the 
goals of both the Senate and the House version. That is, we 
want to see peace in Sudan.
    The tactic of section 9 and section 8, we think, is not an 
appropriate tactic right now. And we think that we can use the 
other tools in the toolbox, as the chairman would say, more 
effectively at this time.
    Senator Frist. The purpose of these would be to put in 
place pressure on the Government of Sudan. If enacted, section 
8, section 9, would these achieve that desired purpose?
    I understand they have the toolbox working along and you 
put your faith, hope, hard work, sweat and tears in that. But 
incrementally, would these sanctions have the desired effect of 
putting pressure on the government to respond in a more 
deliberate, honest and straightforward way?
    Secretary Kansteiner. I do not think they would, and I do 
not think they would do so in relationship to the precedent 
they would set. I think we have got some good tools in our 
toolbox, and I think we ought to use them. And I think we ought 
to use them effectively. And if it does not work and that 
toolbox turns out to be inadequate, then I think we need to 
come back to you all and discuss how we go forward.
    Senator Frist. I have one final question on this. Are there 
companies that are involved in oil development in Sudan that 
would be directly affected by these capital market sanctions 
today?
    Secretary Kansteiner. As I understand it, the--and Treasury 
would be probably more apt and more capable to answer this. But 
as I understand it, there are just a limited number of oil 
companies in Sudan right now.
    The Malaysians are there. The Chinese are there. There is a 
Canadian oil company that is there. And I believe the Canadian 
oil company is, in fact, listed either on NASDAQ or the New 
York Stock Exchange.
    So they would probably be most directly affected.
    Senator Frist. In your opinion, would enactment of capital 
market sanctions help or hinder Senator Danforth's efforts with 
regard to the peace process in Sudan?
    Secretary Kansteiner. I think right now they would hinder.
    Senator Frist. Thank you, Mr. Chairman.
    Senator Feingold. Thank you.
    I will begin a second round. And I want to go back to the 
Eminent Persons report. But first let me follow on Senator 
Frist's last questions. Would the President veto a bill that 
contained capital market sanctions?
    Secretary Kansteiner. Let me come back to you. I would like 
to take that question for the record.
    Senator Feingold. Fair enough.
    [The following response was subsequently supplied:]

    At the July 11 hearing, I was unable to indicate whether the 
President would veto a bill that contained capital market sanctions. I 
still cannot address the President's future actions, especially 
regarding a measure upon which the House and Senate have not yet 
agreed.

    Senator Feingold. Let me ask you, again, about the Eminent 
Persons report. It recommends that the United States in 
collaboration with other governments should establish a 
mechanism to followup on these recommendations. What steps are 
you taking to establish such a mechanism?
    Secretary Kansteiner. We are actively working with the 
Eminent Persons Group now to see how they can keep their group 
together, No. 1. And there seems to be very much will to so do. 
As I mentioned earlier, it is a group that is not part of the 
U.S. Government. In fact, they are very proud that they are not 
under any government guidance. But we do see a real need to 
keep that good work going. And we think it is important, as do 
other governments.
    In fact, we have been talking with the Norwegian and 
British Governments in particular, but we are going to talk to 
others, about how we can, in fact, effectively find resources 
for this Eminent Persons Group to continue and roll out an 
implementation process and procedure.
    So we are looking for resources. We are willing to give 
U.S. Government moneys to make sure that they stay up and 
running, and we hope that our allies will do the same.
    Senator Feingold. When can we expect the roll out that you 
just described?
    Secretary Kansteiner. I do not want to speak for Penn 
Kemble, who is the director, and the chairman, but I got the 
impression that he wanted to move in terms of the next quarter.
    Senator Feingold. Quarter of this year?
    Secretary Kansteiner. Yes, in the next few months.
    Senator Feingold. OK.
    Mr. Winter. May I add a couple of comments on this piece?
    Senator Feingold. Yes, Mr. Winter.
    Mr. Winter. There were aspects of the slavery and abduction 
project that relate to USAID. We have already funded a well-
established international agency that was already in the region 
where most of the slavery activity occurs.
    We have already provided a grant to them to provide 
additional eyes and ears for monitoring purposes on slavery and 
abduction. As Walter said, to some degree, this is a 
manipulation by the government of groups for military strategic 
purposes.
    We will be investing perhaps $1 million in the immediately 
affected regions to try to improve the relationships between 
the two groups.
    I can tell you from personal experience, about 6 weeks ago, 
we met with the head of the actual Arab tribe, Missarea, who 
have done most of the slaving. They indicated very clearly to 
us that they are observing, at least for the moment, a 
cessation of this activity; and that the activity was done by 
them, they would say publicly to us, at the behest of the 
government. It has been costing them, as well as the Dinka 
population.
    They are looking to back away from it at this point. It is 
for local groups, like that, that we are intending to invest 
what we call resources for crossline programs, so that we can 
pick up on that local peace process, and actually build it, 
because these people do not need to naturally kill each other 
off. This is part of, I think as Walter indicated, a government 
strategy.
    Senator Feingold. All right. I am going to now go to a 
subject that Senator Frist was getting into, and it has to do 
with this whole dilemma of seeking assistance in fighting 
terrorism, while at the same time wanting to achieve so many of 
the goals that we have tried to achieve with regard to Sudan.
    And I think the questions about implementing our policy 
goals with regard to terrorist threats are probably, as you 
suggested, in general best left to secure settings. But I do 
want to get into one part of it in this open hearing.
    As we push Khartoum to take clear steps to ensure that 
Sudan is not a haven for international terrorists, I assume 
that we are offering them incentives for progress and 
disincentives for failure. That is generally how we try to 
influence behavior in any situation like this.
    Well, what about a scenario in which the Government of 
Sudan is being very cooperative on the counter-terrorism front 
but completely uncooperative with regard to these other policy 
goals, like human rights and humanitarian access? It would seem 
to me that the only way this would work would be a scenario in 
which incentives and disincentives involved are separate and 
distinct for these different policy initiatives. Otherwise, we 
risk losing leverage to reward behavior in one area and leaving 
ourselves without any tools to use in another. Do you think 
this is the case?
    Secretary Kansteiner. I do. And I think it is one of those 
situations where your relationship with a country is not 
single-faceted. It is multi-faceted. And this is very much one 
of those cases.
    They are all unique. Counter-terrorism is very different 
than humanitarian access, which is very different than the 
peace process ongoing in Nairobi.
    And yet, they do bleed over into one another. And I think 
we have to give ourselves the flexibility, and I sense from the 
subcommittee that you want us to give ourselves the 
flexibility, that if there is severely bad behavior in one area 
that we just do not turn a blind eye to it and carry on going 
down the path as if it is not happening in another area.
    Senator Feingold. That is right. And I am wondering how 
plausible you think it is that the United States will use 
meaningful disincentives, sticks if you will, to respond to 
failures on the humanitarian front, if we are enjoying 
cooperation on counter-terrorism issues.
    From press reports, that might be the situation we are 
finding ourselves in. What kind of sticks have we employed in 
recent months?
    Secretary Kansteiner. There are a number of sticks and 
even--you can even cross the fields and go back into them. For 
instance, on the counter-terrorism side--and, again, I do not 
want to get into too great a detail in this setting.
    Although there has been good cooperation at that, the 
humanitarian situation is not adequate. In fact, it is not 
acceptable. And hence what the Government of Sudan may have 
thought deserving in that counter-terrorism area is unlikely to 
occur because of the other area.
    So we are saying to Sudan that there are, you know, 
multiple parts of our policy toward this country but that, in 
fact, they do intertwine with one another.
    And I think the same is true vis-a-vis the peace process. 
And the peace process is something that we have been working 
extremely hard on and, as Senator Frist said, have poured a lot 
of blood, sweat and tears into. But it is not sacrosanct. And 
if there is not cooperation in the other two channels, then the 
peace process and our involvement in it will be affected.
    Senator Feingold. Mr. Winter.
    Mr. Winter. Yes. May I just add that I think, while this 
has been conveyed over and over and over again to the Sudanese 
Government, they do not seem to hear it. In all candor, every 
time we meet with them, we tell them that much of the U.S. 
popular support and congressional support for the U.S. position 
with respect to the Government of Sudan is driven by their good 
behavior or bad behavior on the humanitarian issues.
    We tell them that candidly. Andrew Natsios tells every 
single official he meets with when we go on these trips. We sit 
across the table from them and look them in the eye and say, 
``You have to understand our dynamics, because if you want a 
U.S. initiative, you do not want it undermined by this.'' They 
have not seemed to grasp it yet. It is not because the message 
has not been put to them many times.
    Senator Feingold. Why do we not get into some of the 
specifics of the humanitarian access? And this is for both of 
you. What steps have been taken to respond to the Government of 
Sudan's ban on humanitarian flights in Western Upper Nile?
    You were talking about this, Mr. Winter.
    And what has been the consequence for the Government of 
Sudan? And what can be done for the Sudanese civilians in the 
Western Upper Nile despite the ban? Mr. Winter, do you want to 
start with that?
    Mr. Winter. Let me start with the second part of the 
question. We have a mechanism. It is not an entirely sufficient 
mechanism, but we have a mechanism for trying to respond to 
humanitarian needs when, in fact, the government through normal 
processes does not enable us to react. And that is the use of 
non-OLS organizations.
    The bans that are put in place are bans, or negative 
responses, to U.N. requests for access. So if they ban the U.N. 
program, we use wherever we can non-OLS NGOs who are prepared 
to do this kind of work and take the risks that are involved in 
going without approval. We have expanded, in fact, our 
resources going in with a number of non-OLS NGOs into the 
affected areas of Western Upper Nile.
    I cannot say that I can see a huge price having been paid 
yet by the Government of Sudan. There was, I believe, a 1-month 
stand-down on the peace process in reaction, but mostly I think 
it has been a public shame approach on our part.
    Senator Feingold. Do you want to follow on that?
    Secretary Kansteiner. Well, I would say the price that is 
paid is that the relationship has not been normalized.
    Senator Feingold. Say that one more time.
    Secretary Kansteiner. I think the price that has been paid 
is that the relationship between the two countries has not been 
normalized. It is not a normal relationship. And it is not 
normal because they have not given us unhindered access. And 
they know it and they realize it and it is in their 
calculation, and it is in their power to change it. They know 
what they have got to do.
    Senator Feingold. A moment.
    [Pause.]
    Senator Feingold. Excuse me, Mr. Kansteiner. You may 
finish.
    Secretary Kansteiner. Yes.
    Senator Feingold. I just wanted to determine if Senator 
Frist was coming back right now or not. Had you finished your 
answer?
    Secretary Kansteiner. Yes, sir.
    Senator Feingold. Well, I am just going to continue then 
with a third round, and obviously when Senator Frist comes 
back, we will go back to him, but thank you for your answer to 
that.
    And I will ask both of you: What is the current status of 
the recent dispute over where OLS flights should originate? 
What is the U.S. Government's position on the Government of 
Sudan's demand that relief flights must originate from northern 
Sudan as opposed to Lokichokio in Kenya? Has this issue been 
resolved?
    Mr. Winter. It is not resolved. It is what I referred to in 
my opening statement as this emerging problem. First of all, as 
you are aware, the head of USAID, Andrew Natsios, is the 
designated Special Humanitarian Coordinator for Sudan by the 
President. So this is directly in his purview, and it is he who 
spoke the word ``unacceptable'' with regard to this kind of 
proposal.
    It is unacceptable because the track record of the 
Government in Khartoum on humanitarian issues would prohibit 
any rational person from giving them full control of a 
humanitarian operation that affects the people of the South, 
and I think that is pretty clear.
    The initiative that they are taking now seemed to be 
forcefully presented to the U.N., coupled with the idea that 
they might place in Lokichokio, Kenya observers who would 
inspect flights that were taking off for locations within the 
conflict areas of Sudan. This is another aspect which is 
unacceptable.
    They have also talked about instituting a regime that would 
require visas for all humanitarian workers that go into the 
South, even though they do not control the areas at all. And 
that too, to us, is unacceptable. So their proposal has not 
moved forward. All right. So in that sense of the word, I think 
our reaction has blocked their insistence.
    However, we have gone further. When this materialized, we 
organized a group of donor governments' representatives in 
Geneva to talk about dealing with the immediate as well as the 
longer-term issues, the ones that you are raising now in terms 
of humanitarian access.
    We have another meeting in Geneva with about eight other 
donor governments for the humanitarian programs on the 29th of 
this month. That is specifically designed to see if we can see 
concurrence amongst ourselves as to how to deal with the 
longer-term issue about structure of the humanitarian issue 
programs.
    Senator Feingold. Mr. Kansteiner, in the past, Egypt and 
Libya were engaged in an alternative peace initiative that 
competed with IGAD and allowed the parties to the conflict to 
play various negotiators off each other.
    Libya is always something of a wild card. But say a little 
bit about Egypt. Has the Egyptian approach to Sudan 
fundamentally changed, and did their interests change here?
    Secretary Kansteiner. We think that their long-term 
interests remain the same, quite frankly. What we are pleased 
with is that the Egyptians are now recognizing that the IGAD 
process, led by General Sumbeiywo, right now has the lead.
    The Egyptians clearly want to be a participant in this 
process and we, in fact, will keep them very much included and 
informed of the process going on in Nairobi. And they have been 
helpful at times, coming up with some good ideas because that 
Egyptian process did have some worthwhile concepts and ideas 
and Sumbeiywo has done a very good job of kind of incorporating 
some of those notions into the process, so right now we feel 
that the Egyptians are playing a helpful role. And we want to 
keep them included.
    Senator Feingold. Secretary, last month, you told the House 
International Relations Committee that oil revenue is critical 
to the solution of Sudan. And I am told that Senator Danforth 
has expressed the same view.
    Could you tell me why you think that oil will be a force 
for peace in Sudan, when competition for valuable resources has 
been a force driving conflict in so many other places in 
Africa, in Sierra Leone and the Congo, for example? What is 
different about this situation?
    Secretary Kansteiner. Well, we think that the oil revenues 
can be part of the entire power sharing structure. And that 
power sharing is one that is going to be negotiated and is 
being negotiated right now.
    That power sharing includes autonomy for the South. It 
includes participation of all groups in some kind of transition 
Government in Khartoum. It includes resource sharing.
    How they do that, I think we need to leave to the parties. 
But there have been some interesting ideas proposed. There have 
been some ideas floated that perhaps there needs to be an 
escrow account established where certain moneys right now go 
into an escrow account to be used in the future for various 
regions of the country.
    There are some interesting models out there. And I think it 
is our job--in fact, we have asked a number of experts in this 
area--to come up with a synthesis of some of these models and 
share it with the two groups.
    What happened in the North Sea is a very different 
situation, but it was a resource sharing of a kind, where 
Scotland got a disproportionate share than the rest of the U.K. 
on the North Sea oil. Indonesia has played around with and very 
effectively used resource sharing for different areas.
    So there are some interesting models out there, and I think 
our job is to show how innovative and creative we can be for 
the use of this money in the future.
    Senator Feingold. Thank you. My last couple of questions, 
before I turn to Senator Brownback, are more in the sort of 
nuts and bolts area.
    As the United States pursues multiple policy aims in Sudan, 
coordination would seem to be difficult. What are the internal 
mechanisms within the administration to ensure that our efforts 
on all these fronts are coordinated and properly sequenced?
    Secretary Kansteiner. That is a good question, and it is an 
administrative one that we now have our hands around quite 
capably, I believe. And that stems from the Sudan Programs 
Group that we have now formed, housed at the State Department 
under the Africa Bureau. This, the Sudan Programs Group, is 
really an interagency group. It has folks from a number of 
communities within the Federal bureaucracy, State Department, 
AID, and there are a number of different agencies that are 
involved.
    The CEO of that, if you will, the chief operating officer 
is Ambassador Mike Ranneberger, who has been our Ambassador in 
Mali, and who is returning from Bamako as we speak. And he 
will, in fact, be the chief operating officer of that 
interagency group called the Sudan Programs Group.
    They have a lot of tasks at hand. They are extremely 
helpful to the Nairobi team, which is really the on-the-ground 
negotiating team that is assisting there. But they are also 
looking out after the Nuba Mountain cease-fire, the civilian 
targeting group that is going to be legged up.
    So they have got a number of tasks. But we think it is 
adequately staffed and it is under good leadership, so we are 
looking forward to that for----
    Senator Feingold. So you do think there is enough people to 
pursue the goals daily, to seize on every opportunity as these 
issues come forward?
    Secretary Kansteiner. Yes, sir. Right now we do. I could 
envision where it would need to grow, but right now I think it 
is adequate.
    Senator Feingold. Enough people on the ground in Sudan?
    Secretary Kansteiner. We believe we do. We are going to 
have to up that, and we have plans to up our presence. We have 
some security situations there that need to be looked at. Our 
buildings are deficient, so we have got some resource questions 
that we internally have to grapple with, and we are doing so.
    Senator Feingold. How about our liaisons with the 
humanitarian community, both OLS and non OLS? Are they 
adequate?
    Secretary Kansteiner. I believe they are. I think AID has 
done a terrific job on that, and our hats are off to them. They 
work it every day.
    Senator Feingold. Do we have a permanent presence following 
the IGAD process? How many people----
    Secretary Kansteiner. We do. And that is what I am 
referring to as Team Nairobi. They are there. ``They'' are 
basically four people, four U.S. folks, that are attached to 
our Embassy Nairobi or attached to Embassy Khartoum.
    Senator Feingold. Is this their exclusive responsibility, 
or are they dealing with all the very important things that are 
happening in Kenya as well?
    Secretary Kansteiner. No, sir. This is their exclusive 
responsibility. This is all they are focused on.
    Senator Feingold. Thank you very much.
    I am delighted to see my colleague Senator Brownback here. 
I ask you for a statement or a line of questioning.
    Senator Brownback. Thank you, Mr. Chairman. And thank you 
for hosting this hearing. I really appreciate you taking it on 
and having a hearing on what I think is a very important 
foreign policy issue for us, our relationship with Sudan.
    I am glad to see two good friends. Mr. Winter is the 
gentleman who first took me into the Sudan and introduced me to 
the topic, so I appreciate seeing you here as well.
    I was not able to hear your testimony and some of the 
questions, so what I ask may be repetitive. And if you will 
please put up with that, I would appreciate that, because I do 
have some issues I want to raise.
    I have heard consistently from people that they are 
appreciative of the Danforth work, of what has been taking 
place, but they are concerned that the cease-fire in the Nuba 
Mountains area has allowed the prosecution of the war to take 
place more aggressively by the Government of Sudan in other 
areas of the country, so that it has had this positive effect 
in one area and a substantially negative effect in other areas. 
Is that accurate, and can we stop that?
    Secretary Kansteiner. Senator, I think it is partially 
accurate. The cease-fire in the Nuba Mountains has, in fact, 
brought the end of hostilities, so humanitarian assistance can 
get into an area of Sudan that, you know well, has not had that 
kind of assistance in 8 or 9 years. So there has been very 
positive outcome on that.
    The down side is exactly how you just described. There has 
been, it seems, some squeeze the balloon and, you know, the air 
goes somewhere else. It does seem that some of that has 
occurred.
    We do not have completely accurate intelligence on that, 
quite frankly, but it does seem that has occurred and makes the 
current peace talks in Nairobi all that much more imperative 
that we get to it, because----
    Senator Brownback. Can we pressure the Sudanese Government 
to, you know, not move troops from one area to another and 
start attacking there? Have we been raising that with the 
Government of Sudan?
    Secretary Kansteiner. We have, as well as the SPLA because 
they have participated in the same type of movement of certain 
assets. So both sides know that that is not what the Nuba 
Mountains cease-fire was intended to do.
    Senator Brownback. Roger, do you have a comment on this?
    Mr. Winter. This is Walter's area on the intelligence and 
the military aspects.
    Senator Brownback. OK. What it appears--this is a view from 
some distance away. It appears as if the Sudanese Government is 
doing a smart thing from their perspective in participating 
with us on the war on terrorism, and helping in some aspects of 
it.
    Is this being done just to slow our focus down on helping 
the people throughout the country, so that we do not focus on 
the Government of Sudan? Because here is a terrorist regime, by 
our determination, by State Department determination. Here is a 
slave state that continues to allow slavery to occur in that 
country. Here is where Osama bin Laden came from and, arguably, 
probably still has assets or his henchmen still have assets, in 
the Sudan.
    Are they helping us a little and getting away with a lot as 
a result of that?
    Secretary Kansteiner. And we have been discussing this, 
Senator. And we are concluding that, in fact, their cooperation 
on counter-terrorism is good. We would be happy to go into a 
different setting to describe it in some detail for you if you 
would like.
    But at the same time, their efforts on counter-terrorism 
are not totally segregated from the rest of the factors that 
make up that bilateral relationship with us, namely 
humanitarian access and the peace process.
    Each of these channels are unique, but each of these 
channels are interlinked. So Sudanese cooperation on counter-
terrorism while denying us access to certain parts of the South 
will not buy them a better relationship with the United States, 
and they know that.
    Mr. Winter. They do not change their behavior. They have 
not changed their behavior yet in that regard, and that is the 
problem. They certainly have been told the one does not 
substitute for the other. Walter has done it most recently in 
Khartoum a few days ago.
    But we have repeatedly talked to them about this. We have 
repeatedly said that this is the fatal flaw in their approach 
to dealings with the United States, that much of the support, 
the broad-based support that exists in the Congress and in the 
population as a whole, is really focused on the issue of how 
they behave in the humanitarian context.
    It is very clear they continue to behave very poorly. So 
while they have been told repeatedly, they certainly have not 
gotten the message yet clearly enough.
    Senator Brownback. I just hope down the road--I appreciate 
their cooperation on counter-terrorism issues. I am glad they 
are doing it. But the rest, as you note, Mr. Winter, continues 
unabated.
    I held in my arms yesterday a 2-year-old girl from the 
Sudan whose mother had been a slave, had died. At 18 months of 
age, she weighed 12 pounds, had been adopted by a Canadian 
family, and it just keeps going on.
    I would hope that while they are helping us in our 
strategic focus right now in the war on terrorism, which is a 
very positive thing that they are doing, that the rest of this 
has to change. And this is a chance for the Government of Sudan 
to change and to mend its way. And if they do not, I hope we do 
not lose focus on these horrific human rights abuses that just 
continue.
    I mean, I understand the near term objective. I also 
understand that there are millions of people that are 
continuing to suffer greatly under some of the most inhumane 
conditions that exist anywhere in the world today.
    And I hope we do not lose that focus on a long-term basis, 
that ``You may work with us now on this, and we are 
appreciative of that. You have got to change your ways on these 
other things.''
    Secretary Kansteiner. No. We very much share that sentiment 
with you.
    Senator Brownback. And share it with the Government of 
Sudan?
    Secretary Kansteiner. We certainly do.
    Senator Brownback. How do they respond to that?
    Secretary Kansteiner. They respond by eking out 18 new 
places that we can deliver food in, the 18 that Roger referred 
to, which is an unacceptable response. Food deliveries need to 
be totally unhindered throughout the South. So the government 
will often take a mini step that is inadequate. That is how 
generally they respond to these kinds of things.
    Mr. Winter. We suggested to them that the proof of their 
good intentions with respect to the peace process is, in fact, 
how they deal with the war-affected civilians. They do not seem 
to have comprehended it fully yet, I must say.
    Senator Brownback. I think if we are a year or two from now 
and we are in the same situation, a little bit of cooperation 
on counter-terrorism, but slavery continues, they continue to 
be a terrorist state, they continue to treat their own 
population the way that they are, that a number of people are 
going to want to push--certainly I will--a much more aggressive 
stance for us toward the Government of Sudan.
    And I think we cannot let them just kind of buy off with a 
little bit of cooperation the horrible agenda of what they are 
doing to so many of their people.
    Secretary Kansteiner. And I agree with you, Senator. And I 
think that the peace process under way right now in Nairobi is 
one for which we will get a feel for the success of that effort 
a lot sooner than 2 years from now. I think we are going to 
have a sense of which way it is going to go fairly quickly.
    Senator Brownback. I just feel, to me, they have a golden 
opportunity. And they could or they appear to be blowing it, 
and not reforming the system.
    I appreciate the work of both of you. I know each of you 
fairly well. I know you are hard on this subject, that you want 
to see the Sudanese people living free. And so I appreciate 
your long-term commitment to the Sudan and to the people there 
that have suffered so much.
    Mr. Chairman, again I really appreciate you holding this 
hearing. You did not have to do that, and I appreciate you 
doing it.
    Senator Feingold. Well, thank you, Senator Brownback. And 
obviously we recognize the tremendous importance of this 
country and this situation and admire your commitment on the 
issue.
    And I want to thank both of you for your tremendous 
patience, and especially Secretary Kansteiner for your 
participation in all the hearings this year. We are very 
pleased with the series of hearings we have had. And you have 
been a great contributor to them, so thank you very much.
    Secretary Kansteiner. Thank you. It has been my pleasure.
    Senator Feingold. We have an excellent second panel today. 
I would ask them to come forward at this time.
    We will start this panel. As I said, it is an excellent 
private panel of witnesses.
    Mr. John Prendergast is the co-director of the Africa 
Program at the International Crisis Group. During the Clinton 
administration, he served as Special Advisor to the U.S. State 
Department specializing in conflict resolution initiatives in 
Africa.
    Prior to joining the State Department, Mr. Prendergast was 
an executive fellow of the United States Institute of Peace 
and, before that, Director for African Affairs at the National 
Security Council.
    Sir, it is good to have you with us again, and I will have 
you start with your testimony.

   STATEMENT OF JOHN PRENDERGAST, CO-DIRECTOR OF THE AFRICA 
      PROGRAM, INTERNATIONAL CRISIS GROUP, WASHINGTON, DC

    Mr. Prendergast. Thank you very much, Senator Feingold. We 
appreciate the opportunity to testify and for your continuing 
concern about this issue. All of us appreciate it deeply.
    I come to you today with three simple messages. And in my 
eternal dissatisfaction with my own written material, I am just 
going to diverge from the text and tell you what I think.
    The first message is that peace is possible now. The second 
message is that the substance of that peace matters greatly. 
And the third message is that we will not make peace in Sudan 
unless our leverage is greatly increased over and above what it 
is now.
    The first point, that peace is possible, flows from our 
assessment at the International Crisis Group that an 
unprecedented window of opportunity has opened up since 
September 11 for peace in Sudan, and that a well designed peace 
process can be a crowbar to force that window wider until a 
comprehensive peace agreement is reached in Sudan.
    Such a comprehensive peace, in turn, is really the best 
vehicle for achieving all of the key U.S. objectives that you 
and that Walter outlined earlier, including counter-terrorism, 
which means we need to put more energy, more effort and more 
resources into that pursuit of the peace process than we are in 
any of the other areas, because it is the best guarantee for 
meeting our objectives.
    The second point is that the substance of this 
comprehensive peace matters greatly. Sudan is not a conflict 
among warlords over spoils. There are real issues backed by 
fundamental principles for which people are prepared to fight 
and die in large numbers.
    And as Walter pointed out, there is one issue above all 
that threatens to derail the peace in Sudan, the issue of self-
determination for Sudanese people.
    Mr. Chairman, I travel frequently into southern Sudan and 
travel all around that area, and I can tell you from personal 
experience that the commitment of southerners to a self-
determination referendum grows stronger with each passing 
month, with each new attack, and with each denial of access by 
Khartoum for humanitarian aid deliveries.
    The problem is that the mediators continue to underestimate 
this sentiment, believing if they can get the SPLA to 
compromise on this point, then the government will compromise 
on other issues and they will come to closure.
    In fact, the reverse is true. If the mediators, and the 
United States as the key observer and a participant actually in 
the mediation, if those mediators maintain strong support for 
the referendum, the self-determination referendum, this will 
oblige the SPLA to compromise on other issues and create the 
most important internal pressure on Khartoum to implement 
whatever agreement that it would make with the SPLA because it 
seeks to create a more positive incentive for unity of the 
country.
    At present, there are mixed signals from the United States 
and others, and these have undercut this point of leverage in a 
great degree. This stems from a desire to reassure Khartoum 
that the unity of the country is not at risk.
    Ironically, this attitude puts the unity of the country at 
greater risk, as it further alienates southerners who almost 
universally feel that they have suffered so much that they 
simply cannot compromise on this fundamental issue, and are 
quite prepared to continue the war no matter what odds they 
might face.
    And this then leads us to the third point, that assuming we 
get the objective right--in other words, assuming that the 
self-determination referendum is fundamentally understood as a 
basic element of the agreement. If we get that right, then we 
still do not stand a ghost of a chance of having peace in Sudan 
until the U.S. Government takes the lead in organizing and 
coordinating serious pressures and incentives that will be 
deployed in the service of the peace process.
    My written testimony, which I have already submitted, is 
almost entirely a toolbox of these pressures and incentives, so 
I have already tried to outline all those. But I just want to 
highlight one overarching point that you asked about earlier, 
Senator Feingold, since we will not have time really to go into 
a list of these issues. And the point is this: All of this 
leverage, all of the leverage that we are talking about should 
be deployed in an all-or-nothing scenario.
    In other words, when you normalize relations, lifting 
economic sanctions, ending Sudan's isolation, providing support 
through the IMF and the World Bank, ending support to the 
opposition, and we ought to increase it now, and ceasing any 
other meaningful pressure, this should only occur when a 
comprehensive peace agreement is being implemented.
    And that approach has to be multi-lateralized to the 
maximum extent. If President Bush's clear indication of support 
for peace is to be implemented seriously in Sudan, that 
requires high level of diplomacy in Europe, Asia and the Middle 
East in an attempt to unite key governments in a common effort 
toward peace in Sudan.
    Senator Danforth can begin this next week with his trip and 
this calls for--but this calls for the involvement of Secretary 
Powell and Mr. Armitage more directly. That would be the 
measure of U.S. commitment to peace in Sudan.
    Thanks very much.
    Senator Feingold. Thank you very much, sir, for your 
testimony.
    [The prepared statement of Mr. Prendergast follows:]

   Prepared Statement of John Prendergast, International Crisis Group

    In the last two decades of Sudan's civil war, there have been few 
hopeful moments, and few windows of opportunity for making peace. In 
the aftermath of the September 11 terrorist attacks, one of those 
moments arrived, and the window of opportunity for peace opened. For a 
number of reasons, however, the window is closing quickly. If more 
serious leverage is not immediately brought to bear on the warring 
parties in the context of the current peace talks taking place in 
Kenya, the window will slam shut, condemning the Sudanese people to 
cumulative levels of death and destruction with few parallels to any 
conflict since World War II.
      the answer to all questions: a just and comprehensive peace
    The U.S. has a number of fundamental policy objectives in Sudan: 
countering terrorism, promoting human rights and democracy, ending the 
war, and supporting humanitarian assistance. All of these objectives 
are best addressed through a comprehensive peace agreement which both 
reforms the central government and provides for the exercise of self-
determination for southern Sudanese.
    More than any other country in the world, the U.S. has the ability 
to move the Sudan peace process forward. The U.S. has decided to focus 
on making the IGAD process in Kenya a more serious one. So far, U.S. 
efforts have been useful but by no means sufficient. This is why 
today's hearing is so timely.
    In the topsy-turvy debate over Sudan policy, the very idea of a 
negotiated settlement has come under fire by those who see negotiating 
with the Khartoum government as useless. That may be proven true, but 
in the absence of a new U.S. policy objective which has not yet been 
formulated, such a view abandons the Sudanese people, particularly 
southerners, to endless war. In fact, southern Sudanese are prepared to 
continue the war indefinitely in the absence of a just peace, a factor 
that continues to be underestimated by mediators. But as long as an 
opportunity exists to end the conflict through the conclusion of a 
comprehensive peace agreement, we must urgently and diligently pursue 
that objective.
    To be clear, in order for peace efforts to have a chance of 
succeeding, the objective of the negotiations must emphasize a just 
settlement. There are indications from the ongoing talks in Kenya that 
mediators and observers are pulling back from support for self-
determination in the form of a referendum with the full complement of 
options, including independence. It cannot be emphasized enough that 
southern Sudanese will continue the war, no matter what the cost or the 
outlook, if this fundamental element of any potential solution is not 
part of the deal in some form. Modalities can certainly be negotiated, 
but the essential principle appears to be under assault, and this 
guarantees the failure of the negotiations. It is not too late to 
rectify this.
         the missing ingredient in the peace process: leverage
    Because the divergent positions of the parties are so entrenched, 
it is unlikely that they can be reconciled through conventional 
facilitation alone. More forceful diplomatic intervention--of which 
leverage is the key element--will be required than is currently 
envisioned. Therefore, the most visible missing ingredient of a 
potentially successful IGAD peace effort is coordination of pressures 
and incentives.
    Leverage does not grow on trees. It is created through leadership 
in the development of a multilateral strategy of carrots and sticks, 
and its judicious execution. Despite the influence the U.S. actually 
possesses over the warring parties, American diplomats have frequently 
claimed in the past that they lack the leverage to move the parties 
toward peace. Such claims increase perceptions among Sudanese parties 
that the leverage the U.S. does in fact enjoy will not be used during 
the negotiations--perceptions that in fact reduce outside leverage in 
the manner of a self-fulfilling prophecy.
    To be effective, pressures and incentives must be multilateral. As 
the actor with the most potential leverage and the only one whom all 
Sudanese parties believe can make peace, the U.S. should take the lead 
in organising the judicious and tactically opportune application of 
these carrots and sticks. This may be the single most important 
contribution the U.S. can make. Leverage can be increased both through 
actions and positions taken in the context of the peace process, and 
through wider policies pursued by the U.S. Both are discussed below. 
All of these require U.S. leadership but would have much greater effect 
if pursued--through the G-8, EU and other bodies--with our European 
allies as well as with other countries with influence.
           building leverage through the peace process itself
    The peace process itself provides a number of opportunities for the 
U.S. to increase its leverage on the parties in support of peace:

          1. Support Self-Determination: U.S. support for the right of 
        self-determination for the southern Sudanese people--in the 
        form of a referendum with the full scope of possible outcomes--
        provides the single most important point of leverage on both 
        parties for moving them toward a negotiated settlement. In the 
        absence of U.S. support for this position, the SPLA eventually 
        either will walk away from the talks or at best make no 
        meaningful compromises on any other issue, and the Khartoum 
        government will have no incentive to compromise as well, as it 
        will get what it wants without giving anything up. On the other 
        hand, U.S. support for self-determination will oblige the SPLA 
        to compromise on other issues, while creating the most 
        important internal pressure on Khartoum to implement whatever 
        agreement it makes with the opposition in order to create the 
        strongest case for maintaining a unified Sudan. At present, 
        mixed signals from the U.S. and others have undercut this point 
        of leverage, and it is clear that the mediators underestimate 
        the depth of southern Sudanese sentiment in support of an 
        independence referendum.

          2. Include the Northern Opposition: No agreement can be truly 
        comprehensive if it does not involve or gain the acceptance of 
        the political parties that comprise the bulk of the Sudanese 
        electorate. Northern opposition parties in the umbrella 
        National Democratic Alliance, as well as the Umma Party, should 
        be involved more directly in the IGAD process. Their inclusion 
        will act as a moderating influence on the Khartoum government 
        and the SPLA, and will better position all actors to support 
        the implementation of any agreement. Until now, the U.S. and 
        the IGAD states have not made the widening of the process a 
        priority.

          3. Strategize With the IGAD Neighbors: When the U.S. was 
        closely coordinating its Sudan policy with Ethiopia, Eritrea 
        and Uganda, additional leverage was generated which resulted in 
        the acceptance by Khartoum of the IGAD Declaration of 
        Principles. Now that the Eritrea-Ethiopia war is concluded, it 
        is time again to make a concerted effort to reconstruct the 
        partnership and focus it on bringing about a negotiated 
        solution to the Sudan conflict. This requires more focused, 
        consistent and high level U.S. diplomacy than that deployed 
        currently.

          4. Strategize With Egypt: Understandably, focus on Egyptian 
        policy has centered on its inflexible opposition to any 
        discussion of southern self-determination, a damaging position 
        that limits Egypt's role in any peace process. Less understood, 
        however, is Egypt's underutilized leverage that it could apply 
        particularly on Khartoum. Egypt has a vested interest in a 
        reformed Sudanese state, with a more moderate government. If 
        strongly and consistently engaged at high levels by the U.S., 
        it could be a partner eventually in developing and providing 
        the kinds of serious concessions and guarantees that the 
        Khartoum government must accept to make unity desirable to 
        southern Sudanese. The U.S. also must have the hard discussions 
        with Egypt, again at very high levels, on the Egyptian posture 
        regarding self-determination.

          5. Strategize With the EU: The U.S. should work at high 
        levels to convince the EU that normalization of its relations 
        with Khartoum should be made contingent solely on 
        implementation of a comprehensive peace agreement, rather than 
        on achievement of numerous short-term individual humanitarian 
        and human rights benchmarks as is currently the case. Senator 
        Danforth's upcoming trip to Europe would be an ideal 
        opportunity to initiate greater efforts in this regard.

          6. Include the Pentagon: U.S. leverage with both parties is 
        enhanced by the degree to which the U.S. Defense Department is 
        perceived to be backing the process in a tangible way. To wit, 
        one of the most effective elements of the successful U.S. 
        effort to resolve the Eritrea-Ethiopia war was to include U.S. 
        military officers as part of the U.S. negotiating team, and to 
        allow the team to travel on U.S. military aircraft. Pentagon 
        support for U.S. involvement in the Sudanese peace process in 
        the form of personnel and logistics is non-existent at present, 
        and would be similarly useful now, even more so after September 
        11.

          7. Issue an Ultimatum: High level U.S. officials should make 
        clear a basic reality of U.S. domestic politics: if Khartoum 
        obstructs the peace process and is the reason for its demise, 
        the U.S. will have no choice but to walk away from the 
        engagement required of a peace process and escalate its policy 
        against the government, with very uncertain outcomes given the 
        increasing frustration of the American constituency on Sudan. 
        The SPLA should be equally warned that if it is responsible for 
        collapsing the talks it will find far less sympathy in 
        Washington for its cause.
       broader carrots and sticks in support of the peace process
    Beyond the leverage available through the peace process itself, 
there are other key pressures and incentives the U.S. has at its 
disposal. The points of leverage should be deployed solely in the 
pursuit of a comprehensive peace agreement, not frittered away for 
lesser or incremental objectives, in other words, normalizing 
relations, lifting economic sanctions, ending Sudan's isolation, 
support in the Bretton Woods Institutions, ending support to the 
opposition, and any other meaningful pressures should only occur when 
the parties begin implementing the comprehensive peace agreement that 
they sign. The following is an inventory of existing or potential 
pressures and incentives that, if multilateralized, could make in an 
impact on the calculations of the warring parties.
a. Pressures on the government:

  <bullet> It is critical for the U.S. to maintain counter-terrorism 
        pressure on Khartoum. This has provided the most potent 
        leverage on Khartoum's policies in the aftermath of September 
        2001, since the Sudanese government remains uncertain what the 
        U.S. may yet do as it pursues its declared global war on 
        terrorism. This is particularly salient with regard to Pentagon 
        calculations. Short-term tactical cooperation from Khartoum 
        should not be confused with strategic redirection, which will 
        only be ensured through the kind of change that can be expected 
        to accompany a comprehensive peace agreement which reforms the 
        central government.

  <bullet> Continuing opposition to aid in the International Financial 
        Institutions (IMF and World Bank) make it extremely difficult 
        for the Sudanese government to rehabilitate its formal economy, 
        making this, therefore, a very effective form of leverage. Most 
        crucial is the huge debt overhang, one of the largest in the 
        world, that if not addressed will continue to be a major 
        obstacle to economic development and lending. The government 
        needs to get back in a full program with the IIMF in order to 
        enter the Highly Indebted Poor Countries (HIPC) program to 
        qualify for serious debt relief U.S. votes on the IMF Board 
        have so far prevented Sudan from moving too far up the IMF 
        ladder. The U.S. should continue to block aid to Sudan in these 
        institutions until a comprehensive peace agreement is 
        concluded. Ultimately, Sudan's economic recovery depends on an 
        end to the civil war, and nothing should be done to alter that 
        fact prematurely.

  <bullet> Pressure on investors in the oil industry translates into 
        indirect pressure on the Sudanese government, which is heavily 
        dependent on the revenues it receives from that sector. Passage 
        of the Sudan Peace Act would thus provide an important leverage 
        point, because it would deny critical capital markets to oil 
        firms operating in Sudan. Pressure on the Canadian firm 
        Talisman and other Western oil companies that are considering 
        starting new operations in Sudan is particularly critical 
        because these enterprises possess technology that would enable 
        the rapid expansion of oil production. Only Talisman and other 
        Western firms have this technology, and thus Khartoum is 
        heavily dependent upon them to unlock the full potential for 
        oil development in the country.

  <bullet> Secretary O'Neill recently reiterated Bush administration 
        opposition to capital market sanctions, saying, ``A better way 
        to deal with Sudan is to say no one should do any business with 
        Sudan full stop.'' If the Secretary is speaking for the 
        administration, this would entail two actions on the part of 
        the U.S. We should close the exemption on importing Sudanese 
        gum arabic, Sudan's biggest export to the U.S. And we should go 
        to other countries currently doing business in Sudan and ask 
        them to suspend their trade and investment, or to invoke 
        unilateral sanctions just as the U.S. has done. This involves 
        European partners like the UK, Germany and Switzerland, as well 
        as other governments that are investing heavily in and selling 
        arms to Sudan, such as China, Malaysia and Russia.

  <bullet> Increased effort could be expended on investigating and 
        highlighting the issue of government corruption associated with 
        oil development. Shining a spotlight on excesses to the 
        domestic Sudanese audience could increase accountability. The 
        U.S. could express support for the recently launched ``Publish 
        What You Pay'' NGO campaign which aims for companies to 
        disclose their payments to developing countries.

  <bullet> Various forms and levels of aid to opposition and/or civil 
        society elements represent a potentially significant lever. The 
        continuum begins with democracy-and peace-building assistance 
        to the SPLA/NDA and/or civil society groups. In and of itself, 
        this has a positive impact on the morale of those struggling 
        for change in Sudan, and helps sustain their struggles. Moving 
        along the continuum, support for the democratic administration 
        of opposition-controlled areas could demonstrate that 
        alternative governance can be better. Further along the 
        continuum, communication and transportation aid could be 
        provided for the protection of civilian populations in the 
        south, east and south-center (Nuba Mountains and Southern Blue 
        Nile) who are subject to the worst vestiges of the government's 
        war tactics such as forced displacement, slave raiding, and 
        repeated aerial bombing by Antonov or helicopter gunship.

  <bullet> Opposition to Sudan's status in the World Trade Organization 
        until it reaches a comprehensive peace agreement would also 
        frustrate efforts to reduce economic isolation prematurely.

  <bullet> Much more robust and higher level diplomatic efforts could 
        be expended on reducing the unimpeded flow of arms to the Sudan 
        government, which remains on the U.S. list of state sponsors of 
        terrorism. Under the Wassenar Agreement, Eastern European 
        countries voluntarily pledge to maintain certain standards for 
        arms transactions. Sales to Sudan certainly do not meet those 
        standards, and higher level and more public U.S. diplomacy 
        should be deployed to counter these sales, especially during 
        the peace process. U.S. officials at the highest levels should 
        also engage China on its burgeoning arms sales to Khartoum.

  <bullet> Maintenance of international efforts to isolate Khartoum 
        continues to be an irritant to the government, meaning that 
        every move they make in international forums is a source of 
        difficulty or controversy. Its defeat in its quest for a seat 
        on the UN Security Council in 2000 was a bitter one for the 
        government, and U.S. unilateral sanctions remains as stigma and 
        economic hindrances.
b. Incentives for the government:
    Key incentives aimed at Khartoum could include the following:

  <bullet> Sudan is eager to reduce its debt and improve its economy as 
        the government's abidance to IMF-approved shadow structural 
        adjustment programs attests. Removing U.S. opposition to Paris 
        Club financing, IMF lending, and World Bank credits for Sudan 
        when a peace agreement is concluded probably would be the 
        largest incentive the U.S. could offer. This would open the 
        door to HIPC for Sudan, a key to unleashing it economic 
        potential.

  <bullet> Sudan used to be one of the largest recipients of U.S. non-
        emergency foreign aid; today it receives none. Implementation 
        of a future peace agreement would usher in a new era of 
        improved U.S.-Sudan ties and once again make Sudan eligible for 
        foreign assistance. Rather than uncoordinated bilateral 
        assistance and promises of aid to the post-war reconstruction 
        of the south, the U.S. should work with international donors to 
        create a Sudan Reconstruction Trust Fund aimed at national 
        reconstruction, from which both the north and the south could 
        benefit.

  <bullet> Sudan wants a full-fledged U.S. embassy in Khartoum. An 
        increased U.S. embassy presence in Khartoum will allow the U.S. 
        to better monitor the government of Sudan and put personal 
        diplomatic pressure on Khartoum to implement a comprehensive 
        peace agreement and reduce human rights abuses.

  <bullet> Ending efforts to isolate Sudan in international forums is 
        an important objective of the regime, whether it is removing 
        opposition to a seat on the Security Council, removal of U.S. 
        unilateral sanctions and designation as a state sponsor of 
        terrorism, or unlocking foreign assistance and debt relief. The 
        government of Sudan is eager to legitimize and reintegrate 
        itself within the international community.

  <bullet> Potential large-scale U.S. corporate investment in the 
        development of the oil sector would be a major boost to the 
        government's exploration and exploitation plans. Although 
        Khartoum's oil efforts can continue without U.S. company 
        participation, the involvement of U.S. majors is perceived as 
        ideal. Lifting U.S. unilateral sanctions at the conclusion of 
        an agreement would unlock U.S. investment in the oil sector.
c. Pressures on the SPLA:
    There generally are fewer levers of pressure on opposition groups 
than on governments, but sticks aimed at the SPLA include the 
following:

  <bullet> A major effort could be undertaken to try to reduce arms 
        transfers to the SPLA if it is perceived to be obstructing or 
        collapsing the peace process. This would include pressuring 
        regional arms suppliers as well as invoking the Wassenar 
        Agreement as is suggested above in the government pressures 
        section.

  <bullet> Regional governments and the United States are the key 
        political supporters of the opposition. At key junctures in the 
        negotiations, it will be crucial for these actors to be willing 
        to apply diplomatic pressure on the SPLA to participate 
        constructively in peace talks.

  <bullet> Through the UN Operation Lifeline Sudan, the SPLA's relief 
        arm, the Sudan Relief and Rehabilitation Association, is a 
        member of the tripartite agreement between the government, SPLA 
        and UN. If the SPLA becomes the obstacle to a peaceful 
        settlement of the conflict, the treatment of the SPLA/SRRA 
        within the OLS framework should be reconsidered and downgraded.

  <bullet> Any institution-building support for the SPLA/NDA and its 
        civil administration capacity should be terminated if the SPLA 
        becomes the obstacle to a peaceful settlement.

  <bullet> African countries that support the SPLA and NDA militarily 
        have the most leverage over the opposition. This leverage 
        should be utilized in support of the peace process and the 
        objective of a comprehensive peace agreement.
d. Incentives for the SPLA:
    There are also fewer incentives for the opposition, but carrots for 
the SPLA might include:

  <bullet> Promises of regional and international support for the 
        implementation of whatever emerges in a comprehensive peace 
        agreement are the most important incentives for the opposition. 
        For example, an international observer force will be key in 
        guaranteeing the peace, external monitoring of any wealth 
        sharing agreements will be needed to ensure implementation, and 
        human rights monitoring will be required to guard against 
        continuing abuses or retribution.

  <bullet> The creation of a major blueprint for the reconstruction of 
        the south, including governance, infrastructure, and social 
        safety nets, will be a major incentive for southern negotiators 
        and--if widely advertised--will be an element of popular 
        accountability for the SPLA to negotiate in good faith.

    Senator Feingold. Now, we will go to Dr. Stephen Morrison, 
who is the director of the Africa Program at the Center for 
Strategic and International Studies. He came to CSIS from the 
Policy Planning Staff at the State Department where he was 
responsible for African Affairs and Global Foreign Assistance 
Issues.
    Prior to that, he worked for several years at USAID, where 
he conceptualized and launched USAID's Office of Transition 
Initiatives.
    Dr. Morrison has been an adjunct professor at the Johns 
Hopkins School of Advanced International Studies since 1994, 
and I am also eager to note that he holds a Ph.D. in political 
science from the University of Wisconsin.
    You may proceed, Dr. Morrison.

 STATEMENT OF DR. J. STEPHEN MORRISON, DIRECTOR OF THE AFRICA 
PROGRAM, CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES (CSIS), 
                         WASHINGTON, DC

    Dr. Morrison. Thank you, Senator Feingold. Thank you for 
the opportunity to be here today, and I want to commend you and 
Senator Frist for holding this very timely hearing.
    I want to offer a few brief comments on where I think we 
are in terms of the U.S.-led diplomatic efforts, and then I 
would like to turn to some comments specific to the oil sector 
in Sudan and the place it may have.
    In terms of U.S. diplomacy, I think it is important to 
emphasize that we are at a very important juncture here; and it 
is terribly important to keep a focus on U.S. policy toward 
Sudan.
    I think that this is, first of all, because Sudan is the 
single chronic conflict in Africa where the Bush administration 
has pursued an activist diplomacy at a sustained high level. 
And as President Bush indicated in his comments on June 20, 
Washington leadership and investment have begun to show early 
promising results.
    We need to build upon these results and to build upon them 
effectively and reliably, and this is consistent with some of 
what John has argued. We need to intensify our level of effort 
diplomatically, analytically and financially.
    Today, there is ample reason to be skeptical of Khartoum's 
motives and coherence. And there is good reason to be cautious 
at a time when there is intensified fighting, particularly in 
the Western Upper Nile.
    I want to put in context here that the South is in the most 
unified position that it has been in, that we have seen, since 
1991. We are in the midst of a rainy season, and we are seeing 
a very intense mobilization by southern armed insurgents in the 
zone of the Western Upper Nile. And they are seeing some 
results.
    I do not think at the end of the day the overall balance 
will change significantly militarily as a result of these or 
this intense fighting. But it is stirring much higher levels. 
John has detailed some of this in some of his recent writing 
quite ably. That is where we are right now.
    We are in a period of intensified diplomatic activity in 
Nairobi, in the midst of also some of the highest levels of 
fighting with the most unified position involving both Nuer and 
Dinka fighters in the South.
    For the first time in many years, it is possible to imagine 
that there is a just and durable settlement in sight that could 
reconcile the tough issues that we have heard about today on 
church and state, unity and self-determination, sharing of 
national oil wealth. That reality is a direct result of U.S. 
leadership and also a direct result of the dramatically altered 
circumstances that exist in Sudan and the Horn post-September 
11.
    Progress is seen in the four achievements that Senator 
Danforth created that have been detailed. Progress is seen in 
the new-found seriousness of purpose that has been shown by 
both the Government of Sudan and by the Sudan People's 
Liberation Movement since the IGAD talks resumed June 4.
    Progress is seen also in the new-found determination of the 
Kenyan Government. The Kenyan Government, in appointing 
Lieutenant General Sumbeiywo, was sending a power signal to us 
and to the region of its seriousness of wanting to see concrete 
results. That has not always been the case.
    Progress is seen in the formation of the troika, linking 
Washington, London and Oslo. It has been years that this kind 
of initiative has been under discussion. It is now being 
operationalized.
    President Bush's strong personal stake has been critical to 
sustaining the focus. And I think it is fair to say that there 
is a unity of purpose that links the Senators, Senator Danforth 
with Walter Kansteiner with Andrew Natsios and Roger Winter, 
that we have not seen in U.S. foreign policy toward Sudan in 
many, many years. These are all important gains.
    I do agree there are problems in implementation that should 
be overcome. U.S. personnel and resources are insufficient at a 
time when the demand on implementation is expanding. The Sudan 
team in Washington, Nairobi, and Khartoum are understaffed, 
over-stretched, under-financed in the face of multiple 
proliferating tasks.
    I do think steps should be taken to correct that. I do 
think that in Khartoum we need Arabic-speaking officers. We 
need senior leadership. In Khartoum, we need additional 
officers to staff southern Sudan and liaise to the Sudanese 
leadership from southern Sudan.
    In Washington, I believe the six officers that are 
operating there are greatly over stretched. They are working 
very, very hard and they are very able officers, but we need 
more of them.
    And I agree that an immediate priority should be 
accelerating the creation of the international monitoring 
mechanism that Walter described today that is under or that 
General Lloyd is attempting to stand up.
    On oil, the second part of what I wanted to address, oil is 
a highly charged fundamental factor to the war, and it is going 
to figure one way or the other as an obstacle and an 
opportunity to achieving peace. Today, the earnings are 
approximately $1 billion per year coming out of that sector.
    If there is a durable peace, the parties to Sudan's war 
will have to determine and agree on how the oil sector is to be 
managed and monitored equitably and effectively in a post-war 
setting, regardless of what kind of constitutional and 
political arrangements are put in place.
    The sector is too fundamental to the present and to the 
future, and it crosses both sides. If the southern--the fields 
in the Sudd, where there are three billion to four billion 
barrels of unexploited oil, are brought into production, over 
time the oil sector will shift to be 80 percent concentrated in 
the South. The pipeline and the refinery are in the North. 
Power has resided historically in the North.
    There is going to have to be some resolution of this issue.
    A durable and convincing peace settlement will allow Sudan 
to significantly increase its total revenue levels. If there is 
a durable compact and some vision of how to develop this 
sector, it could be doubled in size within a 7- to 9- or 10-
year period.
    Now, under present realities, as long as war continues in 
Sudan, the oil revenues will remain pretty much constrained, 
and they will decline over time.
    The national fields--or national production will be 
confined to its present first phase exploitation in the Western 
Upper Nile where production is about 230,000 barrels a day. It 
may rise up to 250,000, and then it will begin to decline 
steadily.
    Until the war is ended, there is little prospect of 
bringing into production the far larger fields in the South, 
the three billion to four billion barrels that I alluded to 
earlier.
    Current production areas in Western Upper Nile will 
continue to attract intensified military activity by both the 
government and the SPLA. That will sustain insecurity, 
humanitarian dislocation, allegations of war crimes and other 
human rights abuses. I do not believe that the fighting that we 
see in Western Upper Nile will result in a significant change 
in the battlefield situation.
    If a negotiated peace is achieved, it will be possible to 
expand the oil sector. It will be possible to double its 
production. However, to do that will require substantial 
patience and determination and take several years to achieve.
    Once war has ceased, there will be a strong interest, I 
would argue, in both Khartoum, and the South in bringing or in 
enlarging the consortium and bringing a Western major oil firm 
in in order to bring the Sudd into production. But that will 
only be possible if there is a durable political compact 
between the parties that builds the confidence of external 
investors.
    A credible accord will require the government and the SPLA 
to convince the international energy community on elementary 
security over an expansive geographic territory. The parties 
will have to have joint agreement on elementary security over 
an expansive geographic territory. And they will have to have 
some revenue sharing accord.
    I want to emphasize here that the previous accord, the 
Addis Ababa Accord of 1992, predates the advent of the oil 
sector in Sudan. There is no historical precedent for revenue 
sharing in the oil sector.
    It is going to have to be crafted carefully and a revenue 
sharing formula will have to have adequate specificity and 
transparency. It will have to include some form of strong 
third-party verification. It will have to rest on competent 
management structures that are transparent.
    There are a number of models. We can talk about those. They 
will probably be influenced fundamentally by what kind of 
broader political and constitutional arrangements are agreed 
upon.
    Oil is not going to drive the settlement. This revenue 
sharing model will be derived from that.
    As an interim measure, there was mention made earlier about 
the possibility of an escrow account. The Government of Sudan 
could dedicate a very substantial share of current oil revenues 
to social and developmental purposes and allow an 
internationally monitored escrow account.
    But I also want to emphasize, in closing here, that the two 
sides right now on revenue sharing in the oil sector are very, 
very far apart. And I think we need to be conscious of that. 
They are suspicious of one another. There are internal factions 
who are very, very pessimistic that it would make sense to be 
entering negotiations around these.
    There are two broad scenarios that I have laid out. One is: 
You have continued war. You have no agreement. The sector peaks 
at 250,000 barrels and begins to decline, and there is no 
benefits to the South.
    A second is: They agree upon a compact that enlarges the 
pie, that doubles it, that brings very substantial benefits 
over time to both sides based on fairly conservative estimates.
    Thank you very much.
    Senator Feingold. Thank you, doctor, very much for your 
testimony.
    [The prepared statement of Dr. Morrison follows:]

    Prepared Statement of Dr. J. Stephen Morrison, Director, Africa 
        Program, Center for Strategic and International Studies

                              introduction
    I first wish to commend Senators Feingold and Frist, Chair and 
Ranking Minority of the Senate Foreign Relations Africa Subcommittee, 
respectively, for their leadership in holding this timely hearing on 
Sudan. I also wish to express my personal gratitude for the opportunity 
to appear here today.
    I will offer a few brief comments on U.S.-led international efforts 
to end Sudan's war and areas where implementation should be 
strengthened. After that, I will briefly address issues specific to 
Sudan's oil sector and its place in a negotiated settlement.
              keeping a focus on u.s. policy toward sudan
    It is critically important, at this juncture, to keep a focus on 
U.S. policy toward Sudan.
    President Bush did just that on June 20th, at the dinner honoring 
the late Reverend Leon Sullivan, when he stated:

          . . . we will . . . continue our search for peace in Sudan. 
        My policy towards Sudan seeks to end Sudan's sponsorship of 
        terror and promote human rights and the foundations of a just 
        peace within Sudan itself. My envoy for peace in Sudan, former 
        Senator John Danforth, has made progress toward a cease-fire 
        and improved delivery of humanitarian aid to such places as the 
        Nuba Mountain region of Sudan.

          Since September the 11th, there's no question the government 
        of Sudan has made some useful contributions in cracking down on 
        terror. But Sudan can and must do more. And Sudan's government 
        must understand that ending its sponsorship of terror outside 
        Sudan is no substitute for efforts to stop war inside Sudan. 
        Sudan's government cannot continue to talk peace but make war, 
        must not continue to block and manipulate U.N. food deliveries, 
        and must not allow slavery to persist.

    Keeping a focus is important not only because of the grave human 
costs of Sudan's chronic war, but also because the war has mobilized a 
remarkable coalition of important American constituencies, like none 
other in Africa in recent years.
    It is also important because Sudan is the single chronic conflict 
in Africa where the Bush administration has pursued an activist 
diplomacy at a sustained, high-level. And as President Bush indicated, 
Washington's leadership and investment have begun to show early, 
promising results. To build upon these returns, effectively and 
reliably, now requires an intensified level of effort, diplomatically, 
financially and analytically.
    Today, there is ample reason to be deeply skeptical of Khartoum's 
motives and coherence. At the same time, fighting, concentrated in the 
oil-producing Western Upper Nile region, has intensified.
    Nonetheless, for the first time in many years, a just, durable 
settlement is again imaginable, that might reconcile the tough issues 
of church and state, unity and self-determination, and the sharing of 
Sudan's national wealth, among other issues.
    This is because U.S. leadership, bolstered by dramatically altered 
circumstances within Sudan and the surrounding region, post-September 
11, have created opportunities for peace in Sudan that did not exist 
before.
    Progress is seen in the four achievements of Special Envoy Senator 
John Danforth: the Nuba Mountain cease-fire agreement, plus agreement 
by the two sides to international monitoring of the Geneva Convention, 
an international commission to investigate slavery and abduction, and 
disease eradication efforts.
    Progress is seen in the newfound seriousness of purpose, exhibited 
by both the Government of Sudan and the Sudan People's Liberation 
Movement, in the most recent round of IGAD peace talks that opened in 
Nairobi on June 17th. Southern political cohesion has been strengthened 
in recent months. The SPLM leadership has shown increased openness to 
dialogue on the critical issues that must be resolved before there can 
be peace. Khartoum has systematically normalized its relations with its 
neighbors, recommitted itself rhetorically to peace, and cooperated 
with Washington on counter-terrorism.
    Progress is seen in the conspicuous, newfound determination of the 
Kenyan Government, led by General Lazarus Sumbeiywo, to move this round 
of the IGAD talks toward real results, intended to lead to a 
comprehensive settlement.
    And progress is seen in the joint efforts of Washington, London and 
Oslo to put their substantial support behind Kenya. The troika has 
brought new pressures upon both sides, and helped significantly to 
inform discussions on the critical issues tabled at the IGAD talks.
    President Bush's strong personal stake is obviously critical to 
sustaining the Administration's focus and determination on Sudan. At 
the same time, former Senator John Danforth, Assistant Secretary of 
State Walter Kansteiner, and USAID Administrator Andrew Natsios have 
demonstrated resolve and creativity in carrying forward U.S. policy. 
This month, they will be joined by Ambassador Ranneberger.
    However, notwithstanding the Administration's growing unity of 
purpose, there are enduring problems in implementation of U.S. policy 
which need to be corrected.
    U.S. personnel and resources to support U.S. policy toward Sudan 
are insufficient, at a time when there is simultaneous demand both to 
implement the four initiatives developed by Senator Danforth and 
provide extensive support to the IGAD talks. Presently, the Sudan team 
is under-staffed, over-stretched, and under-financed in the face of 
multiple proliferating tasks. Analysis of Sudan's complex, quickly 
evolving internal political developments, critical to informing U.S. 
diplomacy, is uneven and often weak.
    If U.S. policy is to be effective, it requires an adequately 
staffed embassy in Khartoum that includes skilled Arabic speakers and 
resident senior leadership. It requires in Nairobi at least two 
resident officers to liaise with southern Sudanese leadership. It 
requires in Washington a team to backstop implementation that is 
considerably larger and more stable. Some recent progress has been seen 
in adding staff and resources, and the present teams in Washington, 
Khartoum, and Nairobi deserve high praise for their performance under 
difficult circumstances. However, recent efforts to increase capacities 
still fall short of requirements, and more needs to be done. As the 
implementation agenda continues to widen, there is a continued risk of 
overload, confusion and paralysis unless quick action is taken.
    An immediate related priority should be accelerating the creation 
of the international monitoring mechanism to investigate alleged 
violations of the Geneva Convention. That instrument is important to 
bringing new pressures upon the parties and, most importantly, bringing 
an end to bombings of relief sites. Little progress has been seen in 
recent months in establishing it, not through willful neglect, but 
because of a sheer excess of demands upon limited staff.
                           sudan's oil sector
    Oil is a highly charged, fundamental factor in Sudan's war and will 
inexorably figure both as an obstacle and an opportunity to achieving 
peace.
    If there is to be a durable peace accord, the parties to Sudan's 
war will have to determine and agree on how the oil sector is to be 
managed and monitored equitably and effectively in a post-war setting. 
Settling on a workable strategy to divide and distribute oil revenues 
will likely be an arduous and complex process, for which there is no 
historical precedent in Sudan's experience. Under the best of 
circumstances, realizing big, mutual financial gains will require 
several years.
    Nonetheless, a durable and convincing peace settlement eventually 
will allow Sudan to significantly increase its total revenue levels. An 
equitable division of an expanding oil revenue pie could help 
consolidate a durable peace, contribute to a broader reconstruction 
process, and possibly encourage the more rapid arrival of concessionary 
donor flows. In turn, a durable peace could ensure that the Sudan's 
energy pie continues to grow.
                           present realities
    As long as war continues in Sudan, Sudan's oil revenues will be 
highly constrained, and the sector itself will be a potent negative 
factor.
    National production will be confmed to first-phase exploitation in 
the Western Upper Nile (WUN) oil fields, which have an estimated 
reserve of 600 million to 1 billion barrels. Current production of 
230,000 barrels per day may rise in the near term to approximately 
250,000 barrels per day, but shortly thereafter production is projected 
to decline.
    Until the war is ended, there is little prospect of bringing into 
production the far larger fields, estimated at 3-4 billion barrels, 
that lie in the southern Sudd zone, dominated by southern armed 
movements.
    Current production areas will continue to attract concentrated 
military activity by the government of Sudan and the SPLA. Recently 
intensified military action in and around the WUN oil fields will 
sustain insecurity and uncertainty and continue to generate 
displacement, disruption of humanitarian access, continued credible 
allegations of war crimes, and other human rights abuses. Fighting is 
not likely to lead to a significant change in the battlefield 
situation.
    These factors will sustain doubt among Sudan's external partners 
and instability in current production arrangements, prompting periodic 
suspension of exploration and production activities and the possible 
sale of operations.
    These factors will also intensify international NGO activism 
surrounding Sudan's oil sector, sustain strong interest among mobilized 
constituencies in the United States to impose capital market sanctions 
on Sudan's external oil partners, and otherwise impede normalization of 
Sudan's international status and image.
                            oil in peacetime
    If a negotiated peace is achieved, it will be possible to expand 
Sudan's oil sector considerably--in time. However that will require 
substantial patience and determination to surmount several formidable 
hurdles over several years.
    Once war has ceased, there will be strong interest in enlarging the 
consortia of external partners, including new Western major oil firms, 
in order to bring the Sudd zone into production and increase overall 
energy sector competitiveness. However, only a credible, durable 
political compact among the parties to a peace accord will build 
confidence among external investors that the Sudanese partners are 
reliable and predictable.
    A credible accord will require that the government of Sudan and the 
SPLA convince the international energy community that they have 
achieved a workable consensus on joint future management of Sudan's 
energy sector. This step will be essential, regardless of how precisely 
they agree to divide power politically and constitutionally.
    The parties will also have to demonstrate their joint capacity to 
guarantee elementary security across the expansive geographic area of 
present and future production. This will likely require a provision in 
the demilitarization agreements to take account of the special security 
requirements of the present and future oil producing areas.
    Oil did not figure in Sudan's 1972 Addis Ababa Agreement, and there 
is no historical precedent in Sudan for negotiating oil-revenue 
distribution. A revenue-sharing formula will be required that has 
adequate specificity, simplicity, and transparency, has provisions for 
negotiated adjustments, includes some form of strong third-party 
verification, and rests on competent revenue management structures. A 
number of models are possible, including for example, a simple 
negotiated division between north and south based on relative 
population sizes, or a division among the federal government and 
smaller federal units, with bonus allocations for producing regions. 
The selection of an appropriate formula will be shaped significantly by 
the political and constitutional design of the peace accord.
    Increasing Sudan's total oil revenues to the benefit of all parties 
will be a slow, multiyear process. As an interim measure, the 
government of Sudan could dedicate a substantial share of current oil 
revenues to social and developmental purposes that benefit the south 
and north, through an internationally-monitored escrow account.
    Thank you.

    Senator Feingold. Ms. Jemera Rone has worked with Human 
Rights Watch since 1985 and has been the organization's Sudan 
researcher since 1993. She has investigated and authored four 
book-length reports on human rights abuses in Sudan and, I 
understand, is currently working on a fifth report about the 
effect of oil development on human rights and the 18-year-old 
war in Sudan.
    Ms. Rone has extensive experience investigating human 
rights abuses around the world. A lawyer, she has also worked 
on civil rights issues here in the United States.
    Thank you for coming, and you may proceed.

   STATEMENT OF JEMERA RONE, COUNSEL, AFRICA DIVISION, HUMAN 
                  RIGHTS WATCH, WASHINGTON, DC

    Ms. Rone. Thank you very much for holding this hearing and 
for inviting us to testify. I will try to address some of the 
questions that you raised. You have my statement, and we could 
pursue that further, if you would like.
    You asked: Do we have enough personnel and do we have 
enough resources to make this peace project go? I do not think 
so. I agree with John Prendergast and Steve Morrison in that 
100 percent.
    I think that the sign of this is that it has taken the 
State Department so long to mount the human rights monitoring 
operation which is so vital to prove U.S. credibility and to 
educate our allies on the severity of the war in the South and 
to bring along the parties and train them in good human rights 
and war practices.
    The money is a large problem. The Nuba Mountains, their 
monitoring team has just announced that they need another $6.5 
million. But larger than that, and in addition to the peace 
effort, the OLS, North and South, the humanitarian relief has 
announced that there is a shortfall of about $223 million in 
what they have said was their absolute basic minimum 
requirement for the year to keep people, North and South, 
alive.
    The trip that Senator Danforth is making to Europe, I hope, 
includes holding out the hat for those very important items, 
plus there is a lot more money that is needed for the 
diplomatic offensive and the personnel. It appears from the 
outside that the existing personnel are being stretched by what 
has been the government's, and to some extent the SPLA's, habit 
of manipulating the process in trying to slip by fast ones on 
everyone in big projects as well as small projects. And a lot 
of personnel time goes to putting out those fires when you need 
a lot more people devoted to looking at the big picture and 
making sure it is on track.
    I also feel that the response that you got on the process 
issue from Assistant Secretary of State Kansteiner was not--or 
did not indicate to me that there is enough thinking right now 
about the process; that is, the timing of negotiations.
    And I know our Swiss allies have an expert who has worked 
on that in Burundi. He said it took him 18 months to straighten 
out the discussions there, because every and all discussions 
were occurring at the same time. It was impossible to trade 
things off.
    I think we also need to think about helping and empowering 
southern civilians particularly, but also others, to have a 
role in the peace process and to create the kind of groundswell 
that we have seen in the Nuba Mountains that can bring pressure 
on the leaders, both North and South, at crucial times to go 
ahead with parts of the agreement that they may not like.
    One thing that can be done and that touches on what Steve 
Morrison was saying is that I think there needs to be a lot 
more training of leadership, southern leadership on some of the 
difficult technical issues.
    I think that part of the reason they are not willing to 
talk about oil or water is because these are very difficult and 
technical subjects. They do not have the commercial background 
or experience and they are very much afraid that, as in the 
past, the northern government will pull the wool over their 
eyes.
    And I think that one way of reaching out to the southern 
community, beyond just the people who are in the SPLA 
leadership, is to include a lot of them, including southerners 
who have represented political parties in Khartoum and are 
still in Khartoum, including even the southern militia members 
who are always with one foot in the independents camp even 
though they side with the government. It is a very strange 
constituency, but one that has been totally neglected by the 
U.S. diplomatically.
    These people are not really known to the United States, and 
they do not have any contact with them, when they, in some 
ways, hold the balance of power militarily, in the South and 
politically.
    I think they all would be helped in this by training on the 
technicalities of oil and water negotiations. That is one way 
to reach out to them. There are other ways. And I have made 
other technical suggestions for this, including a radio that 
broadcasts throughout the South objective reports of what is 
going on in the peace process and offers people an opportunity 
for real dialog and real discussion, not demagoguery.
    The Nuba Mountains agreement has been a great success on 
the whole, but there are problems with it. And there was a 
democratic participation at a large meeting held to discuss 
those problems on the SPLA side. This meeting was observed by 
Nuba from Khartoum, who were quite impressed with the 
democratic give and take. They came up with a whole list of 
things they want to see changed in the enforcement of this 
cease-fire agreement. And they put them forward.
    I am not sure that people have focused on them at all. They 
have to do with the Government of Sudan not withdrawing from 
their garrisons where they had promised to withdraw, impeding 
civilians from going back and forth across the lines, and 
using--where they do withdraw troops, they substitute very 
heavily armed police, which is novel in the Nuba Mountains.
    There are a series of other things that the Joint 
Monitoring Commission, perhaps, has not been able to tend to, 
because they do not have sufficient staff. They are 
understaffed, and they do need another several million dollars 
to get there.
    I think the lack of enforcement, the lack of getting the 
Zones of Tranquility for health matters and the human rights 
monitoring of the no targeting of civilians on the ground, 
rapidly may have given the government the feeling that they 
could go ahead and fool around with the relief effort and try 
not only their ordinary manipulations, which Roger Winter very 
eloquently described, but what really has amounted to almost a 
coup attempt to change the entire OLS structure, which was done 
surprisingly by the government right in the middle of this 
whole peace process.
    I concur with Roger's statements about how they are 
proceeding in this manner is really counter-productive to their 
expressed desire for peace. But I think they may have felt that 
because there was no, you know, really quick enforcement of the 
civilian monitoring and of the Zones of Tranquility, that 
perhaps the United States did not care that much about these 
details, and they could exploit this opening.
    I think we closed the opening but I think the message has 
been unfortunate.
    The way that the Eminent Persons team to investigate 
slavery was put together was really in a way, retrospectively 
now, a model of good, quick administration. The AID people who 
set it up were on the phone all the time to everybody, 
soliciting names, asking about reputations, standing in the 
field, asking who was the best for the Eminent Persons 
internationally, who was the best fact finder, et cetera, et 
cetera and, in all other ways, was really pumping the NGO 
community for help.
    Now, none of that outreach has come out with regard to the 
civilian monitoring team of no civilian attacks in the South. I 
have sent names including one who is an academic and a Nuer 
speaker who is teaching at the University of Wisconsin, and 
nobody has really pursued those with me or with any of the 
people who are on the list, because I asked them, ``Has anybody 
called you?'' and they say, ``No.''
    I have not recommended many people, but I think they are 
all highly qualified, experienced field workers and know 
southern Sudan intimately. You have to have someone like that 
at the elbow of whatever two-star general goes out there, 
because the politics and the anthropology of the situation are 
so difficult that even a really cagey two-star is going to be 
walked around and taken advantage of by the parties.
    The learning curve is very, very steep here. And we have 
got to have people who are tried and true and know the 
situation on the ground and know Human Rights Watch methodology 
to get anywhere with this peace or with this civilian targeting 
monitoring.
    I wanted also to mention that we are in the process of 
supporting the SPLA, which does have a bad human rights record, 
and that it appears that the United States is going down the 
trail or the track of funding a rebel group, which has not 
really been done very much since the cold war ended.
    I do not think there has been any debate or really open 
discussion of the advisability or propriety of this. I think it 
is really also unfortunate that there are absolutely no human 
rights conditions at all attached to any of the money that the 
SPLA is directly or indirectly receiving and has veto power 
over.
    I think there should be a whole, perhaps, another group 
comparable to the slavery commission, the Eminent Persons 
Group, that takes a hard look at the SPLA and makes 
recommendations for things that it should do as a condition of 
receiving continued assistance from the United States.
    I would also like to plead with the people who are 
negotiating that they not be trading off human rights or 
humanitarian assistance in the peace process. I think that has 
to be absolutely kept separate as a way to demonstrate the good 
faith and the sincerity of the administration's statements on 
this issue that civilian lives are important, human rights are 
important. We have got to maintain that by not sending a double 
message with sloughing off or trading off human rights and 
humanitarian aid as a part of the bargaining process.
    I think there are many other things I could say, but I am 
probably out of time, so I thank you.
    Senator Feingold. I thank you very much for your expert 
testimony.
    [The prepared statement of Ms. Rone follows:]

         Prepared Statement of Jemera Rone, Human Rights Watch

    Thank you for the opportunity to testify before you today. Human 
Rights Watch is honored to be invited.
    Human rights are key in the twenty-first century. The gross abuse 
of human rights in Sudan has lead to its on-going civil war, as we have 
heard at so many hearings and from so many reputable reports.
    The lack of respect for the rule of law and for basic human rights 
makes the search for peace in Sudan very difficult.
    The U.S. can lead the way, however, especially in the South. 
Suggestions include:

  <bullet> Fully fund and provide necessary U.S. personnel to enforce 
        the Danforth agreements, which Human Rights Watch considers to 
        contain important advances for human rights in Sudan. Their 
        full enforcement is a key test of U.S. credibility.

  <bullet> Support for south-south peace and reconciliation efforts led 
        by the New Sudan Council of Churches based in Nairobi and rebel 
        areas of the south is required. This People-to-People process 
        needs serious money and personnel, not the lip service it has 
        received until now. The NSCC conference at Wunlit in 1999, 
        reconciling the (West Bank of the Nile) Nuer and Dinka laid the 
        groundwork, unintentionally, for the popular pressure on the 
        SPLM/A for reconciliation and peace throughout the south.

  <bullet> The SPLM/A does not control or speak for the whole south. 
        The U.S. needs to know who southern leaders outside the SPLM/A 
        are and establish contact with them in order to prepare the 
        ground for future democracy and human rights respect in the 
        south, as well as to prepare the ground for short-term success 
        in the peace negotiations.

                  The U.S. does not have relations at this time with 
                the Nuer who took the places of Riek Machar and his 
                followers when they left the Sudan government in 2000. 
                This is a crucial intelligence gap at the very least. 
                The Nuer government militias in particular will play an 
                important role; they are ready for contact with the 
                U.S. and the U.S. can use this opportunity to press 
                them on human rights abuses and to engage them in favor 
                of peace, neutralizing the Sudan government divide and 
                conquer weapon.

                  The lack of commercial experience and education of 
                the southern leadership has been an obstacle at peace 
                negotiations. The U.S. can help ``level the playing 
                field'' by providing an informed and realistic 
                education about difficult technical issues such as oil 
                and water, two natural resources located in the south, 
                and the main natural resources of the entire country. 
                Now lack of familiarity with these issues and 
                commercial and other enforcement mechanisms has 
                prevented the parties, especially the SPLA, from 
                seriously negotiating on these topics. The Sudan 
                government needs to understand that if it shares 
                resources, its revenue will be larger than it is now. 
                It is not necessary to forcibly displace southerners 
                from the oilfields, a difficult and costly process, if 
                there is peace and human rights respect.

  <bullet> The U.S. administration and the Congress need to reexamine 
        U.S. financial support for the SPLM/A, a strategy often used 
        during the Cold War in Angola, Nicaragua, and elsewhere. This 
        support to the SPLM/A, given without any human rights 
        conditions whatsoever, will not lead to more democracy or 
        respect for human rights inside the SPLM/A or the south. It is 
        unlikely to influence the outcome of the peace talks. Human 
        Rights Watch opposes such aid until the human rights record of 
        the SPLM/A is substantially improved, as independently 
        verified.

                  The U.S. support for the rebels comes in several 
                ways, including the Congressionally-approved ESF 
                funding of the National Democratic Alliance (NDA). The 
                NDA now has offices in Washington DC and Asmara. The 
                SPLM/A is the dominant member of the NDA; its 
                spokespersons in Washington are now funded, we 
                understand, by U.S. taxpayers.

                  The U.S. AID program, intended to begin to lift the 
                south from its extreme level of underdevelopment, has a 
                catch that favors the SPLM/A. It in effect gives a veto 
                to the SPLM/A over projects and persons funded by U.S. 
                AID in SPLA territory. This tends to create a one-party 
                patronage state. It does this without any human rights 
                conditions at all being placed on the SPLM/A by the 
                U.S. government.

  <bullet> A serious radio program conducted by independent journalists 
        beamed at the entire south for hours a day, in Juba Arabic and 
        local languages, should cover the peace negotiations in non-
        inflammatory detail and provide a forum for southern 
        discussion. This forum would provide an opportunity for free 
        expression, which now is very limited in southern Sudan.

                  Likewise, facilitated access for international press 
                to the south will increase world interest in Sudan and 
                support for human rights and the peace process among 
                U.S. allies.

                  Continued high-level engagement in the peace process 
                by responsible U.S. officials, who should be ready to 
                weigh in when the inevitable obstacles develop.

  <bullet> Engagement with southerners across the board will increase 
        the chances for peace and human rights. In the Nuba Mountains 
        the popular groundswell on both sides for a ceasefire forced 
        both the Sudan government and SPLM/A to come to an agreement. 
        The southern situation is more complex than the Nuba Mountains, 
        but the need to engage popular constituencies for peace and 
        human rights is the same.
                               background
    Former U.S. Sen. John Danforth presented a four-point test to the 
parties in late 2001. The test was to determine if they were serious 
enough about peace to warrant U.S. engagement for peace in Sudan. In 
May 2002 Sen. Danforth concluded that the parties, the government of 
Sudan and the rebel Sudan People's Liberation Movement/Army (SPLM/A), 
were serious.
    Human Rights Watch applauded the Danforth initiative because it 
produced four agreements by the parties which were essentially human 
rights agreements. We gave the U.S. negotiators substantial credit for 
this. Negotiations were fraught with frustration and difficulty.
    Unfortunately, U.S. enforcement of these four agreements has not 
lived up to expectations. There is a lack of funding and lack of 
sufficient U.S. personnel to assure enforcement and also be proactive 
in the peace negotiations now underway in Nairobi. More funding is 
something this committee can facilitate. Pushing U.S. allies for a 
stepped-up financial commitment is also a must. The State Department 
should make that one of its top priorities.
    The four Danforth agreements were: 1) agreement not to target 
civilians or civilian objects in the south, to be monitored by 
international observers required periodically to publish their 
findings; 2) humanitarian cease-fire in the Nuba Mountains and access 
for humanitarian activities; 3) an independent slavery investigation 
committee of eminent persons from different countries; and 4) zones of 
tranquillity for the purpose of treating polio, guinea worm, and bovine 
rinderpest.
    One: The agreement not to target civilians simply requires that the 
parties comply with the Geneva Conventions which both have violated 
throughout the conflict. Getting the parties, especially the 
government, to sign this agreement and to agree to its monitoring by 
international observers was very difficult and took months. Yet this 
agreement was signed by the government of Sudan on March 10, 2002, and 
by the SPLM/A on March 25.
    The disturbing fact is that to date, four months later, the 
monitors have not been retained, with perhaps a few exceptions. They 
are not operational and it appears they will not be operational inside 
Sudan for several weeks, at least. This is the responsibility of the 
U.S.
    This is a serious problem for human rights enforcement and for the 
success of the peace negotiations. U.S. credibility is at stake. So are 
the lives of thousands of southern Sudanese.
    A key Swedish oil company, Lundin Petroleum, suspended its oil 
operations in southern Sudan in January 2002 because of security 
concerns. Since that time, as reported by several reliable extensively 
documented reports based on interviews in the field, the government of 
Sudan has accelerated its military campaign in Lundin's area, forcing 
displacement of its residents. Its plan appears to be to depopulate the 
area of the original inhabitants, southerners of the Nuer and Dinka 
tribes or ethnic groups, to make the areas ``safe'' for foreign oil 
companies. Had the monitoring operation been in place quickly, it could 
have deterred many deaths and the forced displacement of tens of 
thousands more.
    The failure to enforce this key aspect of the Danforth agreements 
also hurts and hinders the search for peace. Southern Sudanese have to 
be convinced that, if they enter into an agreement with the northern 
political Islamist government, key governments will back it up 
politically and other ways. The U.S. performance on the enforcement of 
the ``no targeted attacks on civilians'' agreement is not convincing.
    Two: The Nuba Mountains cease-fire agreement, signed on January 19, 
2002, for six months and recently extended for another month, also 
lacks sufficient enforcement. According to reports from individuals 
active in relief in the rebel areas of the Nuba Mountains for several 
years, there have been a series of events in the monitoring operation 
that make the Nubas and the SPLM/A question whether they should trust 
the monitors who are in place. For instance:

  <bullet> The Joint Military Committee (JMC) overseeing the 
        humanitarian ceasefire and the rest of this agreement is still 
        below quota, and underfunded. It does not have enough staff to 
        enforce the agreement;

  <bullet> The government is still interfering with free movement of 
        civilians;

  <bullet> The Sudan government promised, in the Nuba agreement, to 
        move some of its garrisons in the Nuba Mountains. Five such 
        garrisons have not be been moved and two or three others have 
        dragged their feet about leaving SPLM/A-designated areas as 
        promised. They have been replaced military that were removed 
        (as promised) with large contingents of ``armed police;'' and

  <bullet> The JMC has lagged in locating a neutral site as required in 
        the agreement, one where both parties could meet. The JMC 
        headquarters is perceived as located in the Sudan government's 
        territory.

    On the positive side, the Nuba population on both sides eagerly 
endorsed a humanitarian ceasefire and thereby brought pressure on their 
leaders to sign an agreement. A Regional Conference in June in the 
rebel areas of the Nuba Mountains, observed by Nuba representatives 
living in government areas, was very successful. Its purpose was to 
elicit Nuba opinion on what was still to be done to achieve compliance 
with the Danforth Nuba agreement. The conference, which resolved to 
continue support of the ceasefire agreement with heightened attention 
to enforcement, was considered a valuable exercise in democracy.
    Three: In mid-May 2002 the International Eminent Persons Commission 
(created by the Danforth agreement and funded by the U.S.) released an 
excellent, comprehensive and up-to-date report on the situation of 
abduction, slavery, and forced labor in Sudan. The recommendations to 
the government of Sudan seem to have been ignored.
    Four: Zones of tranquillity for three health problems for three 
limited areas ran into problems caused by almost all involved. 
Resolving them consumed large amounts of time of top U.S. officials.
    At the same time, the Sudan government attempted to radically 
restructure the thirteen-year-old international cross-border relief 
program, the U.N.'s Operation Lifeline Sudan (OLS). The restructuring 
aimed to give the Sudan government control of relief going into the 
oilfield area now the target of government military action, Western 
Upper Nile. The U.S. was a leader in creating the OLS in 1988 and put 
its foot down against the changes. This too consumed enormous amounts 
of time of top U.S., U.N., and other officials.
    The U.N. calls the persistent efforts of the Sudan government to 
gain control over the U.N. relief program a ``monthly drama'' that must 
stop.
    Although the Danforth initiative is a U.S. initiative, E.U. 
countries need to be included in its financing and enforcement. The 
E.U. and its members, the U.N., and the U.S. are in agreement about 
basic human rights principles. In Sudan, the lack of field-based 
independent human rights monitoring leads to sharp factual 
disagreements among the parties. Once the facts are established by 
independent monitors, it should be much easier to organize a joint 
international campaign to enforce respect for human rights. This will 
go a long way to convince the Sudan government that key foreign 
governments are united and serious about peace and human rights, and 
that an agreement must be reached.
    The U.S. should not compromise on enforcement of these Danforth 
four agreements, which are essentially human rights agreements. It 
should not compromise or turn into a bargaining chip humanitarian 
relief or human rights. That would greatly compromise the effectiveness 
and credibility of the U.S. in peace negotiations.
    As for the SPLM/A and the south, we emphasize the difficulties on 
the southern side because they are less well known and understood than 
the difficulties with the government.
    Largely because of the SPLM/A's history of human rights abuses 
against southerners, the SPLM/A does not control the whole south nor 
does it speak for all its peoples. The persistence of a divided south 
has opened the door to the Sudan government's manipulation of ethnicity 
in the south. It gives the government tools to use against a just 
peace.
    The negotiating context includes the issue of self-determination 
(independence) for the south. The mandate of Human Rights Watch does 
not include self-determination. Yet those familiar with the south 
recognize that there is strong southern (but not Nuba) support for 
self-determination, largely because of the long history of abuse and 
discrimination directed against southerners by all Sudanese 
governments. Since independence in 1956, northern governments have not 
respected diversity nor fostered tolerance.
    The south, even before independence, has been one of the least 
developed areas of the world. Its underdevelopment has mushroomed since 
the beginning of the current phase of the civil war in 1983.
    It is hard to imagine how deeply this fundamental deprivation of 
economic, social, and political rights has hamstrung the search for 
peace. The south has a small educated class. Schools are almost 
nonexistent. Health conditions are appalling and drain the energy of a 
large segment of the population. Communications are extremely limited 
due to low literacy rates and absence of media, including the radio 
that in other African countries reaches the illiterate. Information, 
often incorrect, is conveyed by word of mouth from trusted community 
leaders who are not necessarily educated. This reinforces the ethnic 
divides in the south. Political organization is rudimentary.
    The SPLM/A has contributed to and reflected these problems. It is 
not a democratic organization nor does it have a political program or 
plan that envisions a movement in that direction, creation of 
democratic institutions, or training of the population to participate 
in a democratic state where rule of law and human rights prevail.
    Its ability to lead militarily has been proved. But it has failed 
to lead southerners politically. The SPLM/A does not speak for the 
whole south. Its leader, Col. John Garang, cannot lead the south into a 
peace agreement that does not reflect southern political aspirations. 
Signing such an agreement is probably the only thing that would cost 
him his leadership.
    Southerners have tried recently to make their voice heard in peace 
negotiations. The Danforth report in May 2002 and the leaked draft 
peace agreement in early July 2002--proposed by some involved in the 
IGAD negotiations--have sparked southern protests and demonstrations 
(outside Sudan's police state). What lit the fire was the idea that the 
peace agreement would not provide a conclusive opportunity for 
southerners to exercise their right to self-determination.
    In this political climate in the south, created by lack of respect 
for human rights, it is hard to see how the SPLM/A can be convinced to 
sign the draft peace agreement now circulating. The U.S. can help. 
Human Rights Watch's suggestions appear at the beginning of this 
testimony.

    Senator Feingold. And finally, we go to Paul Townsend. He 
is the country representative of the Sudan Program of Catholic 
Relief Services [CRS], which is the largest private voluntary 
organization operating in southern Sudan.
    Mr. Townsend has been with CRS for 12 years. In his 
capacity as country representative, he oversees one of CRS's 
largest programs with over 200 staff and 11 field locations 
within Sudan, and also support facilities in Kenya, Uganda and 
the United States. He also serves on the core group for the New 
Sudan Council of Churches.
    Welcome, and you may proceed with your testimony.

   STATEMENT OF PAUL TOWNSEND, COUNTRY REPRESENTATIVE, SUDAN 
       PROGRAM, CATHOLIC RELIEF SERVICES, NAIROBI, KENYA

    Mr. Townsend. Thank you very much, Mr. Chairman, and, 
again, thank you for this opportunity to participate in the 
hearing and the opportunity to testify on behalf of Catholic 
Relief Services.
    With your permission, I would like to just summarize very 
briefly some of the recommendations and statements made in my 
written testimony which has been submitted to you.
    I will start by reemphasizing, as was said by Mr. Winter, 
the fact that the situation in Sudan is urgent and 
deteriorating, putting at risk, as has been stated by the 
United Nations, 1.7 million lives, and the fact that the lack 
of humanitarian access directly contributes to the loss of 
these innocent civilian lives. The Khartoum Government bears 
the greatest responsibility to this lack of access.
    Recent atrocities include the fact that over 40 aerial 
attacks on civilians by the Government of Khartoum have been 
reported since January of this year. We know that there are 
many more that are not reported.
    These attacks have caused massive displacement of families, 
countless deaths and injuries, and interruptions to life-
sustaining activities such as the planting of crops, as well as 
the provision of education and primary health services.
    Over the past year and a half, staff members from five 
humanitarian aid organizations have been killed, including one 
of my own staff, Onen Joseph Clay, who was killed last 
September while having to drive in a flight-denied area.
    Another, albeit more subtle, atrocity is the Khartoum 
Government's arbitrary denial of flight access for humanitarian 
assistance. Huge areas of southern Sudan, much of which is only 
accessible by air, remain off limits. Again, Mr. Winter did an 
excellent job describing the situation. And I reemphasize that 
the areas of southern Blue Nile, Upper Nile, eastern Equatoria 
and Bahr al Ghazal continue to not allow access. And, in fact, 
places like eastern Equatoria have been subject to flight 
denial since 1998.
    Again, the situation is urgent. Acute and chronic 
malnutrition has been registered throughout much of these 
regions. These are conditions similar to those leading to the 
famine in 1998 in which an estimated 100,000 people died.
    Let me cut to the chase and, if you would allow me, I would 
like to underscore the recommendations made in our written 
statement, many of which, I think, qualify under the idea of 
the toolbox that you mentioned earlier.
    The United States and the international community must make 
progress in humanitarian issues, including those of access, a 
clear priority as part of any negotiations in relationship with 
the Khartoum Government.
    We talked earlier of the three-pronged approach in terms of 
the goals of the administration's policy toward Sudan, counter-
terrorism, humanitarian assistance, and peace process. And I 
think that there is a need to, as has been discussed 
previously, to assure that there are clear linkages between 
those goals, and that when--that conditions which are granted 
because there is progress in one goal are not actually seen as 
signals of acceptance under other goals.
    How can the Khartoum Government be applauded in making 
progress on counter-terrorism internationally when they are 
carrying out terrorism on their own, within their own 
boundaries?
    The United States--the United Nations and donor governments 
must ensure unimpeded humanitarian access to all at-risk 
populations. Access would be better assured by naming the 
Operation Lifeline Sudan security management teams as the 
independent mechanism for approving these requests. So, again, 
here is a clear action that could be taken in order to assure 
unfettered access to all populations.
    The verification mission as brokered by Senator Danforth 
must be implemented without delay. Monitors must be granted 
unimpeded access to all areas of Sudan, especially where the 
oil is being developed. And I was pleased to hear that there is 
some progress being made on this. I think that this has to be 
seen as a critical activity and carried forth with full support 
and as agilely as possible.
    Related to the issue of access, but also equally if not 
more important in terms of supporting the peace process, 
corporations and governments involved in the Sudanese oil 
market, the oil, must be made to recognize and take 
responsibility for stopping the impact these activities have in 
escalating the war; limiting humanitarian access and ultimately 
contributing to this loss of innocent life that we have been 
discussing.
    And finally, again as described by John, the right of the 
people of Sudan to determine for themselves how they are 
governed as a society must be upheld. This should be viewed as 
an essential building block for peace and an instrument leading 
to greater political self reliance amongst the people of Sudan.
    In conclusion, Mr. Chairman, Congress has a crucial role to 
play in saving the lives of innocent Sudanese and ensuring a 
viable future for the Sudanese peoples. I urge you to seek the 
support of your colleagues and act on these recommendations 
immediately.
    I thank you for calling this hearing and for the 
opportunity given to Catholic Relief Services to testify.
    And I would also like to thank the American people for 
their support. Without both the private and public resources 
that you provide, we would not be able to carry out our life 
saving mission in Sudan.
    I welcome the opportunity to respond to any questions.
    Senator Feingold. Thank you, Mr. Townsend.
    [The prepared statement of Mr. Townsend follows:]

  Prepared Statement of Paul Townsend, Country Representative, Sudan 
                   Program, Catholic Relief Services

    Thank you, Mr. Chairman, and members of the Subcommittee on African 
Affairs, for organizing this hearing. I am honored to have the 
opportunity to testify. My name is Paul Townsend and I am the Country 
Representative for the Sudan Program of Catholic Relief Services, based 
in Nairobi, Kenya. Catholic Relief Services has been involved in Sudan 
for 30 years, has been a founding member of Operation Lifeline Sudan, 
and is today the largest private voluntary organization operating in 
southem Sudan, serving an estimated 400,000 Sudanese.
    We are all familiar with the tragedy in Sudan. With an estimated 
two million lives lost in this conflict and four and a half million 
more displaced since 1983 alone, Sudan is the most desperate 
humanitarian disaster on our planet.
    In light of the recent, intense, and sustained international 
diplomatic efforts following in the wake of the Danforth Mission, the 
people of Sudan are offered a unique opportunity to move forward on a 
political solution to their 19-year long deadly civil war. As in most 
civil conflicts, the questions remain as to the depth and breadth of 
the political will of all parties involved, particularly the Government 
in Khartoum and the Sudan Peoples Liberation Movement/Army (SPLM/A).
    In response to your invitation, Mr. Chairman, I'll primarily direct 
my remarks to the issues of humanitarian access into Sudan. I will 
emphasize, in particular, several obstacles to the stated U.S. policy 
goal of unimpeded humanitarian access throughout Sudan.
    It is important to note that the vast majority of casualties in the 
Sudanese conflict have been non-combatants who died of famine and 
health-related causes. Any meaningful attempt to staunch the loss of 
life in Sudan must recognize humanitarian concerns as an intrinsic and 
inseparable component of political negotiations. If the current 
humanitarian crisis continues to deteriorate we could see a situation 
as devastating as the famine of 1998 in which an estimated 70,000 
people died. The tremendous loss of life in such a scenario would 
undermine any peace process currently underway.
          the physical challenge of providing humanitarian aid
    The size and geographical complexity of Sudan make it one of the 
most difficult places in the world to deliver humanitarian services. An 
estimated 25-30 million people live in an area roughly equivalent to 
the size of the United States east of the Mississippi River. The 
southern third of the country is racked by war, famine, intense human 
displacement, and is strewn with the bones of millions of Sudanese 
women, children, and men. More than 5 million people live in this 
region nearly the size of the state of Texas. Medical facilities, 
communications, and essential road infrastructure are largely non-
existent throughout much of this region. Overland travel is severely 
hindered by impassable rivers and mangrove swamps, and is rendered 
nearly impossible during the rainy season.
                  a framework for humanitarian relief
    Operation Lifeline Sudan is a UN-coordinated relief effort 
comprising UN agencies and more than forty international and local non-
governmental organizations. In response to the severe famine in Sudan 
in 1988 that claimed the lives of more than 250,000 people, the 
Government in Khartoum, the Sudan People's Liberation Movement/Army and 
the United Nations jointly established Operation Lifeline Sudan (OLS). 
OLS was the world's largest humanitarian effort of its kind, and the 
UN's first negotiated access program. Today, it remains one of the most 
extensive and complex relief operations in the world.
    OLS was established through the signing of the Beneficiary Protocol 
by the three main parties--the Government in Khartoum; the SPLM/A; and 
the UN. This protocol set forth a series of guarantees to ensure a safe 
and continuous supply of humanitarian assistance (access) to 
populations most affected by the war in Sudan. The first principle of 
the protocol affirms that war-affected populations have the right to 
receive humanitarian assistance, a right enshrined in international 
humanitarian law through the Four Geneva Conventions of 1949, an the 
two Additional Protocols of 1977.
               political obstacles to humanitarian access
Despite its commitments, the Government in Khartoum has systematically 
        ignored the humanitarian protection afforded by the Protocols.
  <bullet> As part of the Operation Lifeline Sudan agreement, flight 
        requests must be submitted to the Government in Khartoum and 
        the Sudan Peoples Liberation Movement/Army for approval each 
        month, with the understanding that either party can approve or 
        deny access based on their respective security assessments. 
        These assessments are made without prior consultation and with 
        no recourse for appeal.

  <bullet> In direct contradiction to its obligation as a signatory to 
        the Geneva Conventions and the OLS Beneficiary Protocol, the 
        Government in Khartoum has consistently restricted humanitarian 
        access to vulnerable populations in Sudan through the abuse of 
        this approval process, and has obstructed the delivery of 
        essential aid and services through other bureaucratic barriers.

  <bullet> Some areas in Sudan such as the Nuba Mountains have been 
        inaccessible to humanitarian agencies for years, and currently 
        the Bahr al Ghazal and Western Upper Nile regions, precisely 
        where there is the greatest need for assistance, have been 
        denied access to sustained humanitarian assistance for several 
        months. Eastern Equatoria, where Catholic Relief Services 
        supports over 200,000 internally displaced and war-affected 
        people, has been consistently denied flight access since 1998.

  <bullet> Typically the Government in Khartoum denies access to 25 
        locations per month. This month the Government has denied 
        access to approximately 50 locations in southern Sudan, and all 
        of Eastern Equatoria, placing an additional 1.7 million people 
        at risk of famine and disease.

  <bullet> In addition to a listing of the areas requested for access, 
        the Government in Khartoum has demanded maps and coordinates of 
        the locations to which relief assistance is to be supplied and 
        the airstrips to be used. The Government in Khartoum has 
        repeatedly employed military gunships and Antonov bombers to 
        disrupt humanitarian operations and displace human populations. 
        in February 2002, government gunships attacked a crowd of 
        civilians who had gathered for food distribution. Many other 
        attacks on civilian populations and humanitarian operations 
        have been recorded but little has been done to stop these 
        vicious attacks. When pressured to respond, the Government in 
        Khartoum issues tepid statements suggesting that these 
        ``attacks'' are nothing more than ``regrettable mistakes'' or 
        ``technical errors.'' The Government continues to impede 
        humanitarian operations in Western Upper Nile, Bahr al Ghazal 
        and the Equatoria regions to the present.

  <bullet> The Government in Khartoum has demanded that all flights 
        entering Sudanese airspace from the south be cleared by the air 
        control tower in Juba. This creates an impossible situation 
        given that the Juba tower has a radio range of approximately 50 
        nautical miles, and that aircraft enter Sudanese territory 
        approximately 150 nautical miles away from Juba, much too far 
        to establish the required VHF radio contact.

  <bullet> Recently the Government in Khartoum called for the closure 
        of the Lokiehoggio base, the main center of operations for 
        humanitarian agencies going into opposition held areas of 
        Sudan, an option declared ``unacceptable'' by the U.S. Special 
        Humanitarian Coordinator Andrew Natsios.

  <bullet> Again in direct contradiction to the OLS Beneficiary 
        Protocol signed as part of a tripartite agreement, the 
        Government in Khartoum unilaterally declared in May of this 
        year that access into Western Upper Nile would be limited to 
        five days only and all flights would be required to originate 
        from within government controlled areas.

    These are but a few examples of a long history and a clear intent 
of the Government in Khartoum to manipulate the delivery of 
international humanitarian aid. According to recent testimony from 
USAID, ``[t]hese obstacles are so consistent as to amount to a 
deliberate strategy'' (R. Winter. Testimony before the House Committee 
on International Relations, June 5, 2002).
    All parties to the conflict in Sudan bear the responsibility to 
ensure safe access for the delivery of humanitarian assistance to non-
combatants, and it is clear both parties have failed in those 
responsibilities. Military insecurity and the misappropriation of aid 
consistently impede the delivery of humanitarian assistance. I want to 
stress that in the ease of Sudan, though, that it is abundantly clear 
that the greatest obstacle to the delivery of humanitarian assistance 
now is the long-standing practice of flight denials. The party 
responsible for these flight denials is clearly the Government in 
Khartoum.
                  consequences of the denial of access
    In some areas, flight denials by the Government in Khartoum are 
endangering the lives of humanitarian agency staff by forcing the use 
of highly insecure overland routes. Traveling overland in these areas 
exposes staff to multiple security risks including landmines, military 
ambush, and armed theft and attack. Over the past 18 months staff 
members of at least five humanitarian aid organizations have been 
killed, including Onen Joseph Clay of Catholic Relief Services, killed 
in the line of duty September 1, 2001.
    The crisis is made all the more urgent in that Sudan is now facing 
a potentially severe famine. It is critical that full access be granted 
to humanitarian personnel so that a comprehensive assessment and 
appropriate preparations be made to avert this impending human 
disaster. According to a recent UN report, more than 1.7 million people 
are currently at risk. Acute and chronic malnutrition has been 
registered throughout many of the regions of the Upper Nile, Bahr al 
Ghazal, and Equatoria, conditions similar to the famine in 1998. 
Overland deliveries of humanitarian assistance to these regions will be 
impossible or seriously inadequate due to severe obstacles posed by 
overland travel. Flight access to these areas must be guaranteed--
absent of this, tens of thousands of people face an uncertain future.
                   economic obstacles to aid delivery
    A serious concern to those of us involved in the delivery of 
humanitarian and development assistance to the peoples of Sudan is oil. 
The Catholic Bishops of Sudan have repeatedly called upon oil 
companies, their governments, and the international community to halt 
all exploration and development of oil in Sudan until peace can be 
negotiated. As a result of further oil development, and the attempt to 
create an extensive buffer zone to protect investments and workers, we 
continue to witness the forced displacement of hundreds of thousands of 
southern Sudanese. As people are forced to move from their homelands, 
they join the millions of others who have been forcibly displaced, thus 
deepening the humanitarian crisis. The Government in Khartoum denies to 
an increasing number of displaced persons the means necessary for their 
survival. Oil thus perpetuates and deepens the humanitarian crisis and 
will continue to do so unless and until a consistent policy is 
developed to adequately deal with the full impact of the Government's 
program to take control of oil-rich regions in southern Sudan.
                    further obstacles to u.s. policy
    One of the most difficult issues confronting the people of Sudan is 
that of political self-determination. Since 1994, this principle has 
become a galvanizing force for many Sudanese even if a full and 
developed understanding of its meaning and application has not been 
publicly debated. The Sudan Council of Churches including the Catholic 
Church of Sudan continue to endorse this principle as a means to two 
complementary ends: a respect for the fundamental dignity of the 
Sudanese people in all dimensions of their lives; and as a powerful 
political instrument providing additional incentive to all parties to 
commit to a substantive and measurable peace process.
    Notwithstanding the future political status of people living in 
areas outside the control of the Government in Khartoum, there is a 
serious lack of civic education, empowerment, and institution building. 
This represents a major obstacle to full political participation and to 
progress towards a viable and just peace. Greater attention must be 
given to the development of institutions capable of promoting informed 
political participation and the rule of law. This holds true equally in 
southern Sudan, in Nuba Mountains, in other marginalized areas, and 
throughout all of Sudan.
    A crucial obstacle to implementing U.S. policy in Sudan is the fact 
that the United States and the international community have yet to 
identify and employ the incentives and pressures necessary to ensure 
that the parties to the conflict in Sudan honor their agreements. As 
Special Envoy Danforth alluded to in his report, the history of Sudan 
is littered with failed agreements. The current efforts to address this 
conflict will only be credible to the extent the parties are held 
accountable for the commitments they have made.
      recommendations to improve humanitarian conditions in sudan
          1. The United States and the international community must 
        make progress on humanitarian issues, including those of 
        access, a clear priority as part of any negotiations and 
        relationship with the Government in Khartoum.

          2. The United States must encourage the United Nations to 
        strengthen its leadership role in ensuring access and sustained 
        humanitarian assistance, and end the use of arbitrary flight 
        denials by naming the Operation Lifeline Sudan Security 
        Management Team (SMT) as the independent mechanism for 
        determining humanitarian access.

          3. The Verification Mission, as brokered by Senator Danforth, 
        must be implemented without delay. Monitors must be fully 
        supported and granted unimpeded access to all areas of Sudan, 
        whether Government or opposition held, especially where oil is 
        being developed. The mandate of the Verification Mission must 
        be broad in scope and coordinated with other diplomatic and 
        humanitarian efforts so as to further the cause of peace.

          4. Corporations and governments involved in the exploration, 
        extraction, production, and sale of Sudanese oil must be made 
        to recognize and take responsibility for stopping the impact 
        these activities have in escalating the war, limiting 
        humanitarian access, and ultimately contributing to loss of 
        innocent lives.

          5. The right of the people of Sudan to determine for 
        themselves how they are to be defined as a people and governed 
        as a society must be upheld. This should be viewed as an 
        essential building block for peace and an instrument leading to 
        greater political self-reliance among the peoples of Sudan.

    The recommendations I have outlined reflect a strong consensus in 
the American Catholic community. I have appended some of the policy 
statements that embody this consensus.
    In conclusion, Mr. Chairman and Members of the Subcommittee, I 
would underscore that Congress has a crucial role to play in 
implementing the recommendations I have outlined. If you find merit in 
the recommendations, I would urge that you seek the support of your 
colleagues and build these proposals into resolutions and 
appropriations passed by the Congress. I would also ask that you work 
hand in hand with the Bush Administration and its special envoys to 
ensure humanitarian access in Sudan and to prevent the repeat of 
another looming tragedy. I would further request that you support the 
work of the United Nations and non-governmental organizations in their 
unrelenting efforts to prevent widespread famine and human suffering in 
Sudan. I thank you for your consideration and welcome the opportunity 
to respond to any questions.

    [Attachments.]

Appendix 1: ``Statement on Sudan.'' Bernard Cardinal Law. March 28, 
        2000.

Appendix 2: ``Sudan's Cry for Peace.'' National Conference of Catholic 
        Bishops/ United States Catholic Conference. November 14, 2000.

Appendix 3: ``Statement of U.S. Catholic Bishops Delegation to Sudan.'' 
        April 5, 2001.

                              [Appendix 1]

                           Statement on Sudan

  bernard cardinal law, archbishop of boston, chairman, international 
       policy committee u.s. catholic conference--march 28, 2000
    For more than 16 years the peoples of Sudan have been subjected to 
the devastating effects of civil war, which, according to the Catholic 
bishops of eastern Africa, have assumed savage, fratricidal and 
genocidal dimensions. Some two million have died and twice that number 
have been displaced, with Christians and practitioners of traditional 
African religions in southern and eastern Sudan the principal victims. 
The litany of horrors includes:

        . . . slavery and related practices; torture of persons in 
        security detention; extra judicial punishment and executions; 
        disappearances of persons; lack of freedom of expression; laws, 
        attitudes and practices that discriminate towards non-Arabs and 
        non-Muslims; the manipulation of the media in favor of all that 
        is Muslim and Arab to the exclusion of other religions and 
        ethnic groups; the lack of genuine dialogue between Christians 
        and Muslims because of political manipulation; the use of food 
        for proselytism or as a weapon of war; and the systematic 
        depletion and expropriation of property and resources of the 
        population in the war zones.

         (Statement of Catholic Bishops of East Africa, August 6, 1999)

    The bishops of Sudan are clear that all sides are implicated in 
egregious human rights abuses, including the Sudan People's Liberation 
Movement/Army (SPLM/A), but the Sudanese government bears the greatest 
responsibility for abuses against civilian populations. The Sudanese 
government must end its aerial bombing of civilian targets, remove its 
restrictions on delivery of humanitarian aid to areas affected by 
famine, and cease government-sponsored militia raids on civilian 
villages, which include abduction of women and children into slavery. 
The Sudanese government must also end efforts to enforce Sharia law on 
its non-Muslim peoples. People are losing their lives and denied their 
rights in part because of their faith.
    Every effort should be made by our government and others to press 
for greater respect for human rights, but there must also be renewed 
efforts to bring an end to this cruel war. The end of the war would not 
resolve all of Sudan's problems, but it would make it possible to 
address some of the most egregious suffering of the people of Sudan--
hunger, displacement, economic underdevelopment, and slavery. As Bishop 
Joseph Gasi Abangite of Tombura-Yambio pleaded, ``we need peace; we 
must put an end to the war and the culture of hatred and violence that 
is spreading among our people.''
    There is no military solution to this conflict; as difficult as it 
may be, a negotiated solution is the only way forward. The bishops of 
East Africa have given their full support to the peace process 
sponsored by the Intergovernmental Authority on Development (IGAD), 
which, despite its particular challenges, seems the most promising 
vehicle for negotiations at this time. We strongly encourage the United 
States government to pursue vigorously efforts to encourage IGAD 
negotiations, to help strengthen its mandate and to bring additional 
pressure on the Khartoum regime and opposition groups to make a good 
faith effort to end the war.
    Given the urgent need to find a just peace to this interminable 
conflict, actions that risk exacerbating the conflict deserve careful 
scrutiny. While the Sudanese government has promised to use the 
proceeds from the recently opened oil pipeline (in which Chinese, 
Malaysian, and Canadian interests are involved) to assist those most 
affected by the war, especially the peoples of the South, and to 
improve the South's infrastructure, there is a real risk that oil 
revenues could further fuel the war.
    Food aid and other humanitarian and development assistance for 
Southern Sudan must be an urgent priority. Every effort must be made to 
ensure that this aid reaches the most vulnerable populations, wherever 
they might be. Moreover, civil society initiatives, critical building 
blocks in constructing the basis for a lasting peace, are in need of 
additional aid.
    In the spirit of solidarity, the U.S. Catholic bishops will 
continue to seek ways to respond to the needs of the Church and the 
people in Sudan. Through Catholic Relief Services, we continue to build 
effective relief and development programs in this war-ravaged country. 
We support efforts to respond to serious violations of human rights, 
from slavery and attacks on civilian populations, to egregious 
violations of religious liberty and the use of food as a weapon. We 
encourage peace initiatives undertaken by the churches in Sudan. We are 
working with others in support of renewed efforts to help find a just 
and lasting political settlement to this war. We encourage the sending 
of missionaries to those regions where the Church is experiencing 
severe difficulty and where bishops are prevented from visiting the 
people entrusted to their pastoral care. We urge religious and 
humanitarian agencies to help support educational initiatives 
undertaken by the Church in Sudan. Finally, we call upon all Catholics 
to lift up the Sudanese people in prayer. Our spiritual solidarity 
provides encouragement to those seeking an end to the war and the 
beginnings of a national dialogue based upon respect, the dignity of 
all persons and the right to self-determination.
    The violence and repression in Sudan cannot, indeed, must not 
continue. The people of Sudan yearn for a just peace. They cry for an 
end to the enslavement of their women and children. They yearn to be 
free from indiscriminate violence and the constant threat of famine. 
They long for equal rights, for Muslims, Christians, and practitioners 
of traditional African religions. They search for an opportunity to 
build a just and prosperous society that is a valued member of the 
family of nations. It is long past time for the international community 
to overcome its indifference toward the humanitarian nightmare in 
Sudan. It is long past time to do what can be done to help the people 
of Sudan realize their yearning for a just peace. Peace is not easy, 
but it is possible, and it is the only way forward.

                                 ______
                                 

                              [Appendix 2]

                         Sudan's Cry for Peace

    social development and world peace, united states conference of 
                  catholic bishops--november 14, 2000
    The cruel, fratricidal conflict in Sudan continues with few signs 
that an end is in sight. One of the worst human tragedies of our times 
has been met with relative indifference by the international community.
    During the last 17 years, more than two million men, women and 
children have died and twice that number have been driven from their 
homes and ancestral lands. While this war is fueled and perpetuated by 
the drive for political and economic power, people continue to lose 
their lives and be denied their rights, in part, because of their 
faith. A government that does not represent the people of Sudan has 
waged a systematic campaign of terror against Christians, practitioners 
of traditional African religions, and non-Arabs, in the southern and 
eastern parts of the country, while in the north, Christian churches 
have been destroyed and voices of opposition have been brutally 
repressed.
    The Bishops of Sudan are clear that all sides are implicated in 
egregious human rights abuses, including the Sudan People's Liberation 
Movement/Army (SPLM/A). The Sudanese government, however, bears the 
greatest responsibility for abuses against civilian populations. 
Slavery, torture, executions, religious persecution, discriminatory 
laws, unconscionable restrictions on aid to populations threatened by 
famine, indiscriminate bombing of churches, hospitals and schools, and 
the systematic destruction and expropriation of property and resources 
are just some of the horrors perpetrated on the people of Sudan. These 
horrors have only intensified in recent months.
    The government in Khartoum, bolstered by increasing oil revenues, 
appears to be pursuing a military buildup in the hopes of winning the 
war by force. At the same time, recent military gains in the south by 
the SPLM/A have emboldened it to step up its military campaign. No 
satisfactory solution to this conflict can be achieved through military 
means. In place of war and violence, the proper way to pursue the goal 
of peace is to seek a political solution through dialogue.
    The peace process sponsored by the Intergovernmental Authority on 
Development (IGAD), despite its particular challenges and complexities, 
deserves support as the only viable means to a just and sustainable 
peace. With the Bishops of Sudan, we urge our government to use its 
influence with those involved in this process to renew their commitment 
to finding a just peace by fully implementing the Declaration of 
Principles to which they have already committed themselves. Ways also 
should be found to open this process to civil society representatives 
so as the better to ensure that it will reflect the aspirations of all 
Sudanese.
    As new efforts are made to revive the peace process, efforts also 
must be taken to avoid actions that risk exacerbating the conflict and 
increasing the suffering of already vulnerable populations. All parties 
to this conflict, but particularly the Sudanese government, must end 
the use of food as a weapon of war. The international community must 
secure guarantees from the government so that humanitarian aid reaches 
the most vulnerable populations, wherever they might be.
    We share the fear of the Sudanese Bishops that new oil revenues 
``will not be used for the welfare of the Sudanese.'' The Bishops are 
convinced that these revenues ``will fuel the war rather than expedite 
its termination.'' We call on all those involved, including 
international companies involved in oil exploration and development in 
Sudan, to use their influence to promote basic human rights and to urge 
the equitable distribution of the benefits of the country's oil 
resources for the good of all.
    As Catholic Bishops, we seek to strengthen the bonds of solidarity 
with a suffering Church and people in Sudan. We ask U.S. Catholics and 
others of good will to join with us in finding more concrete and 
effective ways to act in solidarity with the Church in Sudan as it 
works for a peace which at present seems so distant.
    One way continues to be the crucial role that Catholic Relief 
Services is playing not only in aiding displaced persons and other 
victims, but also in helping people rebuild their lives and communities 
out of the ruins of this conflict. In addition, more support should be 
given to grassroots efforts that seek to strengthen the role of civil 
society in conflict resolution, especially the peace initiatives 
undertaken by the religious bodies of Sudan. The Church also needs the 
assistance of more missionaries, especially in regions where the Church 
is experiencing severe difficulty and where bishops are denied access 
to those entrusted to their pastoral care.
    The violence and repression in Sudan cannot be allowed to continue. 
Sudan's political and military leaders must abandon their current path, 
which has led only to endless death and destruction, and embark on a 
new path of freedom, justice and peace for which their people so deeply 
yearn. Our government and other members of the international community 
should stand ready, in the words of the Sudanese bishops, to ``come to 
the rescue of the people from an impending genocide.'' The 
international community can do more to help the people of Sudan achieve 
an end to this dreadful war. Peace is not easy, but it is possible, and 
it is the only way forward.
    We must pray for the people of Sudan. Our spiritual solidarity is 
indispensable to those in Sudan who, despite everything, have not lost 
hope that their work for a just peace will ultimately bear abundant 
fruit. Let us turn to the intercession of St. Bakhita Josephine of 
Sudan, who was released from the oppression of slavery, that her native 
land may be at peace.

                                 ______
                                 

                              [Appendix 3]

         Statement of U.S. Catholic Bishops Delegation to Sudan

    social development and world peace, united states conference of 
                    catholic bishops--april 5, 2001
    I am Bishop John Ricard of Pensacola-Tallahassee and Chairman of 
Catholic Relief Services, the overseas relief and development agency of 
the U.S. Catholic Bishops. I also am a member of the U.S. Bishops' 
Committee on International Policy, which is chaired by His Eminence 
Bernard Cardinal Law, Archbishop of Boston. I am joined by Bishop 
Edward Braxton of Lake Charles, Louisiana, also a member of the U.S. 
Bishops' Committee on International Policy. A third member of our 
delegation, Bishop Nicholas DiMarzio of Camden, New Jersey and chairman 
of the U.S. Bishops' Committee on Migration, returned to the United 
States yesterday.
    We are here today to report to you about our recently concluded 
visit to Sudan. In January 2000, the Catholic Bishops of Sudan invited 
the U.S. Bishops to send a delegation to Sudan to witness first hand 
the human consequences of their suffering nation's nearly 18-year civil 
war. Cognizant of the suffering of the Sudanese people and desirous of 
supporting our brother bishops and the Church in Sudan, we have come as 
representatives of the U.S. Bishops and the Catholic Church in the 
United States to learn more about this interminable and seemingly 
intractable conflict.
    During our visit, we have met with authorities in both the North 
and South of Sudan. We also met with leaders of the Catholic Church, 
other Christian bodies, the Islamic community and civil society. In 
these meetings, we raised issues of peace, religious freedom, human 
rights, and displaced persons. We also visited areas hardest hit by the 
war as well as the Sudanese who have borne the burden of this conflict, 
in camps for both the internally displaced and refugees.
    From our discussions and visits, we have found, first and foremost, 
that this conflict cannot be characterized in simple terms. All 
attempts to reduce the war to any single factor distorts reality and 
does not serve the cause of peace. Despite all the complexities 
involved, however, our mission has deepened our conviction that efforts 
toward peace in Sudan can no longer be neglected by the international 
community. The judgment of history will be determined by the courage 
and determination of the international community to take bold steps now 
to help bring this cruel war to an end. In our judgment, the United 
States must play a central role in this effort.
    While a heightened engagement by the international community, 
especially the United States, must take place, we hold serious concerns 
about the intentions of the Government in Khartoum. It is perfectly 
clear to us that the primary responsibility for the prosecution of this 
war lies with the Government in Khartoum. The Government's systematic 
denial of religious liberty to Christians and other non-Muslims in both 
the North and South, use of aerial bombings and other tactics to 
terrorize and displace populations in contested areas, and documented 
violations of basic human rights provide evidence of a regime intent 
upon accumulating political and economic power and creating by force an 
Islamic state. Such reprehensible behavior only prolongs the violence 
and suffering and precludes any serious efforts towards peace.
    In our view, a just and lasting peace must be based on the 
following principles:

  <bullet> The right of the people of Sudan to determine for themselves 
        how they are to be defined as a people and governed as a 
        society;

  <bullet> The right of all Sudanese to have their basic human rights 
        respected, including the right to practice their religion 
        freely;

  <bullet> The right of all Sudanese to return to their homes;

  <bullet> The right of all Sudanese people to live in peace and 
        security.

    In order to create an environment in which a just and lasting peace 
can be achieved, we believe that the United States and the 
international community should take the following immediate steps:

  <bullet> Call for and help negotiate an immediate and verifiable 
        cessation of hostilities, monitored by the United Nations or 
        another international body, which includes a halt to the 
        expulsion of civilian populations from their homelands;

  <bullet> Urge corporations involved in the exploration, extraction, 
        production, and sale of Sudanese oil to recognize the impact of 
        these activities on the escalation of the war;

  <bullet> Do more to end human rights abuses by parties to the 
        conflict, particularly the abduction and enslavement of 
        Sudanese citizens, especially women and children, and the 
        forced recruitment of minors into military service;

  <bullet> Press all parties to the conflict to end the use of food as 
        a weapon and to guarantee unhampered delivery of humanitarian 
        aid to affected populations, as outlined in the Beneficiaries 
        Protocol and the Declaration of Principles.

    In making this visit to Sudan, our overriding concern has been to 
help bring attention to the terrible human suffering caused by this war 
and the urgent need for a just peace. When we return to the United 
States, we will share what we have seen and heard with our fellow 
Catholic Bishops and the Church in the United States, as well as our 
political leaders and the wider American public. We will continue to 
focus attention on the plight of the Sudanese people and work 
tirelessly toward a just peace in Sudan.
    Above all, we invite all people of good will, regardless of their 
religious identity, to join us in our prayer that God will deliver the 
people of Sudan from the ravages of this terrible conflict.
    Thank you.

    Senator Feingold. I thank all of you for your patience 
today and for your testimony. And I do just have a few 
questions that I would like to pursue.
    First for Dr. Morrison and Mr. Prendergast: To what degree 
is corruption a problem within the Sudanese Government today, 
and what about within the SPLM? And let me sort of suggest why 
I ask. I am trying to understand something about the calculus 
of leadership here.
    Why should the Government of Sudan negotiate a just peace 
that ends the conflict, recognizes the South's right to self-
determination, and includes mechanisms for transparency in the 
oil sector and revenue sharing?
    Today, that government need not take the South's views into 
account in its policies, and can spend its limited oil revenues 
in any way it pleases. Since the Sudanese Government does not 
appear terribly interested in the general well being of the 
Sudanese people, the promise of overall development does not 
seem to be a significant carrot for them, or in the case of the 
SPLA, if elites currently enjoy the lion's share of resources 
and have no interest in accountability, how appealing will 
these revenue-sharing schemes really be?
    Let us start with Dr. Morrison.
    Dr. Morrison. The short answer is: We really do not know 
well enough. And we should know better and we should be making 
a special effort, I think, in terms of the administration's 
efforts to understand this dimension much better because, until 
we do, we will not know what kind of incentives are at play 
here.
    And if you take the Government of Khartoum, there is not 
much transparency there. The oil revenues are tied, obviously, 
to weapons, or to conventional weapon procurement. They are 
tied to privatized industries that have been parsed out over 
the years to NIF insiders.
    Much like many other oil rich companies, there tends over 
time to be an increase of these kind of special relationships 
which, if you are going to change the way it is managed, you 
are going to run up against these vested interests.
    On the SPLM side, in terms of the way they manage their own 
affairs, I do not--many have commented that there is not a 
whole lot of transparency there, either, in the disposal of 
many of these resources. And how they are thinking about the 
future and management of their affairs is--it becomes 
critically important, too. And how they imagine the use of the 
wealth, and how they imagine a fair equitable distribution will 
become very important.
    Senator Feingold. Mr. Prendergast.
    Mr. Prendergast. Yes. On the flip side, the incentives for 
why should they conclude a peace agreement, I think on the 
government side, Steve earlier talked about the pie being small 
and shrinking in the context of continued conflict. In the 
context of the peace agreement, I do not think it doubles, 
Steve. I think it quadruples minimally because of the kind--the 
real mother lode of the oil deposits that are further south in 
the heart of the conflict areas now.
    So the pie expands so dramatically that everyone gets 
access if it is structured in a way that people do not feel 
they are going to get cut out, those that are now feeding at 
the trough.
    Second, the government will enter the community of nations 
fully, that they do not participate in now. There is still a 
partial isolation, a cloud hanging over Sudan everywhere they 
go because of the United States, which we ought to maintain and 
increase every time they bomb, every time they do anything that 
acts contrary to the Geneva Conventions.
    That entering fully into the community of nations is sought 
greatly by certain elements of the government. Others do not 
care, would rather just go work with China and see what they 
could do with some of the allies they already have.
    A third reason why the government would want to go forward 
in a peace agreement would be that slowly--these kinds see the 
handwriting on the wall. They are students of history. They 
know no government lasts forever.
    And they see--they watched Milosevic go. They saw what 
happened to those in Afghanistan after September 11, watched 
how fast that regime fell.
    And they see that, in fact, if they maintain this one-foot-
in-and-one-foot-out kind of a policy that this is not going to 
last forever and that economic rehabilitation in Sudan solely 
depends on the consummation of a peace deal.
    As long as that economy erodes, the formal economy erodes, 
they are grabbing the money. That is for sure. People are 
getting rich. But the formal economy is eroding. As long as 
that erodes, the ability for them to hold power with such a 
small support base deteriorates. And at the end of the day, 
they are not going to control and manage the process of their 
departure. And they do not want that.
    On the SPLA side, well, again, it is the flip side of what 
Steve was saying. They are not getting anything out of anything 
right now. In a peace deal, certainly if it is done properly, 
revenue sharing, there is going to be great gains to be made 
for both, by both, for individuals but also, more importantly, 
for the communities in the South, for the reconstruction of the 
South.
    But much more importantly than that--that is a side show, 
and Steve is right. You know, a revenue sharing plan will flow 
from the central issues, not drive them. Access to governing at 
the center in a reformed Sudanese state is where they want to 
be.
    And I think that has been the case. People want to either 
be able to help determine the future of the Sudan state from 
the South, determine the future of a united Sudan state or they 
want the right to walk away. And they will fight for that. And 
there is not going to be any peace agreement until that is 
codified in a peace agreement.
    Senator Feingold. Let me ask the same two witnesses if 
there is a divergence between the economic and military 
realities that confront the parties to the conflict in Sudan 
and the perceptions of these parties. In other words, are 
there, sort of, if you would, any cherished illusions that need 
to be dispensed with if the peace process is to move forward?
    Mr. Prendergast.
    Mr. Prendergast. I think the rhetoric is purely that of 
talking about Jihad in the North, and talking about ``Just hold 
on. We will win this war'' in the South. Neither side believes 
that they can win. I do not think they need to be disabused of 
that notion although, again, the public rhetoric will seem 
contrary.
    I think both of them can maintain, though, their current 
levels of fighting: On the SPLA side, because of the manpower 
advantages; on the government side, because of the weapons 
advantages, purchasing from oil wealth. They can sustain this 
conflict, this low to medium intensity conflict, indefinitely. 
Internal power struggles, potential internal power struggles 
probably pose more of a threat to their rule than any other 
external or the war itself, and so I think--you know, I do not 
think we need to--I think they are very realistic about the 
limitations of the military card in the context of changing the 
situation in Sudan.
    Senator Feingold. Anything on that, Dr. Morrison?
    Dr. Morrison. Yes, just a couple of quick points that are 
very consistent with John's analysis. Both sides, I think, 
realize they are in an indefinite military stalemate, even at 
intensified levels of fighting.
    The oil wealth is not translating into a strategic 
breakthrough for Khartoum on the battlefield. The increased 
cohesion among southern Nuer-Dinka armed elements is not 
translating into an ability to bust through on their side. So 
that is one point.
    The second is I think you can see in the behavior of the 
parties in Nairobi evidence of increased realism, which is 
encouraging.
    And, third, I think part of this is intensified pressures 
on both sides. On the Khartoum side, they are running in an 
almost-half-billion-dollar-a-year budget deficit right now. 
They cannot move forward on all sorts of things internal until 
they have fixed their relationship with the United States and 
gotten back into a more normal relationship globally and gotten 
access to critical support in Bretten Woods institutions and 
others. And they are not going to get that until they are 
square with Washington. And they are feeling that pressure.
    The southern insurgents are seeing an erosion of military 
and material support from within the region and from other 
places in Africa that have historically been very generous in 
supporting them. They are seeing that wane very dramatically. 
These pressures are pushing the parties, I believe, toward a 
more realistic assessment of the need for peace.
    Senator Feingold. Thank you. For both of you, again: What 
about timing? And you were sort of getting at this. Are there 
clear deadlines, economic, political or military that the 
parties to the conflict really need to meet to maintain their 
interests? And how can the United States most effectively take 
advantage of the parties' timeline to push our agenda?
    Mr. Prendergast.
    Mr. Prendergast. Well, I think the timeline is yesterday. 
We have argued that the aftermath of September 11--you saw the 
graph. The leverage in the part, or on the part of the United 
States was at its highest point in those few months after, 
because Khartoum simply did not know what we were going to do 
in the next step on the war on terrorism, and they still do not 
know.
    In the visits that I have made to Khartoum, there is a lot 
of uncertainty about particularly what the Defense Department's 
role in all this is going to be. And that is why we argue in 
the testimony that the Pentagon will directly be involved in 
the visible element of U.S. policy. When Senator Danforth 
travels to Khartoum, he ought to be on a U.S. military plane. 
He ought to have American officers with him, colonels.
    And when we did the peace process in Ethiopia and Eritrea, 
one of the most effective elements of our peace strategy was 
having Pentagon people. They start every meeting with a full 
military briefing to demonstrate to everybody they knew exactly 
what was going on. Nobody was going to pull any wool over 
anybody's eyes.
    We knew as much as they knew about their own deployment of 
forces, and what their calculations were. It gives great 
credibility to what you are doing on the ground diplomatically. 
And the Pentagon is non-existent in this whole process. We need 
to get them involved in a significant way. So I think there is 
a lot of things we can do to enhance our own leverage. And even 
though yesterday was the best day to have started to move on 
this stuff, it is not too late now.
    But the window is closing, I think, the longer Khartoum 
sees they can string everybody along with this, you know, 
mediocre cooperation on the counter-terrorism and see very 
little to no repercussions.
    You kept asking, and so did Senator Frist and Senator 
Brownback, about what are the repercussions when they do x, y 
and z? There are not any.
    What you do see, what the response keeps coming back as is, 
``Well, we do not improve the bilateral relationship.'' So it 
is a negative.
    Senator Feingold. Right.
    Mr. Prendergast. So we have got to do more in terms of 
escalating and building that leverage and then coordinating 
with our allies.
    Senator Feingold. Dr. Morrison.
    Dr. Morrison. Senator Danforth, I thought, was very smart 
in the first phase in laying down very specific benchmarks with 
timelines attached to them for, ``Are you on,'' or ``Is this a 
yes or no,'' and ``When do you begin to deliver,'' and sign.
    We are now in a period of very intensified diplomatic 
activity with Senator Danforth, Assistant Secretary Kansteiner, 
others traveling into the region and engaging in trying to push 
and draw in other European support behind the pushing-on in 
this period.
    What are the timelines that we need to think about? One is: 
The Nuba Mountain cease-fire cannot last indefinitely on its 
own. There needs to be a demonstrated broader process on the 
search for a comprehensive peace settlement.
    So the next phase, I would think, would be seeing delivery 
of a framework agreement signed sometime within the next near 
term of 60 days, 30 days with an objective of getting the gaps 
filled within another 90 or 120 days.
    President Moi is looking to end his career and retire from 
office. And this is an important final achievement in his 
legacy that he is seeking.
    The dates of his departure are themselves up for grabs at 
the moment. And that is a shifting timeline. But it is 
nonetheless one that is out there and is going to occur in the 
near to medium term. And it is going to set some additional 
pressures in place.
    Senator Feingold. Thank you. I have got one more for the 
both of you, and then a couple for each of the other witnesses. 
What institutions in Sudan do you think have demonstrated a 
real commitment to improving the lives of the Sudanese people, 
and are these institutions going to have a meaningful seat at 
the table in negotiations about the future of Sudan?
    Dr. Morrison.
    Dr. Morrison. Since the advent of the NIF government in 
mid-1989, there has been a very, very grave erosion of civil 
life within Khartoum. I mean, Sudan as a country had a very 
illustrative history of faith-based institutions, of media, of 
universities, of a diversity of political parties. And that 
memory is very alive.
    But there needs to be a systematic effort at restoring that 
dimension and mobilizing it. And I do not have--I do not think 
there are any easy or quick possibilities for that, but it 
needs to be part of the discussion.
    In terms of southern Sudan, the churches--and I think Paul 
is best positioned to speak directly to this--but the Council 
of Churches have been absolutely integral to preserving life 
and civil life, civil institutions, an independent voice in 
southern Sudan. And their role becomes ever more important in 
this period. And then they are not shy about expressing 
themselves on the bigger political issues.
    Mr. Prendergast. One of the key missing ingredients of the 
peace process now is that 75 percent of the electorate of Sudan 
in the last election represented in Umma, the Democratic 
Unionist Party, and other northern political parties in Sudan, 
are not at the table.
    This is clearly going to be a very, very difficult sell, 
one--even if you got a peace agreement, then to implement it, 
and one of the problems of the 1972 peace agreement, was you 
did not--it was amongst the armed groups, not the civil 
population.
    And so I think at a minimum, there have to be meaningful 
approaches to include--more inclusively bring the views of the 
northern political parties into the process, and the northern 
and southern civil society elements. That can be done in many 
different ways.
    I think we have shared a number of ideas with the 
facilitation team in Nairobi about doing that. They are 
considering that. It is late again. All of this stuff should 
have been done yesterday, because if we lose a point of 
leverage--you bring the northern political parties and the 
northern and southern civil society groups into the process, 
and you create a moderating influence on the extreme positions 
of the armed actors. In the absence of their involvement, you 
are going to see that continuing divergence, I think. So even 
bringing them in a consultative way brings the possibility of 
moderating positions on the part of both of the armed actors.
    Senator Feingold. Thank you for all those helpful answers. 
Ms. Rone, what is your assessment of the administration's view 
of the oil sector and its potential to draw the parties into a 
peace agreement? Is this realistic?
    Ms. Rone. I think that it was one of the things that really 
puzzled me about the Danforth report. I do not think that oil 
companies are notorious for fostering peace to begin with, be 
they American or other international oil companies. That is not 
their, you know, initial responsibility.
    I do not have a feeling that they have a clear view of how 
this process is going to take place. I think perhaps, as Steve 
Morrison has said, that they hope that they will be--both 
parties, once they understand the benefits to full exploitation 
of the resources of the South, basically will be enticed by the 
prospect of prosperity to be or to want to enter into a peace 
agreement. I suspect that is their theory.
    I do not know if that will work. I think that both parties 
see it now as a total zero sum gain. They do not want--they get 
it all or they get nothing. And I think that they are not 
willing to share anything. They are not willing to share any 
oil revenue in any meaningful way. And the South, particularly, 
I do not think they understand the need to have discussions or 
some kind of relations with the Egyptians with regard to their 
concerns about access to the waters of the Nile.
    And I think they see the oil as an incentive, I am not sure 
about that. It is very certain that it is now an incentive for 
war for--on the government's part, and it gives them a status 
and a buzz, you know, that they did not have before because 
this is some measure of prosperity, and they have really gotten 
a few grandiose ideas about how far they can go with it.
    I do not think that they really have resigned themselves to 
the fact that they are not going to be able to capture enough 
land in the South and evict enough people from it that they 
will actually be able to provide any kind of meaningful 
guarantee for international oil companies that they hope to 
attract.
    I think partly they do not want their industry to be in the 
hands of the Asians. I think that is kind of clear. They would 
like to have the first-class international oil companies there.
    But I am not sure that the government will move off its 
current position, if that is the thing, you know, if they feel 
they have to sacrifice too much control of the oil to bring in 
the international.
    Senator Feingold. Do you think it is possible for an oil 
company to even operate responsibly in Sudan today given the 
government's tactics and the civil war?
    Ms. Rone. No, I do not, not in the South, because--and I 
wanted to make this point too about something that Mr. 
Kansteiner said. There has been talk of an oil escrow, but this 
was--the talk was about putting the revenues in escrow while 
the war was going on, possibly as a way to also incentivize the 
government and the SPLA to wrap it up and make peace, so they 
can get at the money.
    The churches in Sudan, the new Sudan Council of Churches 
that is based in the rebel area or serves the rebel areas. And 
the Sudan Council of Churches jointly issued a statement many 
years ago saying that they posed this, and they insisted and 
begged the companies to withdraw from Sudan because the natural 
consequence of the geography of the oil is that for the 
government to get at it, they have to evict southerners from 
their lands. And this, the displacement, forced displacement is 
inevitable in the government view of how to bring in foreign 
companies.
    So the churches and the--I must say in terms of 
institutions that speak for or are concerned about the welfare 
of the people and civilian institutions, the new Sudan Council 
of Churches is practically the only civilian institution left 
standing in the South after this long war so, by default, you 
know, they have become it. It has been very hard to nurture 
civil society and resurrect or revitalize even traditional 
sectors.
    But they have asked that no more drilling or exploration or 
development occur in order to prevent the continuing cycle of 
human rights abuses. And I also wanted to--well, go ahead with 
your next question.
    Senator Feingold. I am going to go to Mr. Townsend so if 
you want to make another brief comment go ahead.
    Ms. Rone. I wanted to make a couple of other points about 
access. And one being you had a question, I think about--or 
there was a question raised about access to eastern Equatoria, 
and Roger Winter said he did not know why the government had 
prevented access to eastern Equatoria, so close to the Uganda 
and Kenya borders for 4 or 5 years now.
    I have a theory that is based on the fact that this is 
really in many respects a regional war. The Sudan Government 
has housed and backed the Lord's Resistance Army and its 
attacks on civilians and the army in Uganda.
    The Lord's Resistance Army is housed in eastern Equatoria. 
I would suspect that they did not want international monitors 
or food monitors or anybody doing relief work or health 
assessments in that area to prove that they were--who would see 
the proof of the extent of their assistance to the LRA, and 
also to see, to stumble across the miserable conditions in 
which the LRA has kept captive Ugandan children.
    Senator Feingold. Yes.
    Ms. Rone. So that has been, you know, an area that has been 
off limits, in a lot of senses, to international observation.
    In addition, now that war has leeched back into Sudan 
because the LRA, the Government of Sudan and the Government of 
Uganda agreed, should be dismantled or driven out or shut down. 
They could not agree on a methodology for doing that.
    The end result is that the Khartoum Government has given 
the Uganda Army the carte blanche to go into southern Sudan and 
root out the LRA. Well, the Ugandan Army cannot root the LRA 
out of its own territory, much less territory in another 
country with which it is not familiar. And this is excellent 
guerrilla territory, and the LRA has been there for years, and 
they know it very well. And they are eluding the Ugandan Army, 
plus the fact that since the Sudan Government cutoff food aid 
to them and other things, the LRA has been victimizing southern 
Sudanese civilians.
    And I do not think that Khartoum really cares about that. 
But the end result has been a multiplication of wars in this 
area of southern Sudan, and an intensification of the vile 
effects on civilians of war.
    And the LRA is nowhere near being controlled. It is--the 
southern Sudanese are just paying a higher price now. It is 
very difficult.
    Senator Feingold. Thank you. I have to start an hour-long 
conference call in about 10 minutes, so I apologize.
    Ms. Rone. Thank you.
    Senator Feingold. Mr. Townsend, how should humanitarian 
access issues in Sudan be addressed? What specific steps should 
be taken on the ground in the short term to achieve our policy 
of approving--or improving access and also in the long term?
    Mr. Townsend. Thank you, Mr. Chairman. As I suggested 
earlier and it has been suggested by others, I think the first 
step is to assure that the issues of humanitarian assistance, 
and particularly the issue of access, are clearly linked to the 
overall relationship and negotiations that occur between the 
Government of the United States and the Government in Khartoum.
    I think that if incentives are given for progress made on 
certain fronts, they, again, do not create any disincentive for 
actions that are being carried out on other fronts such as the 
issue of access.
    I think eliminating the Khartoum Government's veto on 
access--again using the OLS security management team is another 
way. I think there are many good things about the OLS framework 
that can be continued to be used.
    I think there are--given the purchasing of increased 
military hardware, there are additional risks to non-OLS 
access, and that may increase over time. And if within the 
framework of OLS, we can get beyond this veto question, then it 
will be or it will then eliminate the issue with respect to 
access being arbitrarily denied.
    And, again, by having security assessments being carried 
out by the security management team, there is an element of 
impartiality or an international monitoring occurring in terms 
of the conditions on the ground with--under which humanitarian 
assistance can be provided.
    I would support USAID's proposals for an internationally 
monitored flight clearance mechanism. Complementing this, I 
would support the idea of U.N. monitors and peacekeepers again 
pushing the envelope on the monitoring process that has been 
and was first presented by Senator Danforth.
    And I would consider other options. The Sudanese Catholic 
Bishops, for example, have called for monitored no-fly zones. 
And I think we have seen that in other areas of the world. This 
is a mechanism that can be used.
    It is tremendously challenging, because of the extent of 
the territory under consideration. But I think, again, a very 
much more aggressive approach to monitoring and to supporting 
this unimpeded access is the toolbox that can best serve our 
needs and the needs of the innocent lives of the Sudanese.
    Senator Feingold. Finally, would you say that the 
humanitarian community is satisfied with the efforts of the 
United States to hold the Government of Sudan to its 
commitments regarding OLS and access?
    Mr. Townsend. I think good progress is being made. I am 
extremely concerned that there are peace negotiations occurring 
on the one hand, and bombing and air attacks and human rights 
violations occurring on the other.
    And I cannot--it is hard for me to understand how a 
process, a peace process can continue with our support without 
the cessation of hostilities at least being a precursor to that 
process.
    Senator Feingold. Thank you.
    Let me thank all of you not just for your patience and your 
help today, but for your commitment to this situation. You are 
a very impressive panel. And although we have been at this a 
long time, it would be valuable to spend even more time talking 
to you.
    This subcommittee can only handle so many hearings in a 
year in fairness to my colleagues. And I hope people recognize 
that the decision to hold this hearing and to spend a lot of 
time looking at this in detail is a signal of how serious we 
are about this.
    And it is a bipartisan seriousness. It is not a Republican 
issue. It is not a Democratic issue. It is an issue that all 
Americans should care about. And we do, of course, want the 
cooperation of the Sudanese Government when it comes to our No. 
1 priority, which is fighting terrorism. And we do desperately 
want peace in that country, a permanent fair peace. But we will 
not allow either of those goals to undercut the necessity of 
protecting human rights and guaranteeing humanitarian 
assistance. And that is, as far as I am concerned, the message 
that I am getting from many of the comments that each of you 
have made.
    I thank you again.
    The record will be left open for other Senators to submit 
questions until the close of business tomorrow. Thank you. And 
that concludes the hearing.
    [Whereupon, at 5:15 p.m., the subcommittee adjourned, to 
reconvene subject to the call of the Chair.]

                              ----------                              


             Additional Questions Submitted for the Record


 Responses of Hon. Walter Kansteiner, Assistant Secretary of State for 
  African Affairs to Additional Questions for the Record Submitted by 
                      Senator Joseph R. Biden, Jr.

    Question. You mentioned in your oral testimony that Executive Order 
13067 issued by President Clinton in 1997 was an impediment to 
establishing the verification team for investigating attacks against 
civilians. Elaborate on what prevented you from establishing the 
verification unit and how the State Department was able to address the 
issue.

    Answer. Executive Order 13067 requires that organizations, 
including those conducting work to lessen human suffering, obtain an 
Office of Foreign Assets Control (OFAC) license prior to conducting 
operations in Sudan. Fund disbursement to any U.S. contractor to 
conduct business in Sudan is delayed until the OFAC license is in hand. 
As a result, the measures that were crafted to halt commercial and 
other contact with Sudan introduced an additional hurdle for our 
diplomatic and programming efforts.

    Question. Your written testimony indicates that ``some European 
intellectuals'' were skeptical about the existence of slavery in Sudan. 
How has the skepticism of intellectuals influenced the thinking of 
policy of European Union member states? Did it cause these governments 
to deny the existence of slavery? What has been the reaction of 
European governments to the findings in the report of the Eminent 
Person's Group on Slavery, which has effectively established the 
existence of slavery in Sudan?

    Answer. I cannot guess the extent to which intellectuals influence 
European governments on the issue of slavery in Sudan.
    European partners involved in Sudan have commented in diplomatic 
circles that the report published by the Eminent Person's Group on 
Slavery, Abductions and Forced Servitude was a positive addition to the 
discourse on this topic.

    Question. Was the above report released and widely publicized in 
European capitals? Have members of the Eminent Person's Group been 
involved in publicizing the report? Have U.S. Government officials been 
actively involved in discussions about the findings in the report with 
their European counterparts and members of the European press?

    Answer. The report on Slavery by the Eminent Person's Group was 
widely publicized in European capitals. It was sent to U.S. missions in 
European capitals that are most engaged on Sudan.
    Members of the Eminent Person's Group have discussed the report in 
the press and in other public forums. In addition, U.S. diplomats have 
discussed this report with European counterparts and members of the 
European press. The report has been covered in U.S., European and 
African press.

    Question. You stated during your testimony that an Arabic 
translation of the report would soon be available. Will the Arabic 
translation be widely publicized by U.S. Government officials in the 
Arab and Muslim world?

    Answer. The Arabic translation of the report on slavery in Sudan by 
the Eminent Person's Group will be released to our Middle Eastern 
missions. The Arabic translation of this report will be available on 
the Department of State's Web site and also will be distributed to 
Arabic speaking news outlets.

                                 ______
                                 

 Response of Hon. Walter Kansteiner, Assistant Secretary of State for 
African Affairs, to an Additional Question for the Record Submitted by 
                          Senator Jesse Helms

    Question. If capital market sanctions were applied to oil companies 
operating in Sudan, would the goal of decreasing oil revenue to the 
Sudanese Government be met?
    What oil companies are operating currently in Sudan? Have any of 
them made public statements as to whether they would continue to 
operate if the United States Government applies capital market 
sanctions?

    Answer. Companies that are concession holders in Sudan's oil 
operation include: Talisman (Canada), Petronas (Malaysia), Sudapet 
(Sudan), China National Petroleum Corporation (China), Gulf Petroleum 
Corporation (Qatar), Lundin Oil (Sweden), OMV GmbH (Austria), Slavneft 
(Russia) and TotalElfFina (France).
    Several of these companies noted that they have potential buyers 
waiting in the wings and will sell their holdings if pushed by the 
passage of the Sudan Peace Act. The majority of these companies, 
however, have no intention of selling their holdings and have promised 
to shift--or already have shifted--their companies' search for capital 
into other, overseas markets. Their comments, in short, were that they 
are more interested in Sudan's oil than in U.S. capital markets. That 
said, the imposition of capital market sanctions on Sudan is not likely 
to have a significant impact on their oil revenues.
    Unfortunately, the market for Sudan's oil is beyond the reach of 
the United States' capital markets. Changing the way our capital 
markets operate to address this problem is not only going to miss its 
goal, but also hurt our markets by pushing capital elsewhere.

                                 ______
                                 

 Responses of Hon. Walter Kansteiner, Assistant Secretary of State for 
 African Affairs, to Additional Questions Submitted for the Record by 
                           Senator Bill Frist

    Question. In your opinion, does the Government of Sudan's actions 
violate the terms of long-standing Operation Lifeline Sudan agreements? 
In your opinion, does the Government of Sudan's actions undermine your 
confidence that any future agreements will be respected?

    Answer. In my opinion, the Government of Sudan has not met all of 
its obligations under the tripartite agreement--in spirit or letter--
that established Operation Lifeline Sudan.
    In my opinion, the Government of Sudan will only abide by 
agreements if they are clear in intent and monitored by the 
international community properly.
    We have transposed this idea into the structure of the agreement 
signed in Machakos, Kenya. The agreement, known as the Machakos 
Protocol, contains components that allow the international community to 
participate in its implementation. The United States will continue to 
press the parties to strengthen this principle in the ensuing peace 
talks.

    Question. How will the Administration respond if the Government of 
Sudan insists that access to humanitarian relief flights will proceed 
only on its own terms? If the Government of Sudan continues to insist 
on negotiating over the issue of access for humanitarian flights, what 
steps will the Administration take to ensure that humanitarian relief 
is delivered in a timely way?

    Answer. After the signing of the Machakos Protocol on July 20, the 
United States has again called for unimpeded access by the Government 
as a demonstration of their commitment to ending the suffering of the 
people of Southern Sudan.
    We are at a critical juncture on humanitarian access and a cease-
fire at this time and have communicated our expectations that some 
movement on these issues must be a priority.
    The United States and other humanitarian actors in Sudan utilize 
non-Operation Lifeline Sudan (non-OLS) operations for distributing 
relief to areas in need that are otherwise off-limits to OLS.
    Non-OLS organizations do not adhere to the boundaries or restraints 
outlined by Khartoum, and have some degree of flexibility. Conversely, 
they do not have the lift and delivery capacity of the OLS mechanism. 
Our planning contingencies include, however, the ability to shift 
resources to non-OLS actors should OLS continue to be denied access 
when assistance is needed.
    In addition, USAID has organized a group of ten donors who have now 
met twice in Geneva on this issue. USAID is planning a joint donor 
meeting in Khartoum with the government on humanitarian access in mid-
August.

    Question. Can you foresee a situation in which the Administration 
concludes that the Government of Sudan is not serious regarding access 
for humanitarian relief flights but is delaying access to gain a 
military advantage? What factors would lead to such a conclusion? Would 
a lengthy delay in reaching an agreement on access be a sufficient 
reason for such a conclusion?

    Answer. After the signing of the Machakos Protocol on July 20, the 
United States has again called for unimpeded access by the Government 
as a demonstration of their commitment to ending the suffering of the 
people of Southern Sudan.
    Concrete progress on the remaining substantive issues remains to be 
demonstrated by both parties. As the talks resume in Machakos in mid-
August, we intend to urge Khartoum and the opposition forces to 
alleviate the suffering of the Southerners by undertaking commitments 
for both unlimited humanitarian access and a cessation of hostilities.

                                 ______
                                 

      Response of John Prendergast, Co-director, Africa Program, 
International Crisis Group to an Additional Question Submitted for the 
                      Record by Senator Bill Frist

    Question. Some have suggested that any political solution to the 
conflict in the south must include a reform of the government in the 
north, arguing that the problem of the war in Sudan is ultimately a 
national problem. If the National Islamic Front remains in power in the 
north, the argument goes, the Government of Sudan will concede to an 
agreement for tactical reasons with the intent of fighting another day. 
Will a real agreement depend on some kind of regime change in Khartoum? 
If so, as it is unlikely that the NIF would voluntarily negotiate away 
its power, how do we accomplish that?

    Answer. It is correct that a comprehensive agreement requires 
central government reform. This does not necessarily mean regime 
change. Of course the NIF will not negotiate away its power, but it can 
be pressured to negotiate its reform. The reforms necessary go far 
beyond having a constitution that is neutral on religion, but also 
involves real power sharing with other parties (not just the SPLM), 
wealth sharing, and a process of transition toward democratic 
elections.

                                   - 

</pre></body></html>
